<html>
<title> - THE 2020 WILDFIRE YEAR: RESPONSE AND RECOVERY EFFORTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
         THE 2020 WILDFIRE YEAR: RESPONSE AND RECOVERY EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2020

                               __________

                           Serial No. 116-36
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                         
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-615 PDF            WASHINGTON : 2020                          
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California            CHRIS JACOBS, New York
ANN KIRKPATRICK, Arizona             TROY BALDERSON, Ohio
CYNTHIA AXNE, Iowa
XOCHITL TORRES SMALL, New Mexico

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi
                                     TROY BALDERSON, Ohio

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Johnson, Hon. Dusty, a Representative in Congress from South 
  Dakota, submitted article......................................    53
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     4
    Submitted post...............................................    39
    Submitted statements on behalf of:
        Federal Forest Resource Coalition........................    49
        Sanders, Dee, General Manager, Trinity River Lumber 
          Company................................................    52
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     3
    Submitted letters:
        Comment letters:
            S. 4431 and H.R. 7978................................    29
            H.R. 7978............................................    30
        On behalf of Chad Hanson, Ph.D., Chief Scientist and 
          Director; Jennifer Mamola, D.C. Forest Protection 
          Advocate, John Muir Project............................    32

                                Witness

Phipps, John, Deputy Chief for State and Private Forestry, U.S. 
  Department of Agriculture, Washington, D.C.....................     6
    Prepared statement...........................................     7
    Submitted questions..........................................    97

                           Submitted Material

Ogsbury, James D., Executive Director, Western Governors' 
  Association, submitted letter..................................    58


         THE 2020 WILDFIRE YEAR: RESPONSE AND RECOVERY EFFORTS

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2020

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:37 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, O'Halleran, 
Pingree, Axne, Costa, Cox, Schrier, Panetta, Peterson (ex 
officio), LaMalfa, Allen, Kelly, Balderson, and Johnson.
    Staff present: Prescott Martin III, Felix Muniz, Jr., Anne 
Simmons, Josh Maxwell, Matthew S. Schertz, Ricki Schroeder, 
Patricia Straughn, John Konya, Dana Sandman, and Justina Graff.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry entitled, The 2020 Wildfire Year: Response and 
Recovery Efforts, will come to order. Welcome, and thank you 
for joining today's hearing with Mr. John Phipps, Deputy Chief 
for State and Private Forestry at USDA. After brief opening 
remarks, the hearing will open to questions. Members will be 
recognized in order of seniority, alternating between Majority 
and Minority Members. When you are recognized, you will be 
asked to unmute your microphone, and you will have 5 minutes to 
ask your question or make a comment. In order to get as many 
questions as possible, the timer will stay consistently visible 
on your screen.
    Thank you for joining us here today in Washington and 
online for this critical hearing on the wildfires ravaging the 
western United States. We have all seen the footage from 
California, Oregon, and Washington. It is surreal, and it is 
terrifying. I want to talk today about what we can do to meet 
the needs and face the challenges presented by this 
unprecedented wildfire season out West and elsewhere. Deputy 
Chief Phipps, thank you for joining us today, and for this 
important discussion. I appreciate everything you and the 
Forest Service do, and did to accommodate our request on such 
short notice, and I do not want to take any more than a minimum 
of your focus away from the important work happening to fight 
wildfires in communities across our country. The Forest Service 
recently lost one of its own fighting a wildfire in southern 
California. I ask that before we continue, we pause for a 
moment of silence for him, and for all those we have lost to 
wildfires this year.
    As we speak, there are over 70 large fires ranging across 5 
million acres in the Southeast, the South, the Rocky Mountains, 
the Pacific Northwest, and California. For some perspective, 
that is the equivalent of five million football fields, one 
million Major League baseball fields, or 2.5 million typical 
city blocks that are currently burning. There are more than 
31,000 firefighters and support personnel on the ground waging 
this battle, and we have to keep their safety and their needs 
foremost in our minds. We even have firefighting staff from 
Canada and Mexico supporting the heroic efforts of U.S. Forest 
Service staff, who are working under very dangerous and trying 
circumstances, in addition to a public health crisis unlike 
anything we have seen in 100 years.
    Our communities are trying to manage wildfire evacuations 
during COVID-19 and protect the electric grid during extreme 
heat and wildfire, among other challenges. Yet as unprecedented 
as this moment is, I am reminded of another moment in our 
nation's history when Americans also faced great uncertainty 
and hardship. During the 1930s, at the height of the Great 
Depression and the Dust Bowl that ravaged the Great Plains and 
much of the United States, there was a sense that Congress did 
not understand the severity of the problems facing America's 
farmers and families living in the midst of an environmental 
crisis, and despite demands for action by both the 
Administration and those impacted by dust storms, Congress 
failed to act in a comprehensive manner.
    It was not until March of 1935, when the dust from the 
Midwest reached the Capitol steps, and lawmakers were forced to 
see it and experience it with their own eyes, that compromise 
could be reached on what became the first Federal conservation 
bill, the Soil Conservation and Domestic Allotment Act of 1936. 
In the 3 years that followed its passage, soil erosion dropped 
by more than 20 percent. I can only imagine what hardship could 
have been averted had Congress acted when they first understood 
that there was a crisis brewing for Americans across the Great 
Plains. I want to be clear that all those here and listening 
virtual today, it should not take the ash of these wildfires, 
or the debris and flood waters of hurricanes ravaging our 
coasts, or severe heat felt by millions across the nation and 
across the globe on a daily basis reaching the Capitol steps 
for this Congress to take action on the environmental crisis 
that we are currently facing. Climate change is real, it is 
here, and the failure of this or any committee in Congress to 
take action will have real human costs.
    Still, I do not mean to suggest that there are not other 
factors that have contributed to these and other recent 
wildfires. We know that many factors are involved in the 
current wildfires, and our wildfire risk, and that certainly 
includes encroachment of housing and development on forested 
wildlands, forest management decisions and resources, fire 
management, weather events, like the historic lightning storm 
that struck California in August, the actions of people, the 
use of pyrotechnic devices, and the list, unfortunately, 
continues. I expect that after this fire year we will look to 
learn from what has happened, have a robust policy discussion 
and debate, and do everything in our power to prevent such a 
drastic situation from happening in the future.
    Today we are here to work together on the emergencies that 
face us right now. That is part of what I enjoy most about this 
Subcommittee. We focus on how we can work together on behalf of 
our constituents, and this Subcommittee is here to learn about 
what is happening since we last spoke in July about the 2020 
wildfire season, what you expect may happen as it continues, 
and to explore how we can work with you to protect our 
communities from wildfires this season. I look forward to that 
discussion for our continued work together on the issues 
related to the U.S. Forest Service. I look forward to 
discussions about how we can continue our important work with 
you through the farm bill and annual funding cycle to ensure 
the health and resilience of our National Forests, which are 
the economic drivers of small communities across the country. 
Thank you very much.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Thank you for joining us here in Washington and online today for 
this critical hearing on the wildfires ravaging the western United 
States. We've all seen the footage from California, Oregon, and 
Washington. It's surreal and it's terrifying. I want to talk today 
about what we can do to meet the needs and face the challenges 
presented by this unprecedented wildfire season out West and elsewhere.
    Deputy Chief Phipps, thank you for joining us today for this 
important discussion. I appreciate everything that you and the Forest 
Service did to accommodate our request on short notice, and I do not 
want to take more than the minimum of your focus away from the 
important work happening to fight wildfires in communities across the 
country.
    The Forest Service recently lost one of its own fighting a wildfire 
in southern California. I ask that before we continue, we pause for a 
moment of silence for him, and for all of those we have lost to 
wildfires this year.
    As we speak, there are over 70 large fires raging across 5 million 
acres in the Southeast, South, Rocky Mountains, Pacific Northwest, and 
California. For some perspective, that is the equivalent of five 
million football fields, one million Major League Baseball fields, or 
2.5 million typical city blocks are burning.
    There are more than 31,000 firefighters and support personnel on 
the ground waging this battle. We have to keep their safety and their 
needs foremost in our minds.
    We even have firefighting staff from Canada and Mexico supporting 
the heroic efforts of U.S. Forest Service staff who are working under 
very dangerous and trying circumstances in addition to a public health 
crisis unlike anything we have seen in 100 years. Our communities are 
trying to manage wildfire evacuations during COVID-19 and ensure 
electric grid security and resilience during extreme heat and wildfire, 
among other challenges.
    There is no doubt that these fires and their related horrors are 
intensifying as the climate warms. Now, I appreciate that there are 
longstanding disagreements about how and why we are in the position we 
are in. I am not here to relitigate the past or argue about the future. 
We are where we are, and today, we're here to work together on the 
emergencies that face us right now. That is part of what I most enjoy 
about this Subcommittee, we focus on how we can work together on behalf 
of our constituents.
    This Subcommittee is here to learn about what is happening since we 
last spoke in July about the 2020 wildfire season, what you expect may 
happen as it continues, and to explore how we can work with you to 
protect our communities from wildfires this season.
    I look forward to that discussion, and our continued work together 
on issues related to the U.S. Forest Service. I also look forward to 
discussions about how we can continue our important work with you 
through the farm bill and annual funding cycle to ensure the health and 
resilience of our National Forests, which are economic drivers in small 
communities across the country.
    Thank you.

    The Chair. In consultation with the Ranking Member, and 
pursuant to Rule XI(e), I want to make Members of the 
Subcommittee aware that other Members of the full Committee may 
join us today. I would like to now welcome Ranking Member Mr. 
LaMalfa for his opening statement.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Well, thank you, Chair Spanberger. I really 
appreciate the effort it took to cause today's hearing today on 
this very, very important subject, as well as the participation 
of our Subcommittee Members, and the full Committee Members 
that want to take part and weigh in. It is extremely important.
    Before I really begin, though, I think it is important we 
recognize the life and legacy of our former Chairman of 
Agriculture Committee, Chairman Bob Smith, and right in the 
back there is a candle burning for him, and a small picture, as 
well as his large portrait hangs in 1302. Bob was a family man, 
a team roper, a cattle rancher, banker, a contractor, and a 
legislator from Oregon. He loved this institution and 
understood that working across the aisle was the best way to 
succeed, as we all should know. Bob was a politician's 
politician, and many sought his quiet counsel. He appreciated 
the hard work of staff and understood the responsibility of his 
office. He was a credit to this Committee, and to the House of 
Representatives. He faithfully served in Oregon's 2nd District 
from 1983 to 1995, and again from 1997 to 1999, and between 
1997 and 1999 that was his tenure as the Chairman of the House 
Agriculture Committee. Oregonians can be proud of his service 
and my prayers do go out to his family during this time. So 
thanks again, Chair Spanberger.
    As you mentioned, this year western states have experienced 
yet another catastrophic fire season, with 7 million acres 
burned, in California, 3.6 million acres burned so far. I am 
afraid future fire seasons will only get worse unless we 
dramatically improve the management and health of our National 
Forest System. In fact, the Forest Service has identified 
nearly 50 percent of the 193 million acres of the National 
Forest System is currently at high risk of a wildfire, or 
likely to be impacted by insect and disease outbreaks. At 
current pace it will take the Forest Service nearly 30 years to 
treat these acres. Our National Forests are facing an epidemic 
of declining health which is in direct correlation to 
disastrous policies that have led to a dramatic decrease in 
management, even on the portions of the National Forests 
outside of roadless and wilderness areas.
    In recent years Congress has addressed fire borrowing with 
a fire funding fix and provided new authorities in an attempt 
to streamline forest management. While there is not a single 
policy solution to solving wildfires, it is clear that our 
piecemeal approach is not nearly enough. Nearly 2 years ago 
California experienced its most deadly wildfire on record when 
a campfire in the Paradise/Magalia area took 85 lives, and 
destroyed the town of Paradise, as well as outlying areas of 
Magalia, Yankee Hill, and Concal. At that time, Congress should 
have acted. The House and Senate Agriculture Committees were 
conferencing the 2018 Farm Bill, and we had the opportunity to 
adapt a number of bipartisan House provisions that would have 
helped prevent further loss of life and property from 
wildfires. These bipartisan House provisions were created with 
input from U.S. Forest Service under both the Obama and Trump 
Administrations. However, despite good faith efforts by the 
Republican farm bill conferees, the Senate Democrats refused to 
even discuss these critical reforms.
    Healthy forests require active management in the form of 
mechanical thinning, prescribed fires, and other activities to 
ensure they do not become overgrown tinderboxes, as we see now. 
However, under the status quo, addressing at risk acres takes 
years and years, and these delays harm the very acres we are 
trying to protect. For instance, the 2018 Musick Fuels 
Reduction and Landscape Restoration Project in the Sierra 
National Forest had a proposed treatment area of 12,000 acres 
to respond to tree mortality and remove fuels along roads. To 
my knowledge, there was no litigation that delayed the project, 
yet analysis took nearly 2 years to the day to complete. 
Unfortunately, these easily identified fire prone acres were 
consumed in the Creek Fire before the restoration work could 
even begin.
    We can address these issues with common sense approaches 
that benefit both our forests and our rural communities. There 
are many ideas we can bring to the table and act on 
immediately. One example is H.R. 7978, the Emergency Wildfire 
and Public Safety Act. I am proud to have worked with my 
colleague, Representative Panetta, to introduce this bill to 
help protect the West from these catastrophic wildfires and 
implement common sense forest management reforms that will help 
prevent these fires in the future. While this is a good start, 
more work will be needed. Congress could consider any number of 
individual authorities, from bipartisan legislation, such as 
categorical exclusions for salvage, to address landscape scale 
mortality events caused by wildfire, insect infestation, and 
disease, and drought. I encourage my colleagues to take action 
on these ideas and others without delay.
    We are indeed fortunate to have Mr. John Phipps from the 
Forest Service--he is the Deputy Chief of State and Private 
Forestry--testifying for us today. I appreciate that. We hope 
to hear about his experience with wildfire issues, what tools 
the U.S. Forest Service has at its disposal, and what tools are 
needed further to prevent and suppress wildfires. Before I 
yield back, I would like to take a moment again to thank our 
Forest Service firefighters, and the other first responders 
that are currently at risk, and those that already--that was 
mentioned--have given their lives to protect our forests, 
homes, and communities. We are indeed forever grateful for 
their service, and I hope that today's hearing will lead us to 
comprehensive solutions and make their jobs easier in the 
future. Thank you, Madam Chair, I will yield back to you.
    The Chair. The chair would request that other Members 
submit their opening statements for the record so the witness 
may begin his testimony, and to ensure that there is ample time 
for questions.
    I would like to welcome our witness. Thank you for being 
here today. Mr. Phipps began his role as Deputy Chief of State 
and Private Forestry at USDA's Forest Service in 2019. He 
started his career with the Forest Service in 1976, and has 
since held a variety of roles within the agency. Prior to his 
current position Mr. Phipps served as the Station Director for 
the Rocky Mountain Research Station from 2015 to 2019.
    We will now proceed to hearing your testimony. You will 
have 5 minutes. When 1 minute is left, the light will turn 
yellow, signaling the time is close to expiring, and you should 
be able to see a clock ticking down on one of these boxes on 
the screen before you. Mr. Phipps, please begin whenever you 
are ready.

 STATEMENT OF JOHN PHIPPS, DEPUTY CHIEF FOR STATE AND PRIVATE 
                 FORESTRY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Phipps. Good afternoon, everyone. Chair Spanberger, 
Ranking Member, and Members of the Committee, I am proud to be 
representing the Forest Service today as a career professional 
forester with decades of experience dedicated to our mission of 
stewarding America's forests and grasslands for current and 
future generations. I have experience as a firefighter, land 
manager, research leader, and senior executive currently 
leading the agency's State and Private Forestry programs, 
including fire and aviation management. My testimony will 
outline the current status of Forest Service response to 
wildfires, the efforts that we have ongoing to take care of our 
employees and communities before, during, and after fires 
occur.
    Our nation is enduring a devastating wildfire year, one 
that has cut destructive swaths through states like California, 
Oregon, Washington, Colorado, and Arizona, and made more 
difficult by the ongoing COVID-19 pandemic. As of September 19, 
there have been almost 43,000 fires that have burned more than 
7.2 million acres across all jurisdictions. In addition to 
homes and property damage, these fires have taken lives 
throughout the country. We are mourning the tragic loss of 
Charlie Morton, Big Bear Hotshot Squad Boss who died last 
Thursday in California while fighting the El Dorado fire on the 
San Bernardino National Forest. Charlie's memorial service is 
tomorrow in San Bernardino.
    It is an understatement to say that this is an 
unprecedented year. Numerous large fires since mid-August have 
been in and around very large communities and developed areas 
across California and the Pacific Northwest. Smoke impacts have 
been horrendous and widespread across the western United 
States. One of the most notable challenges this year is the 
number of fires taking place at the same time, which has 
stretched us thin. Since August 18 through today, the demand 
for fire resources has exceeded supply across the system. As 
with any fire year, it takes all partners, Federal, state, and 
local government, Tribal, contractors, and volunteers to 
respond. We all work together to ensure we are making the best 
use of our resources to protect the public and our 
firefighters. As of September 19, over 32,700 interagency 
firefighters were supporting wildfire operations across the 
country, primarily in California, Oregon, and Washington. This 
is a record for most firefighters ever deployed.
    To bolster our capabilities, we requested assistance from 
the active military, as well as our international partners. 
Additionally, states have requested assistance from their 
National Guard. Preventing the spread of COVID among our first 
responders and communities is an important addition to our 
focus on safety this year. The Forest Service has been 
successful with implementing our COVID prevention and 
mitigation measures, like spread out fire camps, social 
distancing, and mask wearing. I would like to conclude by 
recognizing efforts of this Committee that took to establish 
the Congressional fire funding fix. As a result, the Forest 
Service no longer must delay priority work that results from 
transfers of funding from other Forest Service programs to pay 
for ongoing fire operations. I welcome any questions you may 
have.
    [The prepared statement of Mr. Phipps follows:]

 Prepared Statement of John Phipps, Deputy Chief for State and Private 
       Forestry, U.S. Department of Agriculture, Washington, D.C.
    Madam Chair, Ranking Member, and Members of the Committee, thank 
you for the opportunity to appear before you today to discuss Wildfire 
Management during the 2020 Fire Year. My testimony today will outline 
the current status of the USDA Forest Service response to wildfires, 
the efforts that we have undertaken to take care of our employees and 
communities before, during, and after fires occur, and the outlook for 
the remainder of this year.
    Our nation is enduring a devastating wildfire year, one that has 
cut destructive swaths through states like California, Oregon, 
Washington, Colorado, and Arizona, and made more difficult by the 
ongoing COVID-19 pandemic. As of September 19, 2020, there have been 
42,866 fires that have burned 7,236,139 million acres across all 
jurisdictions. In addition to homes and property damage, these fires 
have taken lives throughout the country. This includes one of our own 
firefighters, who died last Thursday in California.
    These fires threaten urban and rural communities, farm and 
ranchland, municipal water supplies, timber, recreation sites, and 
important wildlife habitat. They are stark reminders of the need to 
partner with communities to prepare for wildfires, while also 
proactively conducting forest management projects to create healthy, 
fire-resilient conditions on our nation's forestlands.
Unprecedented Year
    This is an unprecedented year. Since mid-August, numerous large 
fires have been in and around very large communities and developed 
areas across California and the Pacific Northwest. Smoke impacts have 
been widespread across the western United States. Firefighting 
resources have been prioritized to fires with the greatest threat to 
public safety. Several tropical cyclones have also made landfall this 
year, causing damage and requiring the response of firefighting and 
incident management personnel. One of the most notable challenges this 
year is the number of fires burning at the same time across the West. 
Typically, firefighting resources move around the country to meet 
demand. Right now, that demand for resources is high across the system. 
As with any fire year, it takes all partners including Federal, state 
and local government, Tribal, contractors and volunteers to respond. We 
all work together to ensure we are making the best use of our resources 
to protect the public and our firefighters.
    To bolster our capabilities, we requested assistance from the 
active military as well as our international partners. Additionally, 
states have requested assistance from the National Guard. Our partners 
all around the country are pitching in to help us through this 
unprecedented event. Our fire response capabilities, both on the front 
lines and in supporting our fire response and other incident response, 
is our priority work, and we will need to make trade-offs with other 
critical work.
    We are experiencing a multi-region complex wildland fire event like 
we have never seen before. The explosive growth of the Labor Day fires 
was sparked by bone dry conditions, periods of high temperatures and 
low relative humidity that make forest vegetation and grasslands 
incredibly receptive to fire. Add in a historic strong wind event that 
covered the West Coast, and wildfires grew exponentially. In a 
situation like that, the primary challenge and mission becomes making 
sure we get people out of the way of fire.
    On September 10, 2020, all 18 National Forests in California 
announced a temporary closure order due to unprecedented and historic 
fire conditions. Additionally, the Agency announced temporary closures 
of several forests in Oregon and Washington. Implementing fire 
restrictions, burn bans or associated closures is a particularly 
difficult decision that is not taken lightly. Criteria for determining 
when an area should be placed under fire restrictions or burn bans is 
determined locally with the input of partners, agencies and 
communities. Recognizing how important public access is to so many, the 
Forest Service is evaluating these closures daily, and we are committed 
to lifting the closures as soon as conditions allow.
Key Partnerships with State and Local Partners
    Wildfire response is inherently interagency as wildfires do not 
recognize jurisdictional boundaries. Effective response requires that 
all the firefighting capability--including Federal, state, local 
government, Tribal and volunteer partners--work together. These 
partnerships and relationships have evolved over many years, creating a 
robust interagency capability to support wildfires across the country. 
Many of the on-going incidents span jurisdictional boundaries and are 
in unified command, which means Federal, state and local government 
resources are jointly managing fires.
    As of September 19, 2020, over 32,700 interagency firefighters are 
currently supporting wildfire operations across the country, primarily 
in California, Oregon and Washington. This is the highest number of 
firefighters deployed since record-keeping began. More than 18,500 
interagency wildfire personnel are currently deployed to California, 
and over 9,100 personnel are deployed to Oregon and Washington.
    The Department of Defense is a key wildland firefighting partner 
this year, as they have been for decades, providing aircraft and 
personnel to serve as wildland firefighters. Over 200 soldiers from 
Joint Base Lewis-McCord in Washington are currently assigned to the 
August Complex on the Mendocino National Forest in California; also 200 
marines from Marine Base Camp Pendleton in California were deployed to 
the Creek fire in California on September 22, 2020. In addition to the 
U.S. Army and Marine activation, four military C-130s equipped with 
Modular Airborne Fire Fighting Systems (MAFFS) are currently serving as 
airtankers, providing wildfire support in California.
    The Departments of Agriculture and [the] Interior requested 
assistance from Canada and Mexico, through reciprocal agreements 
established under the authorities of the Wildfire Suppression 
Assistance Act (P.L. 100-428). On September 2, 2020, 62 firefighters 
arrived from Canada. On September 17 and 18, 2020, 444 additional 
Canadian firefighting personnel arrived in the Pacific Northwest. 
Mexico is providing firefighters as well. This week, 100 firefighters 
from Mexico will begin working in southern California. We are in 
contact with fire agencies in both Australia and New Zealand--the only 
other countries with which we have reciprocal cooperative fire 
assistance agreements. While they are interested in providing support, 
currently they are unable to do so because of the need to meet their 
own countries' COVID-19 requirements.
COVID-19 and Fire Suppression
    Preventing the spread of COVID-19 among our first responders and 
communities is an important addition to our safety focus this year. The 
Forest Service and our interagency partners have seen success with our 
COVID-19 prevention and mitigation measures. In addition to fewer cases 
than may have been expected, the learning culture of the interagency 
wildland fire agencies allows for lessons-learned to be shared in real 
time as fire incidents occur.
    All firefighters and fire camp personnel are strictly adhering to 
current social distancing protocols wherever possible. Large fire camps 
are no longer the norm. Most firefighting efforts are accomplished in 
small groups and dispersed into isolated camps to provide firefighters 
and the public better social distancing and safety from the spread of 
COVID-19. Smaller fire camps allow local health officials to contain 
positive cases and limit the spread of disease. Virtual communications 
ensure internal and external stakeholders receive the most up-to-date 
information as safely as possible. Spreading out fire camps, issuing 
personal protective equipment such as masks and gloves, screening and 
testing firefighters, and developing more contracts for logistical 
support are all built into our firefighting plans. The Agency continues 
to work with community leaders and local law enforcement to ensure 
their needs are met, and wildfire threats and capacity are clearly 
understood when planning firefighting strategy and evacuations.
    Smoke from extreme wildfire events has posed significant risks to 
public health and safety. The Interagency Wildland Fire Air Quality 
Response Program has developed approaches for early warning of wildfire 
smoke impacts through efforts at the Forest Service Pacific Northwest 
Research Station and partner agencies. Successful products include 
working with the Environmental Protection Agency to provide fire and 
smoke information on the popular AirNow.gov (https://www.airnow.gov/
fires/) website and phone app, which received over ten million views 
over the last month. A recent pilot project adds data from low-cost 
sensors and local smoke advisories to the AirNow Fire and Smoke map to 
provide the public with additional air quality information they can use 
to protect their health. Currently, 20 Air Resource Advisors are 
assigned to 21 different fires in three (3) different geographic areas 
of the western United States. Advisors provide Smoke Outlooks to inform 
approximately 21 million people, many in rural and under-served 
communities. Community preparation for wildfire smoke allows public 
health officials to be aware and prepare for effects on individuals and 
facilities vulnerable to smoke impacts.
Improving Forest Conditions
    To address the threat of wildfire, President Trump issued Executive 
Order (EO) 13855, directing active management of America's forests and 
rangelands to reduce wildfire risk. The EO includes specific targets to 
reduce accumulated vegetation and increase active forest management. 
Further, as part of its budget request, the Department submitted to 
Congress a package of legislative reforms to improve forest management 
and reduce wildfire risk. The proposals are intended to support healthy 
forests and rangelands and aid in efforts to protect homes, watersheds 
and critical infrastructure from catastrophic wildfires. The Department 
would like to work with the Committee to identify solutions that match 
the threat of the wildfire problem.
    We continue to move forward with our shared stewardship approach to 
improving the conditions of our nation's forests. Actively working with 
states, Tribes and other partners is a priority to share decisions, 
risks and mutually beneficial outcomes. In 2019, the Forest Service 
sold 3.3 billion board feet of timber, the most in 22 years. That same 
year, we were able to conduct hazardous fuels treatments on 2.7 million 
acres. Over the last 5 years, more than 700,000 acres were treated 
annually with mechanical treatments, and more than 2.1 million acres 
were treated annually through prescribed fire or natural wildfires. 
Over the last 5 years, approximately 1.7 million acres have been 
treated annually within the wildland-urban interface. While there is 
much work to be done, we remain committed to doing the right work, in 
the right places, at the right scale.
Conclusion
    The USDA Forest Service is committed to keeping our communities and 
firefighters safe. Even as we continue to battle these fires, we are 
also looking ahead to post-fire recovery and restoration of these 
forests. The work we will need to do to restore these newly devastated 
forests is in addition to the hard work already underway to improve 
conditions at the right scale and right places. The dedication, 
bravery, and professional integrity of our firefighters is second to 
none. Many have lost their own homes as they helped save their 
communities. As we work without pause with our many partners to assist 
communities impacted by wildfires, we are committed, through shared 
stewardship, to change this trend in the coming years.
    We thank the Committee for your continued focus and help. With the 
Congressional fire funding fix in place, the Forest Service no longer 
must transfer money from other Forest Service programs to cover the 
cost of fire suppression. Further, the authorities and capacity 
provided by Congress have helped us achieve our highest wildfire fuel 
reduction and prevention actions in more than 20 years. We are working 
hard; but we know it's not nearly enough. The scale of our action must 
match the scale of the problem and, in California that means treating 
two to three times more acres per year than our current efforts. We 
look forward to working with the Committee to increase the scale of our 
tools and capacity to a level that matches the great challenge 
associated with reducing the wildland fire threat facing the nation.

    The Chair. Thank you so much, Deputy Chief Phipps. Thank 
you again for being here and thank you for being patient with 
us working around a voting schedule. Thank you for your 
important testimony.
    At this time Members will be recognized for questions in 
order of seniority, alternating between Majority and Minority 
Members. You will be recognized for 5 minutes each in order to 
allow us to get as many questions as possible. Please keep your 
microphones muted until you are recognized in order to minimize 
background noise. When 1 minute is left the light will turn 
yellow, signaling time is close to expiring. I will begin by 
recognizing myself for 5 minutes.
    And I wanted to follow up on--you said a couple noteworthy 
things--well, many, many noteworthy things, but specific to 
what I wanted to follow up on, you talked about the record 
number of firefighters who are currently deployed, fighting 
fires throughout the West. You talked about the social 
distancing, and the impact that COVID-19 is having on the work 
that you all are doing, and you talked about the funding needs, 
so I would like to follow up on this question of resources.
    Of course, Congress appropriated $1 billion for wildfire 
suppression this year, and in addition to this, as you 
mentioned, another $1.9 billion is available through the 
wildfire funding fix. Given the current conditions, do you 
anticipate the need to utilize this new budget authority, to 
what full extent, and can you provide the Subcommittee with an 
update as to any transfers the Department of the Interior has 
made for wildfire suppression this year?
    Mr. Phipps. Thank you for the question. I am going to start 
with the easiest one first. Department of the Interior 
requested a $47 million transfer, which we made, and earlier we 
had transferred to them $2 million as normal cost-sharing 
between the Departments. Relative to where we are in our fire 
suppression funding, we are still within our appropriated 
amount for that, and we don't anticipate going over it, and the 
reason for that is that this particular fire year, all the 
fires seemed to happen at once later in the summer, and we 
just--the agency--the interagency community just didn't even 
have the capability to spend at the rate that it would had to 
have taken. Normally, fires are spread out across the whole 
year, and those types of years are when we are more likely to 
go over the budget and have to dip into the reserve account.
    The Chair. Okay. And you mentioned interagency, and so I am 
curious, I have concerns, and I would love your opinion about 
what the United States has, or doesn't have, currently in terms 
of a Federal strategy to reduce the risk of destructive 
wildfires overall. And specifically, in your opinion, could 
Federal planning, coordination, and development of strategies 
for community resilience, land use planning, specifically for 
development along the wildland-urban interface, help reduce the 
risks posed by destructive wildfires, and what are some of the 
major risks posed by development along with the WUI, and are 
there precautions that could be taken to mitigate these risks 
when building?
    Mr. Phipps. Thank you. The wildland fire system, our 
wildland fire problem, is complex. You have mentioned several 
of the factors. It is development in wild areas, it is climate 
factors, forest management factors for sure, and what we are 
seeing on the landscape now is, we used to call them mega-
fires, but they are even larger than that. They are landscape 
scale fires that can go 250,000+. We have one in California 
that is 800,000 acres. And we currently operate at a lesser 
scale than that. The agency doesn't have a capacity currently, 
but we could. We probably need to be scaling up two to three 
times more at least.
    The other problem we have is that we tend to think about 
these fires as they are all occurring, and as a result of how 
we manage Federal forests. That is true in part, but it is 
really an all lands problem that we, particularly in 
California, see fires originating on private land and marching 
up into the forest, and vice versa, and so we are going to have 
to start thinking more comprehensively across ownerships if we 
want to see a different picture. And I would assure you our 
scientists suggest that these western landscapes have an 
incredible capability to absorb fire and keep on going. More, 
we are going to see much more of the same. And to that, I don't 
think that is a desirable future, and it is pretty alarming. 
And, as the Ranking Member suggested, we need to come together 
and look at this differently. It is on a scale that is hard for 
people to imagine.
    Just one additional fact, again in California, pre-
settlement, the average forest had 64 trees per acre. Currently 
the average forest in California has 320. That is 80 percent 
more density. And how did that happen? It happened because we 
have been trying for over 110 years to put out every fire we 
can, and we have been really successful at that, but it is 
creating a situation where across all jurisdictions we attempt 
to put out all those fires, and as a result, we are selecting 
away the good fire, and the two percent that normally gets 
away, the catastrophic fire, when that happens under the right 
conditions, there is no stopping it, basically. We are there to 
help people get out of the way. We can; but, there is just 
tragic loss of life, and these fires burn at high severity, and 
it is just really a bad trajectory that we are on, and it is 
going to take a paradigm shift in thinking. Thank you.
    The Chair. Thank you very much Deputy Chief for your 
testimony, and we have gone a little bit over with my 
questions, but I want to confirm, you gave the number 64 trees 
per acre before settlement, now it is up to 320. Just to ensure 
that I have understood, and the rest of the Committee is 
following along, that is because natural fires that were coming 
through would have processed and would have taken out trees 
over time so that we were at that natural rate of 64? Is that 
what you are stating?
    Mr. Phipps. That is exactly right, Chair Spanberger. The 
way the--these forests evolved with fire and fire did the work 
routinely.
    The Chair. Interesting. Okay. Thank you.
    Those numbers are really, really interesting to think about 
in that way. I am going to continue on, and I will now 
recognize Ranking Member LaMalfa for 5 minutes.
    Mr. LaMalfa. Thank you again. Thank you again, Deputy Chief 
Phipps, as well. I just want to touch on a statement you made 
there too. I wholeheartedly agree on the idea that the density 
and population of our forests is much more than what is 
sustainable, especially if you are talking about drought 
periods, as we go in and out of in the West. You mentioned that 
land--private lands that are adjacent--I don't see them as 
being the initial cause of very many fires, unless there 
happens to be some kind of an accident on that, because private 
lands are either grazed or managed, they are logged, and 
forested, and all those kinds of measures, unless they are able 
to get the permits to do what they would like to do, which is 
sometimes a regulatory challenge that private lands would have. 
I would be hesitant to say that private lands are igniting 
Federal lands very often. Indeed, it is the Federal lands that 
are the scary neighbor to private lands. Over in western Tehama 
County one family that has approximately 70,000 acres has lost 
about 50,000 of their timber land due to fires occurring on a 
nearby Forest Service property, I think the 800,000 acre one 
you are speaking of.
    So let us talk a little bit about one of the issues with 
prevention. What we are seeing you can see from space, from 
satellite, the amount of smoke plume coming up from the western 
states, and we see that plume going across the country, and 
even felt it here in Washington, D.C. It has had an effect on 
the skies here, as well as massive levels of air quality that 
is way more than the unhealthy mark more locally there. I 
understand it is even hitting Europe in the Jetstream. What 
hasn't happened is preventative measures, including prescribed 
fire, prescribed fire meaning fires that we intentionally set 
at a time of year when you can control them. And we lost out 
this year on the chance, and in other years, to have more 
prescribed fire to burn when we dictate at a level we dictate, 
and instead that was shut down, and some of it was because they 
pointed to air quality issues. I guess my contrast with that 
would be what kind of air quality issue are we having versus a 
prescribed fire at a given amount of acres that gives you a 
buffer zone, gives you a fire break? What is it we need to do 
more of? Is it prescribed fire, or to allow them to burn the 
way we are burning now?
    Mr. Phipps. Well, it depends on what we want. If we want to 
maintain forests we need to start a prescribed--we need to 
safely return fire to the landscape. The way we are doing it 
now, it is all well intended, it is just not at a rapid enough 
pace, or at the right scale, and there are a number of papers 
in the science literature that would indicate that prescribed 
fire smoke, particularly given it is to be more on our terms, 
is much more benign than fire at the worst time of year, in the 
summer heat, and the amount--every--total consumption of 
forest. This event this year was just horrendous. It was 
particulate, PM<INF>2.5</INF>. that is maybe too technical, but 
it was, like, record levels, and the worst air quality in the 
world along the West Coast.
    Mr. LaMalfa. Horrific, yes. Let me touch on another point 
here in my allotted time. Talking about the loss of life, loss 
of lands, loss of livestock, and we have one particularly 
tragic story on the livestock side right near my home in Butte 
County, and I would like, with the permission of chair, to 
submit this for the record from Mr. Dave Daley. He entitles it, 
I Cry for the Mountains and the Legacy Lost, on what is known 
as the Bear Fire. It breaks your heart to read this. They are 
still out trying to recover cattle from their area. Many 
generations of family legacy that is gone there. You must read 
that. Will the Forest Service make an accommodation for 
ranchers that still have cattle that are looking for them by 
extending the grazing permit for grazing off dates, if 
necessary, and will they work with ranchers on replacement 
grazing for those who have lost their allotments due to 
wildfire? These are a couple small things we could do for these 
folks with their horrendous losses. Can we accommodate those?
    [The post referred to is located on p. 39.]
    Mr. Phipps. I believe we can. There are a lot of allotment 
management plans. It is complicated, and our grazing process 
may be a little bit constraining, but we would certainly have 
that interest to try to mitigate their loss.
    Mr. LaMalfa. Okay. We would try. Do you think this is an 
effort we can really push hard for? Because these losses are 
very real, and when they have lost in a given forest unit, tens 
of thousands of acres, as well as millions across the West, 
they need a replacement for this, and the losses are already 
devastating. We need a really concerted effort to do that. Can 
you pledge that we will push for that here in upcoming weeks?
    Mr. Phipps. Yes, sir.
    Mr. LaMalfa. Okay. Thank you. Well, I am over my time; but, 
the communication sometimes is a little slow too when there 
might be a fire impending that these folks need to know about 
and hear about when they should be clearing their cattle out of 
a given area, so let us see if we can improve on that as well. 
Madam Chair, I will yield back. Thank you.
    The Chair. The chair now recognizes Congressman O'Halleran 
for 5 minutes.
    Mr. O'Halleran. Thank you, Madam Chair, for this hearing, 
and Ranking Member. I would like to thank--I already did that. 
Fire plays an important role in our environment. My district 
has all or parts of six National Forests and the Grand Canyon. 
But if not properly managed and planned for, it causes massive 
devastation, as we have seen in recent weeks. And, in addition 
to that, the loss of life is increasing time and time again. 
And I know that is not just the Forest Service, that is how we 
put our communities together and everything else, but the urban 
interface area is critically important when you see whole 
communities be devastated like they have, and the effect it has 
on human life, families, the impact to the natural resources, 
and in Arizona, a lot of our watershed.
    This fire year Arizona has seen over 700,000 acres burn. 
That is more than the last 2 years combined. Working my--time 
here is--in Congress have seen--we have had expanded Forest 
Service authorizations to better manage and plan for fire. Mr. 
Phipps, I have a few questions about those authorizations, and 
look forward to your responses today, or at a later date, if 
you cannot answer today. First question: Congress implemented 
the fire funding fix during the 115th Congress to rapidly fund 
suppression efforts without the need to use non-fire funding. I 
would like to know how well this has worked, and has the 
ensuing budgetary stability resulted in increased efforts 
related to fire prevention? Particularly, has there been 
additional work done by the Department in the form of treatment 
and controlled burns, which you mentioned a little bit ago, are 
wildland-urban interfaces being prioritized?
    Mr. Phipps. Thank you for the question. The fire funding 
fix, it is an understatement to say it is one of the best 
things that we received. It really helps stabilize the Forest 
Service, and that was just a lot of chaos every year that we 
had to transfer, so thank you so much for that. And that is 
allowing us to better plan for a lot of things, including 
focusing our treatments and implementing them, and I think that 
is in large part because of the fire funding fix.
    One of the things that happened prior to the fix being put 
in place was that pretty much systematically over quite some 
time, say 15 years, the capacity to do that kind of work was 
reduced because all the money was also in the budget going 
towards fire suppression. At one time 15 percent of the agency 
was fire funding related, now it is around 55 percent. And now, 
just at the right time where we need to ramp up and scale up to 
these large landscape scales in our planning, we are lacking 
the capacity. I think that can be remedied, but it is a 
definite thing that we are looking forward to as now we are 
trying to get the--now that we have the fire funding fix, we 
need to ramp up capacity to do the work.
    Mr. O'Halleran. Thank you. How have stewardship contracts 
and projects, such as 4FRI in my district, improved forest 
resiliency? How is the USDA supporting these large-scale 
projects, on the 4FRI project we have been trying for any 
number of years to get it up and working at a larger scale, so 
I would like to hear your----
    Mr. Phipps. Yes, the stewardship contracting and--projects 
is a wonderful gift for us because, like I had mentioned 
earlier, a lot of the treatments on the landscape have to be 
all lands, and it allows us to pursue that.
    Mr. O'Halleran. Deputy Director, I only have a couple of 
seconds. I guess to the core of my question is why is it taking 
so long to get these projects up and going and sustained?
    Mr. Phipps. Well, it is complex for us. A lot of the 
environmental work we have been trying to do things to make 
life easier for the planners, but between capacity problems and 
environmental review problems, we haven't implemented as fast 
as we would like, and we would look forward to continuing to 
work with the Committee to help streamline those.
    Mr. O'Halleran. Thank you, Madam Chair, and I just want to 
say, the district has almost 700,000 acres already NEPA 
approved. They are all within that stewardship area, and I just 
can't understand why we haven't gotten to them. Thank you.
    The Chair. The chair now recognizes Congresswoman Pingree 
from Maine, seeing no Minority Members currently present. 
Congresswoman Pingree, we cannot hear you. Congresswoman 
Pingree, we cannot hear you. As we continue to work out the 
technical issues for Congresswoman Pingree, the chair now 
recognizes Congressman Cox from California for 5 minutes.
    Mr. Cox. Well, thank you so much, Chair Spanberger. And 
just before I ask my question, Mr. Phipps, you were saying 
earlier that the recommended density is, what 64 trees, and it 
is 320, or something like that, per acre?
    Mr. Phipps. Yes, that is correct.
    Mr. Cox. Okay. I don't know if it is an arithmetic type 
thing, but you were saying that was 80 percent over capacity, 
but it is really 500 percent, isn't that----
    Mr. Phipps. Yes, that is----
    Mr. Cox. So it is five times, not just 80 percent?
    Mr. Phipps. That is correct.
    Mr. Cox. Right. Okay. Great. Yes. A bit of a difference 
there. But certainly in a year that has seen record heat waves 
and the coronavirus pandemic, hazardous smoke from wildfires 
across the West are presenting the latest danger for the 
essential men and women who pick America's fruit and vegetable 
crops, and health advisories have recommended that individuals 
remain indoors to abate health impacts. Farmworkers simply 
don't have that option, while working in poor air quality 
conditions that can damage their lungs. You certainly can't 
pick a peach by Zoom. And despite efforts to distribute N95 
masks to farmworkers, the unfortunate reality is that many 
still do not have access to these masks, and we, as Members of 
Congress, must remain vigilant in ensuring that all of our 
front-line workers, especially those ensuring food remains on 
America's tables, are protected. And so I certainly support the 
Forest Service's decision to protect public health with the 
temporary forest closures in California, and I was also glad 
that this wasn't just a national decision, but one that was 
made with the Board of Supervisors within the region.
    And a wildfire's path, as you very well know, it is not 
limited to just the structures or the trees that are burned. 
And even once a wildfire has been contained, communities remain 
at risk for a variety of post-wildfire impacts, such as harmful 
air quality, mudslides, soil erosion, poor water quality, and 
all these linger well after the flames are put out. Debris 
runoff from destructive wildfires can enter our watersheds to 
have negative water quality impacts. Subsequent rains can wash 
toxic runoff, ash, and heavy debris into our watersheds, 
harming streams, rivers, municipal water systems.
    And I know that the agency has several programs to help 
this, including BAER (Burned Area Emergency Response), a new 
program from the 2018 Farm Bill, and that the Department itself 
has even more beyond this one agency, but the agency has not 
requested a funding increase for the Water Source Protection 
Program authorized by the 2018 Farm Bill, and my worry--and we 
are getting to the question--is that the agency will already 
have to stretch their budget in order to maintain these vital 
programs. And so the question, why hasn't the agency asked for 
funding increases for these programs, and what can be done to 
mitigate these negative water quality impacts on wildfires? 
What steps is the Forest Service taking to address this during 
both the wildfire response and the recovery phases?
    Mr. Phipps. Thank you for the question. You are correct, in 
that the BAER process--we have been doing that for 15 years at 
least, maybe 2 decades, and we have our hydrologists, fish 
scientists, you name it, go out and do an assessment, and then 
plan for emergency application of seed, and maybe creating 
dikes, and just removing wood. Currently, across the country 
there are 7 million acres that have burned, and we have teams 
doing the assessment. They haven't completed it yet. We think 
that we have enough funding, because it is paid out of 
suppression, to take care of it, and there is probably going to 
be a capacity problem, and we are going to have prioritize, and 
make sure that we implement the projects that have the most 
meaningful effect. And it is probably going to go, the effort 
is aimed at making sure we get that done before the winter 
rains come, and there may be some need to go on into the 
following year.
    Mr. Cox. Well, no, thanks very much, and the meat of the 
question is are funding increases for these programs warranted, 
and something that the agency needs?
    Mr. Phipps. Could you repeat that?
    Mr. Cox. The funding increases, what we are asking is that 
the Department hasn't yet requested a funding increase for the 
Water Source Protection Programs. Is this something that the 
budget is okay with? Do you need additional investments and 
capital, or what?
    Mr. Phipps. Well, I--we have the--adequate funding for 
BAER, but I am not familiar with that program that you just 
mentioned, and--but I would be happy to get back with you.
    Mr. Cox. Great, and thanks so much.
    Mr. Phipps. Thank you.
    Mr. Cox. I will yield.
    The Chair. It is the chair's understanding that Minority 
Members are on their way, but in their current absence, I will 
continue recognizing Congresswoman Pingree from Maine, if we 
can connect this time.
    Ms. Pingree. Can you hear me this time?
    The Chair. It appears there are ongoing technical issues 
here, local to us, Congresswoman Pingree, so we will come back 
to you. The chair now recognizes Congresswoman Schrier, who is 
suffering with the continued technical difficulty, the chair 
now recognizes Mr. Costa for 5 minutes.
    Mr. Costa. I thank the Chair. If you would give me a moment 
before the clock starts until I can pull up my memo on the 
effort, let me start on a question that is based upon a 
Congressional briefing that--a bipartisan California 
Congressional briefing that Congressman LaMalfa and I and 
others participated in last week with the head of Cal-Fire, Tom 
Porter, and the head of OES from California. And he cited, Mr. 
Phelps--Phillips? Phipps? That, based upon the incredible 
amount of wildfires we have had in California, as well as in 
Oregon and Washington, and other western states, that he 
thought it was necessary that we revisit the National 
Management Forest Plan in terms of resources, in terms of 
forest management. We have tried to work on that over the last 
18 months with some changes that have been made. Clearly, given 
the fact that the intensity and the impacts, it seems to me, in 
California's instance, over 60 percent of the fires have been 
on Forest Service land, less than ten percent on state forest 
land, and then a lot of private land, of course. Would you care 
to comment, Mr. Phipps?
    Mr. Phipps. Yes. The interagency community has something 
called the Cohesive Wildland Fire Strategy, and that was done 
maybe 7, 8 years ago, has some good intentions. The Federal 
agencies had something called the Fire Plan, we call it Fire 
Plan 1.0, and currently we are working on Fire Plan 2.0 that 
would----
    Mr. Costa. Okay. For a lot of folks those are just numbers, 
so what do they mean?
    Mr. Phipps. Yes.
    Well, it is an update to the nation's interagency fire 
plan, specifying how much we should be putting into hazardous 
fuels treatment, what kind of resources do we need, what do we 
need in communities, that kind of thing.
    Mr. Costa. Well, what do you think, under lessons that have 
been learned in the last 6 months, are the changes you are 
looking at?
    Mr. Phipps. Well, the big lesson is we need to think big. 
We have to have, if we are going to try to get a managed 
landscape that is resilient to fire, we need to do much more 
than we are doing now, and that has to be with participation of 
communities, state lands, Federal lands, and private lands.
    Mr. Costa. And in that effort, the resources, the last 
couple years, a lot of the money that we have had for forest 
management has been transferred over to putting fires out, and 
do you have an assessment of how much appropriation really 
needs to be set aside to manage U.S. Forest Service lands? Have 
you made that assessment?
    Mr. Phipps. Real rough, we think, two to three times more 
in the land management area and fuels management.
    Mr. Costa. And last year, how much was that?
    Mr. Phipps. We had probably about $1 billion total.
    Mr. Costa. You are saying somewhere between $2 and $3 
billion?
    Mr. Phipps. Yes.
    Mr. Costa. Over what period of time?
    Mr. Phipps. Annually.
    Mr. Costa. Annually?
    Mr. Phipps. It took us 110 years to get here. It is going 
to take at least 10 years to get to a more desirable future 
because the extent of the fuels on the landscape, it is almost 
everywhere you look. It is----
    Mr. Costa. On the Creek Fire that I have been exposed to, 
went out a week ago, probably go back out on Saturday to survey 
the update on that, one of the devastating fires, Chief Dave 
Schloss, a 30 year veteran from San Diego area, but he is up 
there trying to deal with this, indicated to me that, frankly, 
we are stretched too thin. And in this is an area that is 
predominantly forest land that you have given jurisdiction to 
Cal-Fire to manage this particular fire here. That seems 
unusual, but we have 14,000 firefighters out there, we have the 
National Guard, just in California alone, and we are short.
    Mr. Phipps. Yes, this year was an extraordinary year, and 
the system was not designed, it broke the system to try to 
respond to all that amount of fire all at the same time. And it 
is likely the case that we need to maintain the fire 
suppression capability while we are working to manage the 
landscape better over at least a 10 year period.
    Mr. Costa. All right. And I am sure my time has expired, 
but I finally found my memo, in terms of the questions that I 
wanted to direct, so I can either do that afterwards, or if you 
allow a second round for questioning, I will be happy to stay 
here and take that opportunity.
    The Chair. Thank you for being so responsive when we needed 
you to take your turn. We will be happy to put you back on the 
list, Mr. Costa.
    Mr. Costa. Okay. Thank you.
    The Chair. The chair now recognizes Mr. LaMalfa for 5 
minutes.
    Mr. LaMalfa. Thank you again, Madam Chair. It is 
unfortunate that we currently have votes on the floor on a 
whole list of amendments, and a bill, as well as other 
concurrent committees happening now. We would have more of our 
Members here, but, that said, let me pick back up, we were 
talking about grazing when I left off. And, you can talk to any 
rancher, anybody that works the land in an area that has a 
valley and forest interface, or much more forested areas, and 
they will tell you that grazing is a very important tool not 
only to keep their livestock going, but it actually helps with 
the fire, helps suppress the fire. We talked about this. And 
then you can take anecdotal photographic evidence where a 
grazed field, you have a fire that burns right up to the fence 
line, and it stops.
    So there has been reluctance to have grazing be a more 
widespread use. It is not anything new under the sun, and they 
act like it is. Like, let us have a pilot program on grazing. 
What is there to prove? We know it works. It reduces the fire 
fuels down there. And, again, we don't talk about grazing 
everything off, but there is certainly strategic zones where 
this is useful for keeping the loads down, fuel loads, and as 
well as the type of fire break zones that would be helpful for 
firefighters when a fire does occur, they can have an area 
where they can manage. Has the Forest Service--is it really 
ready to--because we see the--what is known as AUMs, animal 
unit months, the amount of feed that cattle and others can use 
during a given time. Those numbers are decreasing AUMs being 
put out for grazing purposes, for cattle, sheep, even goats. We 
have goat herds that are going out, helping out in small zones. 
Why are we seeing a downward trend in this when this is a very 
effective tool?
    We talked a minute ago about fire, prescribed fire, and you 
have the unpopular component of smoke coming from that, air 
quality issues, but, as you mentioned there, the air quality is 
going to be a lot different under a controlled fire than the 
masses we have here. But if you want to get away from that, why 
isn't grazing used as a much broader tool that benefits--
several win-win categories here?
    Mr. Phipps. Thank you for that question. I think, yes, 
there are areas where grazing can be very helpful. As I would 
mentioned earlier, a lot of the nation's western forests have 
an incredible density. It really wouldn't lend itself to 
grazing. In the aftermath of fires, of course, that changes, 
and salvage, so I think that range managers are always looking 
for opportunities to increase the animal unit months.
    Mr. LaMalfa. Do the range managers consult with livestock 
owners on what they think that density is? Because they have 
turned them loose in some pretty dense stuff. You might not 
have every thicket be grazable, but there is area in between.
    Mr. Phipps. Yes, as----
    Mr. LaMalfa. Is that a strong consult with those that own 
the livestock?
    Mr. Phipps. Yes. Routinely, I would say, in my experience--
I actually administer grazing permits in Idaho. I believe that 
we are always attending to relationships with ranchers, and 
asking them what they think about things, and how can we better 
manage the grazing resource together.
    Mr. LaMalfa. Can we get a greater commitment to this as an 
effective tool? There are those that don't want to cut trees, 
there are those that don't want to have prescribed burns. This 
seems like a win-win to me. Can we get a bigger push for this?
    Mr. Phipps. Yes. The Forest Service will look into this and 
get back to you.
    Mr. LaMalfa. Okay. Thank you. Mr. Costa was alluding too to 
the, and you responded, to the talk about readiness. Of course, 
an unprecedented bout of lightning strikes happened at one time 
in California, and turned out a lot of fires from that, but we 
run into the problems with VIPR (Virtual Incident Procurement) 
contracts, you know what those are, that contract with people 
ahead of time, and the system seems broken, such that if you 
don't do it exactly the perfect way, on timing or what have 
you, they kick you out, and you can't talk to them for 3 years. 
A Mr. McNeil has talked about how he was working with one 
person in one office in Sacramento, and, as he had been for 
many years, he is a contractor to help service heavy equipment 
that would be out on the fire line. Then he finds out he gets 
rejected, and he was told after the fact, you have to talk to 
this other office to get your contract going. Well, how is he 
supposed to know that, especially since he has a track record 
of working with the one? They work with the other office, and 
they submit the thing by FedEx and--timely, and they get 
rejected on that.
    So now we have a person who has been an ace mechanic for 
many years, helping with these contracted pieces of equipment 
out there, helping on the fire lines, being kicked out until 
they decide later, we would better reinstate him. So that, as 
well as many other stories you could talk about with the VIPR 
system, the e-mails not being returned, the website being not 
timely, folks not processing these. If we want to have a state 
of readiness, there is so much private equipment--I drove past 
some in Siskiyou County today. There are still about 20 water 
tender trucks sitting along the freeway there that had not been 
contracted because of a breakdown in the ability to process 
them. What can we see in improvement in that area for, in this 
case this mechanic, Mr. McNeil, and others just trying to be 
part of a solution, whereas, we are overwhelmed with Forest 
Service and other agencies, the personnel and equipment they 
have?
    Mr. Phipps. Yes, thank you for that. We acknowledge that we 
had problems in California not with the VIPR system, per se, 
but how it was staffed. There are technical and administrative 
issues, and we brought in more people, and I understand that 
the contracting issues have pretty much subsided.
    Mr. LaMalfa. Okay, because there needs to be a makeup 
opportunity for that. If it is a 3 year term, then that needs 
to be waived so that people can get signed up back into the 
system, because we are still not by any means out of the fire--
--
    Mr. Phipps. Yes.
    Mr. LaMalfa.--woods yet, so to speak, in the north, and in 
the south, probably year-round. I will yield back. I see Mr. 
Balderson has come into the room, and I would like to welcome 
him as a newer Member of the Committee, and as a Member of the 
Subcommittee as well, good to see you here, thank you, Madam 
Chair, I will yield back.
    The Chair. The chair now recognizes Congresswoman Pingree 
for 5 minutes. Deputy Chief Phipps, thank you for bearing with 
us through these technical challenges. We truly appreciate it. 
While we are working out the technical challenges, and 
continuing to do so, the chair now recognizes Congressman Costa 
for 5 minutes.
    Mr. Costa. I thank the Chair again for allowing me a second 
round of the questioning. I wanted to follow up on some of the 
comments that were made by my colleague from California as it 
relates to some of the health issues. But, as you know, Deputy 
Chief, these fires are not only major issues for western 
states, but for our constituents. Even if you are not in a--
directly in the fire, the smoke has been like a nuclear winter, 
I mean, when you have been able to see the sun it is been 
orange, and ash coming from 30, 40 miles away. And they, 
obviously impact air quality, as well as water quality, in an 
area in--that is a closed-in basin, the San Joaquin Valley, 
that already is a non-attainment area.
    I know the Forest Service and meteorologists are working 
with Federal and state leaders to improve the use of satellites 
modeling to predict things like smoke movement. These smoke 
impacts, in terms of smoke maps, are critical for public health 
efforts. Have you folks looked at doing more in that area in 
research so that you can provide efforts--we have a lot of 
people who are asthmatic, a lot of people who have other health 
issues, pre-existing conditions, and, of course, we have the 
pandemic, COVID-19.
    Mr. Phipps. Yes, thank you for that question. We are very 
concerned about that because we know that smoke does have quite 
an impact on the American public. This last event, friends out 
on the West Coast, even quite some distance from the fire, just 
like you said, had less than \1/4\ of a mile of visibility.
    Mr. Costa. We had three Category One fires, and smaller 
fires.
    Mr. Phipps. Yes, I mean, it is just terrible, and people 
had to stay inside, and I had heard that people that stayed 
inside were coughing, and it was quite an impact. The best 
option for us, I believe, is to manage the landscapes to 
prevent that, but until we do, the best thing we can do is give 
notification in advance. We have a lot of modeling and efforts 
that we have been working with, NOAA and others, on these 
different models to try to give as much notice as we can so 
people that are particularly sensitive to smoke can get out of 
harm's way.
    Mr. Costa. Well, I want to make a suggestion to the Chair, 
and the Subcommittee, in working with the full Committee. The 
impacts of this throughout the country, but certainly in the 
West, are such that I would hope that the Subcommittee would--
and Congress Member Panetta has had his own fire in his 
constituency, so it's important that we try to focus on this--
not only this--the end of this year, but next year, in terms of 
providing the support necessary for the U.S. Forest Service. 
And I know both Congresswoman Spanberger and Congress Member 
Panetta are concerned, as well as Congressman LaMalfa, but, 
Deputy Chief, you ought to come back with recommendations to us 
as we look at the two--what would you call them? Plan One and 
Plan Two? What did you call them? What was the technical term?
    Mr. Phipps. Yes, updated fire plan. Yes.
    Mr. Costa. Yes, the updated fire plan. And this ought to be 
the subject, Congressman Panetta, because I know your concern, 
as we try to reassess next year with the budget, with the 
appropriations process. While you were gone, Congressman 
Panetta, they estimated that if we are really to try to manage 
this, it is somewhere between $2 to $3 billion to do the forest 
management service, and that is nowhere near where we have 
provided budget for management of the forests, right?
    Mr. Phipps. That is correct.
    Mr. Costa. So let me close on this note. I gave a speech 
last week about this after Chief David Schloss took me through 
the Creek Fire, and I learned a lot, and I am going to go back 
to Saturday. One, we have to better manage our forests from 
every element that is contained therein, and that is from 
thinning, to clearing brush, to dealing with both the forests 
and the chaparral country that is different in different 
regions of the country, and different regions of California.
    Number two, we have to re-examine land use policy. We have 
hundreds and thousands of people living where they did not live 
before 30 years ago. And three, climate change is a part of 
this, and we are going to have to focus on all of the above. 
The climate change is a little longer-term, the other issues 
are more immediate, but we have to have a strategy, Congressman 
Panetta, that employs all of the above, both with long-term 
efforts, as well as the short-term efforts that we can apply in 
the next Congress. There will be some other questions I want to 
raise, and I will submit them to the Subcommittee afterwards, 
and I thank you for giving me this second round.
    Mr. Panetta [presiding.] Thank you, Jim, I appreciate that. 
The gentleman's time has expired. I now yield 5 minutes to the 
gentleman from Ohio, Mr. Balderson.
    Mr. Balderson. Thank you, Mr. Chairman. It changed on me. 
There is--thank you. Thank you for being here today, Mr. 
Phipps, and in your role as the Deputy Chief for State and 
Private Forestry within the USDA, I look forward to your 
comments. And I have missed most of them, obviously, but thank 
you. In your testimony you described the unprecedented 
challenges millions of Americans have faced this year. You say 
that as of last week over 7 million acres of land have burned. 
This has devastating impacts to those who have lost their loved 
ones, their homes, and their livelihoods.
    These fires have even impacted the State of Ohio through 
changes to the air quality, and stretched Federal resources in 
the middle of a pandemic. Of the land that is burned this year, 
what is the breakdown of Federal versus non-Federal land?
    Mr. Phipps. Well, I don't have the exact figures, but 
roughly half of it, maybe a little bit more, was on Federal 
lands.
    Mr. Balderson. Okay. Thank you. In your testimony also you 
talk about the steps being taken by the White House to reduce 
the risk of wildfire. Specifically I am referring to President 
Trump's Executive Order 13855. I support these types of 
actions, but I also believe Congress should be more active. 
What tools can we in Congress provide to the Forest Service 
that would enable you to better prevent these fires?
    Mr. Phipps. Well, it is not only the authorities. We have a 
lot of them, and right now it is an organizational capacity and 
funding problem to ramp up to the scale of the problem. That is 
probably the biggest one. And then we need incentives for 
private landowners to contribute and be part of the solution, 
because it doesn't do any good to manage forests on one side of 
the line when you have non-fire resilient private land on the 
other.
    Mr. Balderson. All right, thank you very much. Mr. 
Chairman, I yield back my remaining time.
    Mr. Panetta. Thank you, Mr. Balderson.
    Mr. Balderson. Thank you.
    Mr. Panetta. I appreciate that. At this point I will yield 
myself 5 minutes, not just because it is my prerogative as 
chair, but I guess I am in order, so I will do that.
    Chief, good afternoon, and thank you for being here. I 
appreciate, not only your expertise, but I appreciate you being 
able to talk about such a relevant and topical topic, 
especially concerning this type of issue, with the 2020 
wildfire year response and recovery efforts, especially with 
someone like me, who comes from the Central Coast of 
California, and actually had to be evacuated within the last 
couple months because of the Carmel Fire that was coming up 
over the hill about \1/2\ mile from my house, in which I saw 
the flames. But that being said, I was one of the fortunate 
ones, one of the fortunate many thanks to the good work of Cal-
Fire, and our firemen and first responders, who did a good job 
battling that blaze, and we were able to return to our home.
    Obviously this is something that literally is not just 
relevant, it is something that is important to all of us, 
obviously, in California, and I echo what Congressman Costa was 
saying in regards to how we have to address this. But with you 
I want to hit on four areas in my questioning, just to let you 
know, kind of lay it out for you, forest management, or 
reforestation, Forest Service staffing, and prescribed burns. 
The first thing is I want to start with forest management 
projects and wildfire risk reduction. In your testimony you 
highlighted the importance of proactively conducting forest 
management projects to create healthy fire resilient conditions 
on our forest lands.
    Mr. Phipps. Yes.
    Mr. Panetta. Can you provide your vision of what I just 
said, proactive forest management, and does it include wildfire 
risk reduction projects? And if so, how should we best 
implement those types of projects?
    Mr. Phipps. Thank you, great question. Yes, my vision of 
this is that we have these large landscapes that we have to 
plan across the entire landscape, all lands. And, yes, a lot of 
the work has to be done on National Forests, and we have to 
strategically treat these landscapes--if they are too dense, we 
will have to thin them out, but ultimately we have to do 
prescribed fire. That is really the only thing that is going to 
get a large landscape, particularly in California, back into a 
fire resilient condition. And it takes a lot of cooperation, 
and imagination, by the way, to make that happen, particularly 
in a state like California, with so much population.
    Mr. Panetta. Yes, understood, and I appreciate that. And 
obviously I believe, as you heard Congressman LaMalfa talk 
about, that one of these first steps, at least how we can help 
out, is through the Wildfire and Public Safety Act. And then 
obviously--I know I am running short on time. I want to just 
kind of remind you about the REPLANT Act, H.R. 7843, when it 
comes to forest restoration, but then I also want to hit on 
another topic that is important, near and dear to my district 
in the Las Padres National Forest, Forest Service staffing. I 
have spoken with Chief Christensen, I have spoken with Under 
Secretary Hubbard, about the shortages that are not just 
affecting but really plaguing our National Forests, and so I 
want to basically let you know that I understand the 2020 fire 
funding fix will kick in soon, but I have also gotten mixed 
reviews on whether this funding fix will actually help address 
the shortages of staffing. In your opinion, Chief, will the 
fire fix--what will it due in terms of filling those vacancies 
of non-fire positions, and what can we do in Congress to help 
you?
    Mr. Phipps. Well, it does provide the opportunity, we 
think, because it is putting some of the fire suppression off 
the books, if you will. There is an amount of money, if it were 
to be reinvested into staffing, that could make an incredible 
difference, because, on average, everything other than fire is 
about 60 percent less than what it used to be.
    Mr. Panetta. Understood, understood. And just going back, 
actually, to forest restoration, when it comes to 
reforestation, would lifting the spending cap on the 
Reforestation Trust Fund help address the issue of 
reforestation post-disaster?
    Mr. Phipps. I think there are a number of other 
constraints, but the Forest Service could use that, I am sure.
    Mr. Panetta. Okay, great. Now, in regards to prescribed 
burns, I know we have had a pretty good discussion on this 
during the time you have been here, can you talk to me about 
Forest Service plans to better utilize prescribed burns in the 
state, moving forward, as compared to the past 50 years, and 
would a prescribed fire center that trains individuals in 
prescribed fire methods, would that help as well?
    Mr. Phipps. I believe it would. I would say that in the 
Southeast, that is quite a fire culture there, both on private 
and Federal lands, and they are burning through their acreages 
at quite a frequent basis, and there is a lot of skill. We need 
to develop that out West as well.
    Mr. Panetta. Understood. Thank you, my time is up. I 
appreciate your answers. Thank you very much, Chief. I now 
yield 5 minutes to the gentleman from South Dakota, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, I appreciate it. Of 
course there has been a lot of attention, and rightfully so, 
given to all of the wildfires. I mean, the images are just 
tragic. The numbers, the data, is just tragic. We don't see as 
much news coverage, it seems to me, on how proactive fuels 
management can really reduce that risk. There are not anywhere 
near as many projects on Forest Service land as I would like to 
see that make it all the way through to implementation, and so 
sometimes those mitigation stories are fewer and further 
between than we would like. To that end, I want to highlight 
for my colleagues some of the examples from South Dakota where 
this proactive forest management really worked.
    I mean, we really can break the fire triangle by managing 
fuel loads, and we can protect lives, and property, and, of 
course, the critical habitat, not just for creatures, but for 
obviously humans who use that area for all manner of 
recreation. And so one example is just 3 weeks ago, and it was 
a hot, dry, windy day, and the Bear Fire started on the Black 
Hills National Forest. This was southwest of Deerfield Lake, 
and that is a highly popular recreation area. The fire was 
started by a lightning strike, which obviously is not that 
uncommon. And even though the weather conditions were critical, 
this fire only burned for 5 acres.
    It could have been so much worse, so why was it only 5 
acres? And a large part of that is because the fire burned in 
an area that had recently been thinned because of timber sales. 
And, frankly, another timber sale was active nearby. And that 
harvest, it reduced the fuels, and it improved the roads, the 
access crisscrossing the area, and that made for a quick 
response, obviously, for our firefighters. And having that fuel 
out of there meant that what did burn didn't burn anywhere near 
as hot. And, of course, Chief, I am not telling you anything 
you don't know, you are the professional, but I do want to 
highlight some of these successes.
    And that is certainly not the only example. It is the most 
recent. How about--I brought some pictures from 2015 where we 
had a very similar situation happen. The North Pole Fire 
started, and so here we can see--this has been actively 
managed. There had just been a timber sale here, and so you see 
a relative thinning of the trees. The burn area was far more 
modest than you would expect. And, again, because we had these 
access roads that had been improved for the timber sales, the 
men and women whose job it is to go out and fight these fires 
were able to get there so much more quickly, and were able to 
put this fire out so much more effectively than they otherwise 
would have.
    And so that framework, that preface, sir, really creates 
the jumping off point for my questions. And I would--Mr. 
Chairman, I would like to enter in--or Madam Chair, enter into 
the record these photos, smaller versions, as well as an 
article from 2015 in the Rapid City Journal that lays out this 
story well. And if there is no objection, I would like to have 
that entered into the record, Madam Chair.
    The Chair [presiding]. Without objection, so entered.
    [The article, and photos, referred to are located on p. 
53.]
    Mr. Johnson. Very good. Thank you. Deputy Chief, the 2014 
Farm Bill--and in response from individual states, the Forest 
Service designated 46.7 million acres as eligible to use the 
expedited NEPA authorities, and then in the 2018 Farm Bill we 
made some tweaks to that. What is the status of those 46.7 
million acres? This was all about treatment for infection for 
bugs. I mean, to what extent has that treatment worked or is 
ongoing?
    Mr. Phipps. Thank you for your question, and your model 
that you laid out, it works. Thinning and then doing prescribed 
fire really makes a difference, particularly if it is at an 
adequate scale. And thank you for those authorities that 
allowed us to increase our pace and scale. And I don't have the 
exact figures about what that--but I know that we have been 
actively treating fuels, and harvesting timber to reduce 
density so we can do prescribed fire.
    Mr. Johnson. And I understand you don't have the exact 
number, but if you could follow up with my office, sir, I would 
be interested to know the status of the 46.7 million acres, 
because if, for whatever reason, the Forest Service hasn't been 
able to attack that full flexibility granted by the 2014 and 
2018 Farm Bills, then we would like to know if there is 
something more we can do to help you all do your job better.
    Mr. Phipps. Okay. Be happy to do that.
    Mr. Johnson. And then, given my short time, I won't ask 
another question, but I will just note that I also have an 
interest in making sure that we continue to have a vibrant 
forest products industry. I think a managed forest is a healthy 
forest. That has absolutely been the case in South Dakota, 
although we are falling short with our targets for the number 
of hundred cubic feet that have been harvested, and so I will 
be following up with your office, sir, your agency, so we can 
talk about the size of that gap, and the most appropriate way 
to deal with it.
    Mr. Phipps. Okay.
    Mr. Johnson. Thank you very much.
    Mr. Phipps. Yes. Thank you.
    Mr. Johnson. Thanks for your indulgence, Madam Chair.
    The Chair. The chair now recognizes Congresswoman Schrier 
for 5 minutes.
    Ms. Schrier. Thank you, I have forgotten how to do this. 
Thank you, Madam Chair, for allowing me to participate in this 
Subcommittee hearing today, and thank you, Deputy Chief Phipps, 
for being here and taking our questions. Right at the 
beginning, when our Chair spoke she said that this was 
terrifying, and I would wholeheartedly agree. Coming from 
Washington State, many parts of my district were on fire. In my 
own home, we were essentially locked in the house for a week 
with hazardous air quality, with AQIs over 300 for over a week. 
And one of the scariest and most terrifying parts is that this 
may be our new normal, and it should lend a real urgency and 
seriousness to how we address climate change, how we manage our 
forests and forest resiliency, but also about being thoughtful 
about where we build, with respect to the WUI.
    I wanted to bring up one issue before I ask a question. One 
of the areas in my district that was on fire was the Evans 
Canyon Fire. It was big enough that it spanned two big 
counties. Most of it was in the neighboring county, but much of 
it was in the one in my district. Our full force of 
firefighters contributed to the effort to put it out, but 
because of some rules about FMAG grants, only one of the 
counties got assistance, and the one in my district didn't. And 
so we are working with FEMA to get that assistance, but I may 
at some point need to call on you to see if perhaps we could 
lend your weight to that discussion.
    My question--and we have spoken before about COVID, I will 
get to that in a moment, if I have time, but I wanted to talk 
about what happens after a fire, the landslides, the erosion, 
the lack of habitat. And I know that there is something called 
the Burned Area Emergency Response Teams, the BAER Teams, and I 
wanted to talk about the fact that, just like the Evans Canyon 
Fire spanned different areas, it is not just confined to 
National Forest, the same thing happens really everywhere in 
the State of Washington, National Forests, state forests, 
community forests, and they all essentially feed to the same 
place. And I was just wondering how the BAER Teams coordinate 
the national, or the Federal, and some of those more local 
efforts, because when there is a landslide, it rushes through 
all of it, it affects all of the surrounding water areas. Can 
you help me understand that?
    Mr. Phipps. Yes. BAER Teams are quite resourceful. A lot of 
them are out there even sometimes before the fire is totally 
out, working to do assessments. They do coordinate with local 
interests, and other governments, and within the USDA, the 
NRCS, for example, to try to bring the BAER everything that is 
needed to prevent further tragedy once rains come, basically.
    Ms. Schrier. Right.
    Mr. Phipps. They try to do seeding, scarification, re-
establishing drainage. And they are quite effective at it, and 
we do have funding to do that. It is going to be a challenge, 
because doing that over 7 million acres this year will require 
prioritization to make sure we go after the most potentially 
impactful areas first.
    Ms. Schrier. And do you do that also in community forests 
and state lands, or do you just confine those efforts to 
Federal lands?
    Mr. Phipps. Well, the BAER teams would coordinate, there is 
probably not any large--well, let me put it this way. All these 
large fires include private lands. If they happen to be state 
lands, they would coordinate with them as well to make sure 
that collectively they get the best outcome.
    Ms. Schrier. Great. One more question. We spoke back in 
July about COVID plans. You had phenomenal plans, keeping fires 
small, keeping firefighters in cohorts, doing whatever you 
could to prevent the spread within a cohort, but also to 
prevent mingling, and then all those best laid plans--I don't 
know, I won't say went up in smoke, but it became very 
challenging when all of a sudden now we have all these forest 
fires raging at the same time, they are all too big, mingling 
of groups, even people coming in from out of state or out of 
country. How are you doing with testing, and people converting 
to coronavirus positive? How are you handling the pandemic?
    Mr. Phipps. Well, we have actually done a lot. Thank you 
for that question. Before the fire season really got going, we 
did an assessment on a state by state basis about testing. We 
had a number of teams developing our protocols. We decided that 
if somebody tested positive, we would pay for the test, if it 
wasn't free, that we would pay for lodging for quarantine, 
trying to manage the incentive system of that, the social 
distancing, the fire camps spread out. And, I was quite 
concerned, particularly after this big fire siege that we have 
had, but we are not seeing the rate of infections. In fact, we 
are--not yet. I think people have been--they have been 
modulizing, trying to stay away, and it is been quite 
remarkable. I think the fire community did a really nice job 
this year.
    Ms. Schrier. That is great, thank you, and congratulations. 
That is great news. Thank you.
    Mr. Phipps. Thank you.
    The Chair. Again, Deputy Chief Phipps, thank you for being 
here today. Thank you for your testimony. How we come together 
to help our western states respond to, recover from, and build 
stronger can be a defining act in these times. In addition to 
our important conversation today, there is so much more work to 
be done beyond the jurisdiction of the Subcommittee, including 
support for community and home rebuilding for rural 
development, for healthcare services, for emergency management 
and response needs in areas devastated by wildfires, and taking 
meaningful actions to further reduce our carbon footprint 
across all sectors of the economy, and work to build a more 
resilient and sustainable economy.
    There is so much more work that needs to be done by this 
Subcommittee, and this Committee, on both questions of what are 
the solutions we can look for within the agricultural and 
forestry sectors. I stand ready to continue this work, and as I 
said at the top of this hearing, we should not have to wait for 
the ash of the wildfires to reach the Capitol steps to take 
action. I look forward to our continued work together as a 
Subcommittee, Committee, Congress, and a nation as we support 
these efforts. I would like to thank the USDA staff and our 
witness today for being here. Thank you for being patient with 
our technological challenges and thank you for being patient 
during our vote timeframe. The chair now recognizes the Ranking 
Member for a closing statement.
    Mr. LaMalfa. Thank you again, Madam Chair. It is too bad on 
the competing votes, and committees, and such today, but we 
have covered a lot of good ground in our time here. With your 
permission too, I would like to submit a statement as well from 
the Federal Forest Resource Coalition.
    The Chair. So ordered.
    [The letter referred to is located on p. 49.]
    Mr. LaMalfa. Thank you, that is speaking about a lot of the 
issues with critical habitat designations, and the hands-off 
approach to management that has actually failed us for so long. 
I will submit that. And thank you again, Mr. Phipps, for your 
attention to these important issues, because our fires are 
still burning, and it is going to take an incredible amount of 
effort. As you mentioned, we have a 110 year problem that we 
hope we can catch up in only 10 or less. But it will require 
going at what is known as a pace and scale much higher than 
what we have seen in the past. We need to be able to work 
through restrictions that are caused by NEPA. NEPA is well 
intended, but--and a lot of times we are plowing the same old 
ground on that. We don't need a NEPA document for doing the 
types of practices we already know are good practices. We can 
do this on a one-pager, instead of 18 months or more of study, 
and lawsuits, and all that.
    I talk about the Ranch Fire, from a couple years ago, over 
on the west side of the northern part of California, 400,000 
acres, and, after 2 years of wrangling, they wanted to put in a 
process to do some accelerated work along roadways and other 
key areas, 7,000 acres. 7,000 out of 400,000 that had been 
burned, of salvage, of revitalization along roadways, as a 
strategic area to recover and more hardened from fire. So what 
happens on that? A lawsuit, and the court throws out all that 
work, and we have yet more delay.
    We can't keep having these sorts of things happening, so 
help us help you with the U.S. Forest Service. Bring to us, 
please, legislative ideas to help with the roadblocks that you 
face for so many in the Service that would like to get these 
projects done at a pace and scale that is going to be 
realistically helpful in the short-term so we have a better 
long-term. My constituents are very, very tired of it. They are 
tired of the roadblocks to the work, they are tired of the 
hurdles to getting contracts to be part of a solution there for 
equipment. They are tired of constantly being in danger, and 
the air quality problems are right there in their backyard, ten 
times the scale of what would be deemed unhealthy in some 
cases. We are all feeling it, and when we see our urban friends 
even feeling it, not only in the Bay Area, but all of 
California, and even here on the East Coast, then I hope it 
really sounds the alarm that we have to do something, and it 
has to be a lot more dramatic.
    And some of it might, on its surface, be unpopular, when we 
are talking about prescribed burning. On one of those burn 
days, it is not going to be popular, but we need to be able to 
educate people and say, ``This is necessary, because when we 
don't do it, we have a scale of fire that is multiple times 
worse for air quality, and, of course, for habitat, for 
wildlife, the forest asset on public lands that belongs to all 
of us.'' And so we will have to be bold, and step over lines, 
say, ``No, we must do this, because, as we have talked about, 
110 years of putting the fire out without doing the other half 
of the equation that nature used to do.'' Now, when nature did 
it, you can go back a long ways in history and find nature used 
to burn millions of acres at a time, and it would go all year, 
until whenever the next rainy season would be. That is nature's 
way, and we respect that, but if we have the hybrid of mankind 
helping out, using nature's tools, using what the Native 
Americans used to use, we can have a winning equation here, and 
that is what we really need. That is what the public demands. 
That is what they cry out for when--in the letter that Mr. 
Daley, and others, many others wrote, or could write to us. 
Thank you again for your appearance, and for taking this back 
to the surface there. And, again, Chair Spanberger, I really, 
really appreciate you putting this together for us today, and 
having this opportunity before Congress might adjourn for the 
year, we will see, but thank you so much.
    The Chair. Thank you very much, Ranking Member LaMalfa, and 
thank you for always advocating for this Subcommittee's strong 
work in the area of forestry, and my heart is with your 
constituents, as I know they continue to face challenges.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witness to any question posed by a Member. This hearing of 
the Subcommittee on Conservation and Forestry is adjourned.
    [Whereupon, at 3:09 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
     Submitted Comment Letter by Hon. Abigail Davis Spanberger, a 
  Representative in Congress from Virginia; re: S. 4431 and H.R. 7978
September 16, 2020

    Hon. Diane Feinstein,
    United States Senate,
    Washington, D.C.

    Re: Comments on The Emergency Wildfire and Public Safety Act of 
            2020 (S. 4431)

    Dear Senator Feinstein:

    On behalf of the undersigned organizations, we write to express our 
concern with certain sections and attributes of S. 4431, The Emergency 
Wildfire and Public Safety Act of 2020 introduced by Senator Diane 
Feinstein and Senator Steve Daines and the companion bill, H.R. 7978, 
introduced by Congressman Doug LaMalfa and Congressman Jimmy Panetta.
    The 2020 fire season in California is having an unprecedented 
impact on our communities, forests, and other natural landscapes. 
Collectively, we have been working with Federal and state agencies, 
landowners, Tribes, and other stakeholders to harden communities and 
vital infrastructure and improve the resilience of forest landscapes to 
extreme fire. We believe it is appropriate and necessary for 
policymakers to seek solutions to the tremendous challenges posed by 
today's unprecedented wildfires, including taking actions to 
aggressively reduce greenhouse gas emissions and tackle the climate 
crisis.
    We agree that it is essential to prioritize actions that reduce 
wildfire risk to communities and to take prudent science-based steps to 
restore resiliency and manageable fire conditions to degraded forest 
lands, including expanded use of prescribed and managed fire. The 
actions and programs defined in Sections 102, 106, 201, 401, 402, 403, 
and 404 of S.4431 are much needed and would increase the capacity of 
agencies and stakeholders to reduce risk and improve resiliency; in the 
case of Section 201 we see opportunities to refine the language and 
improve the effectiveness of the program. These sections also highlight 
the critical need to increase funding to Federal agencies to support 
new programs like these and expand existing efforts to reduce fire risk 
to communities and increase the resilience of forest landscapes.
    However, we believe, based on our many years of experience with 
these issues in California, that other sections of the bill do not 
improve our ability to reduce the impacts of extreme wildfire in ways 
that are collaborative, strategic and use the best available science. 
The following summarizes our concerns with several provisions that 
affect the management of Federal public lands.
Section 101. Forest Landscape Projects.
    Many of our organizations support and are actively participating in 
the Collaborative Forest Landscape Restoration Program (CFLRP) 
established in 2009. Similar to the program proposed in Section 101, 
the successful CFLRP encourages collaboration within National Forest 
landscapes to reduce wildfire risk to communities and improve forest 
resilience. However, CFLRP has enjoyed success because it does not 
alienate stakeholders by undermining environmental and judicial review 
procedures as proposed in Section 101. We cannot support shortcuts to 
environmental review and limits posed on judicial review because they 
undermine collaborative public engagement, diminish the role of 
science, and can lead to bad decisions that degrade the forests, 
watersheds and wildlife habitat. Based on the evidence of CFLRP and 
other collaborative forest restoration efforts, we also know that legal 
shortcuts are not necessary to achieve restoration and wildfire risk 
reduction outcomes. We believe that the intent of this section could be 
achieved by expanding the successful CFLRP program.
Section 103. Establishment of Fuel Breaks in Forest and Other Wildland 
        Vegetation.
    We are generally skeptical of efforts to legislate categorical 
exclusions because it undermines established NEPA procedures and 
because Congress lacks the knowledge and expertise to conclude that 
certain management actions will not have significant effects on the 
environment. We object to this provision because it would enable 
damaging activities that could affect wildlands and other high value 
areas that are remote to communities at risk, without adequate public 
review and comment. Furthermore, the Forest Service already has 
considerable legislative authority to create fuel breaks, including 
authority under the 2018 amendment to the Healthy Forest Restoration 
Act of 2003 (HFRA) that applied expedited judicial review requirements 
to firebreaks and fuel breaks, as well as numerous other authorities 
for these types of management actions.
Section 104. Emergency Actions.
    We agree that the agency should prioritize actions to mitigate harm 
to life, property, and important natural or cultural resources, but we 
object to this section because it expands the Forest Service's 
authority to declare ``emergency situations'' in terms that are overly 
broad and allows for reduced environmental and judicial review of 
actions, including controversial salvage logging on up to 10,000 acres. 
Salvage logging and logging to treat insect and disease infestations 
are controversial, and there is a lack of agreement among scientists 
about the efficacy of such practices. These types of actions are 
therefore among those that benefit from application of best available 
science and robust evaluation, including the development of 
alternatives to refine and improve the land management decision. Use of 
the programmatic and tiered decision-making available to the agency now 
will generate better outcomes than emergency waivers for controversial 
actions. Finally, the provision would remove the legal requirement that 
projects must be consistent with land management plans; waiving this 
requirement ignores this foundational legal element of land management.
Section 105. New Information in Land Management Plans.
    We object to this section because it undermines the integrity of 
the Endangered Species Act (ESA) by excusing Federal land managers from 
reinitiating consultation with the U.S. Fish and Wildlife Service on 
both plans and projects in some circumstances when ``new information'' 
comes to light indicating the need to list imperiled species or 
designate critical habitat for a listed species under the ESA. This is 
problematic and harmful to the conservation of imperiled species 
because the limitations imposed on ``new information'' allows the best 
available science to be ignored and therefore impacts to imperiled 
species to occur in the absence of corrective action. The issue of 
reinitiating consultation for new species listings and critical habitat 
designations was debated and addressed in the 2018 Omnibus 
Appropriations Act.
    In summary, we appreciate the bill's sponsors' commitment to 
improving wildfire management and support many aspects of the 
legislation. Unfortunately, we cannot support the entire bill at this 
time as written given the significant concerns noted above. As 
stakeholders engaged in on the ground efforts to reduce risk to 
communities and restore resiliency to California's forests, we look 
forward to working with you and other policymakers to solve our 
wildfire challenges.
            Sincerely,

Pamela Flick,
California Program Director,
Defenders of Wildlife;

Susan Britting,
Executive Director,
Sierra Forest Legacy;

Ryan Henson,
Senior Policy Director,
California Wilderness Coalition;

Isabella Langone,
Conservation Analyst,
California Native Plant Society;

Steven Frisch,
President,
Sierra Business Council.
                                 ______
                                 
     Submitted Comment Letter by Hon. Abigail Davis Spanberger, a 
        Representative in Congress from Virginia; re: H.R. 7978
September 23, 2020

    Dear Members of Congress,

    On behalf of our millions of members and supporters nationwide, we 
write to urge opposition to H.R. 7978 the ``Emergency Wildfire and 
Public Safety Act of 2020'' introduced by Representatives Panetta (D-
CA) and LaMalfa (R-CA). With devastating fires burning in the West, we 
certainly recognize the extraordinary pressure to legislate solutions. 
But H.R. 7978 is a misguided step in the wrong direction that will not 
adequately protect communities from wildfire. Rather than advancing 
best scientific practices to safeguard communities, the bill promotes 
logging of National Forests many miles from communities while 
undermining bedrock environmental laws and an independent judiciary. 
Some provisions in the bill could actually exacerbate the wildfire 
crisis and divert limited resources from where they are most needed
    Rather than supporting H.R. 7978 in the name of fire safety, we 
urge support by the House for legislation which focuses on science-
based methods to mitigate wildfire risk. The most effective way to 
protect communities from wildland fires through cost-share grants to 
create defensible space and fire-safe retrofits, rather than logging 
miles away from communities. Empirical evidence, including the Forest 
Service's former top fire science researcher, has demonstrated that the 
most effective means of protecting structures is to create defensible 
space immediately around the building and install fire safe retrofits--
not logging miles away from communities.
    Most important to this issue is the reality that human caused 
climate change has increased droughts; in turn, this has increased fire 
risk and prevalence in the West. In addition to mitigation efforts, we 
urge the House to address the root causes of climate change.
    Our primary concerns with H.R. 7978 include:

  <bullet> Section 101 seeks to establish ``three pilot projects'' that 
        would proceed through expedited environmental and judicial 
        processes. These ``forest landscape projects,'' which could 
        each be as large as 117\2\ miles, will leave forests with 
        diminished environmental protection and legal protections.

    Moreover, management activities including but not limited to 
logging/thinning and creating firebreaks up to \1/2\ mile wide would be 
governed by short-circuited environmental and judicial review 
procedures. This would happen by undercutting the National 
Environmental Policy Act (NEPA) to limit the number of alternatives 
(Sec. 101(d)(2)) and the scope of environmental analysis topics to be 
analyzed. (Sec. 101(d)(3)).

  <bullet> Section 103 of H.R. 7978 creates a categorical exclusion for 
        the creation of fuel breaks, but the efficacy of these 
        treatments is speculative at best (flying embers do not stop at 
        firebreaks), and would be permitted in roadless areas and other 
        sensitive areas. Congress already has given the Forest Service 
        considerable legislative authority to expedite the creation of 
        fuel breaks and other hazardous fuel reduction activities in 
        the ``Fire Funding and Forest Management Fix'' that was signed 
        into law March 23, 2018, and the agency has more than 30 other 
        authorities for this kind of land management. There is no 
        evidence suggesting that the Forest Service needs additional 
        authority to reduce hazardous fuels including doing work 
        adjacent to communities.

  <bullet> Section 104 codifies and broadens existing agency authority 
        to declare an ``emergency situation'' to implement actions 
        purportedly to mitigate harm to life, property, or important 
        natural or cultural resources on National Forest System land or 
        adjacent land. Of significant concern is that this section is 
        designed to expedite post-fire logging that the best available 
        science concludes is a very destructive land management 
        practice, causing harm to soils, water quality, and wildlife 
        habitat that sets back natural regeneration and reduces carbon 
        sequestration in the forest. H.R. 7978 will lead to rushed and 
        poorly planned logging projects with major impacts on soil, 
        streams, and wildlife, and could result in increased wildfire 
        risk.

  <bullet> The goal of Section 105 of the bill is to exempt the Forest 
        Service and Interior Department agencies from the requirement 
        to re-initiate Endangered Species Act Section 7 consultation 
        based on new information, thereby reducing protections for 
        threatened and endangered species even if those activities 
        would hasten extirpation. The bill would disqualify new 
        information about endangered species produced by Federal, 
        state, Tribal and fish and wildlife agencies, nongovernmental 
        organizations, and other scientific experts. This section goes 
        significantly beyond the ``Cottonwood'' language included in 
        the 2018 Omnibus Act that overrode a Ninth Circuit Court of 
        Appeals decision and threatens the integrity of the ESA 
        consultation process by allowing Federal land managers to 
        ignore most sources of relevant scientific information.

  <bullet> Section 301 would lift the current export ban on unprocessed 
        timber from Federal lands in the West. We oppose this 
        precedent-setting provision that could result in the unintended 
        consequence of creating unsustainable demand for Federal 
        timber.

    In short, this bill does not advance policies that will adequately 
mitigate fire risk to homes and communities most at risk from 
wildfires. Over 50% of freshwater supplies in the West come from 
National Forests. Increased levels of intensive logging could result in 
the dumping of sediments into watersheds, pollution of critical 
drinking water supplies, and potentially cost taxpayers and counties 
hundreds of millions of dollars.
    Again, we appreciate the urgency with which Members want to address 
the fire crises in the West. However, we encourage Members to support 
legislation that is science-based and better suited to protect 
communities than H.R. 7978. Moreover, to truly address fires and their 
root causes, the House must address the climate crisis--which is 
exacerbating grassland, chaparral, and forest wildfires. Rather than 
proposals to expedite backcountry logging, Congress should enact 
policies that provide communities with grants to develop community 
plans, update wildfire hazard maps, improve emergency response, and 
implement home and critical infrastructure hardening.
            Respectfully submitted:

 
 
 
Center for Biological Diversity      Montana Wilderness Association
Earthjustice                         New Mexico Spor[ts]men
Natural Resources Defense Council    Oregon League of Conservation
                                      Voters
National Parks Conservation          Oregon Wild
 Association
Sierra Club                          Rio Grande Indivisible
Southern Environmental Law Center    Rio Grand Valley Broadband of the
The League of Conservation Voters     Great Old Broads for Wilderness
The Wilderness Society               San Juan Citizens Alliance
Western Environmental Law Center     San Luis Valley Ecosystem Council
Endangered Species Coalition         Santa Fe Forest Coalition
Environmental Protection             Sequoia ForestKeeper
 Information Center
Forest Issues Group                  Soda Mountain Wilderness Council
Friends of the Bitterroot            Swan View Coalition
Friends of the Inyo                  The Nuestra Tierra Conservation
                                      Project
Gallatin Yellowstone Wilderness      The Forest Advocate
 Alliance
GreenLatinos                         The Lands Council
Greenpeace USA                       Upper Gila Watershed Alliance
High Country Conservation Advocates  Ventana Wilderness Alliance
Idaho Conservation League            Western Watersheds Project
John Muir Project                    Wild Watershed
Kettle Range Conservation Group      WildEarth Guardians
Klamath Forest Alliance              William Community Forest Project
Klamath-Siskiyou Wildlands Center    Yaak Valley Forest Council
Los Padres ForestWatch
 

                                 ______
                                 
Submitted Letter by Hon. Abigail Davis Spanberger, a Representative in 
    Congress from Virginia; on Behalf of Chad Hanson, Ph.D., Chief 
    Scientist and Director; Jennifer Mamola, D.C. Forest Protection 
                      Advocate, John Muir Project
October 7, 2020

 
 
 
Hon. Collin C. Peterson,             Hon. K. Michael Conaway,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.;
 
Hon. Abigail Davis Spanberger,       Hon. Doug LaMalfa,
Chair,                               Ranking Minority Member,
Subcommittee on Conservation and     Subcommittee on Conservation and
 Forestry,                            Forestry,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Re: The 2020 Wildfire Year: Response and Recovery Efforts Hearing

    Dear Mr. Chairman, Ranking Member, Members and Staff;

    We virtually attended your September 24th Conservation and Forestry 
Subcommittee Legislative Hearing. We were specifically interested in 
the Subcommittee's treatment of H.R. 7978, Emergency Wildfire and 
Public Safety Act of 2020, and the overall discussion between 
Subcommittee Members and the witness related to the current wildfire 
season and forests in the West. While we applaud the recognition, by 
the Subcommittee chair, that the climate crisis is the driving force 
behind the 2020 Wildfires and appreciate the acknowledgement that these 
extreme weather events are largely due to the failure of Congress to 
take meaningful steps to mitigate climate change we were dismayed by 
the overall focus of the hearing. Rather than focusing on constituents 
and their communities, or recognizing that more than half of the 
acreage burning in California was not in forests or on public land, 
Members of this Subcommittee focused almost exclusively on how we can 
ways to continue to manipulate vegetation through the logging of our 
National Forests. In fact, most of the `solutions' proposed at the 
hearing for addressing western wildfires simply repackage old policies 
which are not only ineffective against fire, but will push us further 
into the climate driven crisis our western communities are currently 
facing. Policies such as funding and promoting the use of fossil fuels 
to accelerate the removal of trees and native vegetation from our 
forest and shrubland ecosystems, ecosystems which are constantly 
pulling CO<INF>2</INF> out of the atmosphere, under the guise of 
``hazardous fuels reduction'', ``thinning'', and logging. Livestock 
grazing was also mentioned as a solution to mitigate wildfires, yet not 
only does this historic practice increase greenhouse gas emissions, it 
also exacerbates fire behavior by replacing fire adapted native plant 
species with easily ignitable invasive grasses.
    We are writing this letter to hopefully bring some balance to the 
testimony that was presented and to address the problematic underlying 
narrative which is shifting Members' attention away from actions that 
will actually make a positive difference for people and the planet. It 
is imperative that Congress refrain from oversimplifying the complex 
ecosystems that make up the American West and demonizing fires that 
burn in our wildlands and instead focus attention and resources on the 
true issue at hand, hardening homes and protecting people from the 
inevitable wildfire season.

  1.  To protect communities, we must focus on communities

        Fires, and especially the ones the West has experienced this 
            year, are ultimately weather and climate driven events, 
            similar to hurricanes. Accepting this will enable us to 
            pursue policies which will ensure that our communities will 
            be protected and remain resilient to the extreme weather 
            events that are becoming more frequent as our climate 
            changes. Outside of putting resources into stopping human 
            ignitions via more recreational and law enforcement patrols 
            near communities during high fire weather and educating the 
            public about fire-safe activities, once a fire starts under 
            extreme weather conditions it is going to burn until the 
            weather changes.
        According to the scientific research the only effective way to 
            protect homes from wildland fire is to focus on making the 
            homes themselves more fire-safe, and to conduct annual 
            defensible space pruning within 100 of homes. Beyond 100 
            from houses, there is no additional benefit to home 
            protection from altering vegetation.\1\ Congressional 
            resources should be put into such efforts, and there is 
            currently a bill in both houses of Congress that takes a 
            first step in this direction, S. 2882/H.R. 5091, the 
            Wildfire Defense Act.
---------------------------------------------------------------------------
    \1\ Syphard, A.D., T.J. Brennan, and J.E. Keeley. 2014. The role of 
defensible space for residential structure protection during wildfires. 
Intl. J. Wildland Fire 23: 1165-1175.
---------------------------------------------------------------------------
        Because we cannot suppress weather-driven fires, we cannot stop 
            the smoke that they create. What we can and must do is 
            promote measures that will keep people safer and help 
            communities adapt: by devoting resources to help create 
            better wildland fire warning and evacuation systems; by 
            developing programs which ensure that homes have air 
            filters for smoke and access to appropriate respiratory 
            masks (as mentioned at the hearing); by creating community 
            smoke centers for sensitive groups to find relief from 
            smoke on particularly heavy days; by creating options for 
            emergency housing and daycare; by facilitating rideshares 
            to work and always ensuring that these services are 
            available to everyone, regardless of income.
        Unfortunately, employing forest ``management'', by way of 
            logging and removal of vegetation from our forests, as a 
            ``fire fix'' as H.R. 7978 recommends, not only diverts 
            scarce resources away from measures that would actually 
            make people safer, but also gives communities a dangerous 
            and false sense of security because such actions will 
            neither stop nor alter weather driven fires, like the fires 
            of 2020. We saw an example of this in the Camp fire of 
            2018, which burned so rapidly through a heavily ``managed'' 
            landscape during the first 6 hours of the fire, that people 
            within the towns of Paradise and Concow had very little 
            time to evacuate, with tragic results. The so-called fuels 
            reduction thinning and extensive post-fire removal of dead 
            trees did not save these towns from this weather driven 
            fire, it made the tragedy worse.\2\ Our forests are already 
            resilient to fire, having evolved with fire over hundreds 
            of thousands of years, but our homes remain flammable. In 
            order to protect homes and communities our resources need 
            to be directed towards homes and communities, and not into 
            the forest.
---------------------------------------------------------------------------
    \2\ https://johnmuirproject.org/2019/01/logging-didnt-stop-the-
camp-fire/.

  2.  Vegetation is not driving wildfires: our forests aren't 
---------------------------------------------------------------------------
            overstocked

        Contrary to the statements made at the hearing, a century of 
            fire suppression has not exacerbated fire risk or intensity 
            in our forests. Our forests are not ``overgrown''. Forests 
            don't actually do that, they grow in accordance with the 
            variation in soil and weather conditions. Their vegetation 
            changes, sometimes dramatically, over time. This is 
            completely natural. They get denser, then growing 
            conditions change, causing trees and plants to die off, 
            reducing density, then conditions change and they once 
            again become dense and so on, and so on. In fact, the 
            densest forests do not burn more intensely than less dense 
            forests, nor do dead trees increase fire risk or intensity. 
            Forests are not static or in need of human intervention in 
            order to manicure them into something that resembles your 
            backyard. These are dynamic ecosystems that evolve with 
            fire.
        The number one driver of fire behavior and extent is the 
            climate, specifically high temperatures, extreme wind 
            speeds and very low humidity. Climate change is making 
            these conditions more prevalent, more often. The result is 
            not more intense forest fires, or an excess of fire in 
            forests. We have always had fires in the West and always 
            will, and there is wide agreement among scientists that we 
            currently have less mixed-intensity fire in our forests 
            than we did historically, before fire suppression, and fire 
            intensity in forests is not increasing.\3\ The real issue 
            is that, increasingly, climate and weather factors drive 
            fires that humans are not able to suppress. Fires that 
            cannot be suppressed, especially when they are started by 
            human ignitions or infrastructure, have the potential to 
            burn into and affect communities.
---------------------------------------------------------------------------
    \3\ (a) DellaSala, D.A., and C.T. Hanson (Editors). 2015. The 
ecological importance of mixed-severity fires: nature's phoenix. 
Elsevier Inc., Waltham, MA, USA; (b) Keyser, A.; Westerling, A. Climate 
drives inter-annual variability in probability of high severity fire 
occurrence in the western United States. Environ. Res. Lett. 2017, 12, 
65003.
---------------------------------------------------------------------------
        There are several ways that we know it is climate conditions, 
            rather than the density of forests or presence of dead 
            trees, that is driving fire behavior. First, and most 
            informative are the field-based studies that have looked at 
            the effect, if any, that decades of successful fire 
            suppression have had on fire intensity. Specifically, seven 
            studies have investigated whether areas that have not 
            experienced fire in a very long time (i.e., areas that have 
            had the chance for vegetation to grow unimpeded for nearly 
            a century or more) burn at higher intensity than areas 
            which have experienced fire more recently. Three of the 
            seven studies found unequivocally that areas that have not 
            burned in a very long time do not burn at higher 
            intensities than areas that have burned in recent decades, 
            three of the remaining four studies found that the most 
            long-unburned forests (the densest forests) burned at lower 
            intensities than other forests, and the final of the seven 
            studies speculated that long-unburned forests would burn 
            slightly more intensely but would still be dominated by 
            lower-intensity fire effects (and this study, unlike the 
            other six, involved a theoretical model, and its conclusion 
            was not based on actual fire data from long-unburned 
            forests).\4\
---------------------------------------------------------------------------
    \4\ (a) Miller J.D., Skinner C.N., Safford H.D., Knapp E.E., 
Ramirez C.M. 2012a. Trends and causes of severity, size, and number of 
fires in northwestern California, USA. Ecological Applications 22, 184-
203; (b) Odion, D.C., E.J. Frost, J.R. Strittholt, H. Jiang, D.A. 
DellaSala, and M.A. Moritz. 2004. Patterns of fire severity and forest 
conditions in the Klamath Mountains, northwestern California. 
Conservation Biology 18: 927-936; (c) Odion, D.C., and C.T. Hanson. 
2006. Fire severity in conifer forests of the Sierra Nevada, 
California. Ecosystems 9: 1177-1189; (d) Odion, D.C., and C.T. Hanson. 
2008. Fire severity in the Sierra Nevada revisited: conclusions robust 
to further analysis. Ecosystems 11: 12-15; (e) Odion, D.C., M.A. 
Moritz, and D.A. DellaSala. 2010. Alternative community states 
maintained by fire in the Klamath Mountains, USA. Journal of Ecology, 
doi: 10.1111/j.1365-2745.2009.01597.x; (f) van Wagtendonk, J.W., K.A. 
van Wagtendonk, and A.E. Thode. 2012. Factors associated with the 
severity of intersecting fires in Yosemite National Park, California, 
USA. Fire Ecology 8: 11-32; (g) Steel, et al. 2015. T3Ecosphere 8: 
Article 8.
---------------------------------------------------------------------------
        Next, we have empirical research which has investigated whether 
            the number of dead trees in a given area drives fire 
            behavior. The most comprehensive scientific studies 
            (including one prepared by NASA) found that forests with 
            more dead trees burn the same as other forests or burn at 
            lower intensities.\5\ While it may seem counterintuitive, 
            soon after trees die (such as from drought and native 
            beetle activity), they shed their needles and small twigs, 
            which fall to the ground and decay into soil, after which 
            there is no real mechanism to carry flames. Thus the 
            provisions in H.R. 7978 which would eliminate the export 
            ban on raw laws from public lands and expedite the logging 
            of not just dead, but dying trees as well, would do nothing 
            to mitigate future fire behavior or protect communities as 
            the title of this bill misleadingly implies.
---------------------------------------------------------------------------
    \5\ (a) Hart, S.J., T. Schoennagel, T.T. Veblen, and T.B. Chapman, 
2015. Area burned in the western United States is unaffected by recent 
mountain pin beetle outbreaks. Proceedings of the National Academy of 
Sciences of the USA 112: 4375-4380; (b) Meigs, G.W., H.S.J. Zald, J.L. 
Campbell, W.S. Keeton, and R.E. Kennedy. 2016. Do insects outbreaks 
reduce the severity of subsequent forest fires? Environmental Research 
Letters 11: 045008.
---------------------------------------------------------------------------
        Importantly, our forests currently have significantly less tree 
            biomass in them than they did historically, due to decades 
            of logging. Claims that our forests are ``overstocked'' are 
            quite simply misleading.\6\
---------------------------------------------------------------------------
    \6\ (a) McIntyre, P.J., et al., 2015. Twentieth-century shifts in 
forest structure in California: Denser forests, smaller trees, and 
increased dominance of oaks. Proceedings of the National Academy of 
Sciences of the United States of America 112: 1458-1463; (b) Erb, K.H., 
et al., 2018. Unexpectedly large impact of forest management and 
grazing on global vegetation biomass. Nature 553: 73-76.
---------------------------------------------------------------------------
        Finally, fire behavior is driven by climate and weather--fires 
            are anticipated to grow when the weather forecast is for 
            hot, dry, windy conditions (conditions which facilitate the 
            issuance of a Fire Weather Watch or Red Flag Warning from 
            the National Weather Service),\7\ whereas relief that the 
            fires will stop growing is expressed when there is a 
            forecast of rain and cooler temperatures. These statements 
            are universal, around the world, regardless of the 
            ecosystem or vegetation involved and whether logging 
            activities or prescribed burning had preceded the fire. 
            (Please contact us for press stories).
---------------------------------------------------------------------------
    \7\ (a) https://www.fire.ca.gov/programs/communications/red-flag-
warnings-fire-weather-
watches/; (b) https://www.weather.gov/mqt/redflagtips.

  3.  Since weather and climate are overwhelmingly driving wildfires, 
            vegetation management, thinning and other forms of logging, 
            and prescribed burning are not necessary and are often 
---------------------------------------------------------------------------
            counterproductive

        Climate and weather are driving wildfire behavior, but to the 
            extent that density of vegetation has an influence, it is 
            the opposite of what many assume. Numerous studies have 
            investigated this issue, measuring forest density directly 
            and how it relates to fire behavior. These studies, similar 
            to the ones referenced above, also found that the densest 
            mature forests generally burn at lower intensities. This is 
            because denser forests have more trees, which provide more 
            shade, which keep conditions cooler and more moist. Whereas 
            forests with fewer trees, especially as a result of 
            logging/mechanical-thinning, burned at higher intensities. 
            This is because logging/thinning reduces the cooling shade 
            of the forest canopy, creating hotter, drier conditions, 
            while also removing trees which have a buffering effect on 
            wind speeds, eliminating the forest's ability to slow fire 
            spread. Far from being a ``fire'' solution, logging/
            thinning does not stop fires, and fires often move more 
            rapidly through these areas. Further, the most 
            comprehensive scientific study ever conducted on this 
            question found that forests with the most logging, a.k.a . 
            ``forest management'', burn the most intensely, not the 
            least.\8\
---------------------------------------------------------------------------
    \8\ (a) Bradley, C.M. C.T. Hanson, and D.A. DellaSala. 2016. Does 
increased forest protection correspond to higher fire severity in 
frequent-fire forests of the western USA? Ecosphere 7: article e01492; 
(b) Zald, H.S.J., and C.J. Dunn. 2018. Severe fire weather and 
intensive forest management increase fire severity in a multi-ownership 
landscape. Ecological Applications 28: 1068-1080; (c) Meigs, G., D. 
Donato, J. Campbell, J. Martin, and B. Law. 2009. Forest fire impacts 
on carbon uptake, storage, and emission: The role of burn severity in 
the Eastern Cascades, Oregon. Ecosystems 12: 1246-1267; (d) Cruz, M.G., 
M.E. Alexander, and J.E. Dam. 2014. Using modeled surface and crown 
fire behavior characteristics to evaluate fuel treatment effectiveness: 
a caution. Forest Science 60: 1000-1004; (e) DellaSala, D.A,, C.T. 
Hanson. 2019. Are wildland fires increasing large patches of complex 
early seral forest habitat? Diversity 11: Article 157.
---------------------------------------------------------------------------
        Prescribed fire does not stop wildland fires either. In fact, 
            vegetation subject to prescribed burning can return within 
            as little as 10 months depending on the ecosystem. A recent 
            example of wildland fire burning unabated through an area 
            that was intentionally burned for ``fuels reduction'' only 
            2 years prior was seen in the Australia fires of 2019. 
            There, the fires driven by extreme weather similar to our 
            current experiences with fire here, burned right through 
            the largest prescribed burn ever done in Australia's Morton 
            National Park.
        While we do currently have a deficit of all types of fire in 
            essentially all of our forest ecosystems in the west (as 
            discussed below), historically, forests burned every few 
            decades, not every 2 years.\9\ If we attempt to 
            ``fireproof'' the landscape with prescribed fire, we would 
            be imposing far more fire than is natural on ecosystems and 
            we would be doing so at a time of year when it is not 
            natural for fires to burn, impacting biodiversity and 
            damaging soils and forest productivity all while creating 
            vastly more smoke than currently occurs with wildland 
            fires. All of this would be happening, and none of it would 
            ensure that weather driven wildland fires would not burn 
            during the summer and fall anyway.
---------------------------------------------------------------------------
    \9\ DellaSala, D.A., and C.T. Hanson (Editors). 2015. The 
ecological importance of mixed-severity fires: nature's phoenix. 
Elsevier Inc., Waltham, MA, USA.
---------------------------------------------------------------------------
        Pursuing a ``vegetation management'' approach to fire 
            fundamentally ignores and denies that climate is driving 
            fire behavior. Logging, clearing vegetation and prescribed 
            fire in the wildlands will not solve our community 
            protection problem, will not eliminate or lessen smoke 
            impacts or assist with climate adaptation, but such 
            activities will exacerbate rather than mitigate the climate 
            and extinction crises we currently face, and will likely 
            increase, not decrease fire impacts to communities.

  4.  Forests, as they exist right now, are a climate solution, not a 
            climate problem

        Our forests are currently substantial carbon sinks, absorbing 
            more carbon than they emit, but they could absorb much more 
            carbon than they currently do, if they were protected from 
            logging. Logging is the real source of carbon emissions 
            from forests. In U.S. forests, for example, logging of all 
            types (e.g., thinning, clear-cutting, group selection, 
            etc.) emits ten times more carbon than is emitted from 
            wildland fire and tree mortality from drought and native 
            bark beetles combined. Dead trees and downed logs decay 
            extremely slowly (decades to a century or more), and 
            eventually return their nutrients to the soil, which helps 
            maintain the productivity and carbon sequestration capacity 
            of the forest.\10\
---------------------------------------------------------------------------
    \10\ (a) Harris, N.L., et al., 2016. Attribution of net carbon 
change by disturbance type across forest lands of the conterminous 
United States. Carbon Balance Management 11: Article 24; (b) Meigs, G., 
et al., 2009. Forest fire impacts on carbon uptake, storage, and 
emission: The role of burn severity in the Eastern Cascades, Oregon. 
Ecosystems 12:1246-1267; (c) Campbell, J.C., J.B. Fontaine, and D.C. 
Donato. 2016. Carbon emissions from decomposition of fire-killed trees 
following a large wildfire in Oregon, United States. Journal of 
Geophysical Research: Biogeosciences 121: 718-730.
---------------------------------------------------------------------------
        Wildland fires, including large mixed-severity fires, only 
            consume about 1% to 2% of the biomass of trees in the 
            forest, and therefore only release this small portion of 
            the carbon stored in trees into the atmosphere, and the 
            carbon emitted is soon re-absorbed by post-fire regrowth, 
            which is enhanced by nutrient cycling resulting from the 
            fires. We know this from field-based studies of actual 
            fires in actual forests. The problem is that Federal and 
            state agencies use theoretical models to estimate carbon 
            emissions from forest fires and dead trees, but the models 
            wildly exaggerate carbon emissions from decay and fire. For 
            example, in the 257,000 acre Rim fire of 2013, field-based 
            data determined that only \1/10\ of 1% of the carbon in 
            trees was actually consumed, whereas the theoretical models 
            falsely assume levels of consumption that are dozens, or 
            hundreds, of times higher than this.\11\
---------------------------------------------------------------------------
    \11\ Stenzel, J.E., et al., 2019. Fixing a snag in carbon emissions 
estimates from wildfires. Global Change Biology 25: 3985-3994.

  5.  The proposals supported by the witness will harm our environment, 
---------------------------------------------------------------------------
            biodiversity and the climate

        There was much discussion at this hearing of logging as an 
            answer to the ``fire'' problem. But we actually don't have 
            a fire problem in our forest ecosystems. We have 
            substantially less mixed-intensity fire now than we had 
            historically, before fire suppression. Any increase in 
            wildland acres burned this year, as opposed to previous 
            years, is merely getting us closer to the amount of fire we 
            had on the landscape before fire suppression. It should 
            also be noted that fires burning in our forests, especially 
            the large fires that burn at mixed-severity, transform 
            forest ecosystems but do not destroythem. In fact, such 
            fires create natural heterogeneity across large areas, 
            creating and rejuvenating wildlife habitat to such a degree 
            that the biodiversity in mature forests that experience 
            high-intensity fire is similar to levels of biodiversity 
            found in unlogged old-growth forests.\12\ The same is true 
            for forests which have experienced drought and high levels 
            of new snags from native beetles.\13\ These natural 
            processes create ``snag forest habitat'', which is an 
            ecological treasure, not a loss. In addition, forests are 
            naturally regenerating vigorously, even in the largest 
            high-intensity fire patches.\14\
---------------------------------------------------------------------------
    \12\ See hundreds of scientific studies summarized in chapters 1 
through 5 of: DellaSala, D.A., and C.T. Hanson (Editors). 2015. The 
ecological importance of mixed-severity fires: nature's phoenix. 
Elsevier Inc., Waltham, MA, USA.
    \13\ (a) Mosher, B.A., et al., 2019. Forest birds exhibit variable 
changes in occurrence during a mountain pine beetle epidemic. Ecosphere 
10: Article e02935; (b) Matseur, E.A. 2017. Abundance of black-backed 
woodpeckers and other birds in relation to disturbance and forest 
structure in the Black Hills and Bear Lodge mountains of South Dakota 
and Wyoming. Master's Thesis, University of Missouri-Columbia; (c) 
Stone, W.E. 1995. Impact of a mountain pine beetle epidemic on wildlife 
habitat and communities in post-epidemic stands of a lodgepole pine 
forest in northern Utah. Doctoral Dissertation, Utah State University.
    \14\ (a) Owen, S.M., C.H. Sieg, A.J. Sanchez Meador, P.Z. Fule, 
J.M. Iniguez, L.S. Baggett, P.J. Fornwalt, and M.A. Battaglia. 2017. 
Spatial patterns of ponderosa pine regeneration in high-severity burn 
patches. Forest Ecology and Management 405: 134-149; (b) Hanson, C.T. 
2018. Landscape heterogeneity following high-severity fire in 
California's forests. Wildlife Society Bulletin 42: 264-271.
---------------------------------------------------------------------------
        While we do not have a fire in our forests problem, we most 
            certainly do have a problem with fire affecting our 
            communities and a climate change problem. We therefore need 
            solutions to protect and adapt communities and to combat 
            climate change. Logging, whether you call it thinning, 
            vegetation management, forest management or biomass 
            removal, will remedy neither of these problems and is 
            simply another part of the carbon economy. Since no one at 
            the hearing addressed the carbon cost of logging, we 
            thought we would share some statistics here. Because most 
            of the carbon in trees that are logged is incinerated as 
            ``slash'' (branches and tree tops) and milling/
            manufacturing waste for energy production, approximately 
            81% of the carbon in trees that are logged ends up in the 
            atmosphere almost immediately, with only 19% ending up 
            being stored in wood products.\15\ Logging also removes 
            nutrients from forests and compacts soils, reducing the 
            overall productivity and function of the forest ecosystem 
            as well as its carbon sequestration and storage 
            capacity.\16\
---------------------------------------------------------------------------
    \15\ Hudiburg, T.W., Beverly E. Law, William R. Moomaw, Mark E. 
Harmon, and Jeffrey E. Stenzel. 2019. Meeting GHG reduction targets 
requires accounting for all forest sector emissions. Environmental 
Research Letters 14: Article 095005.
    \16\ (a) Walmsley, J.D., et al., 2009. Whole tree harvesting can 
reduce second rotation forest productivity. Forest Ecology and 
Management 257: 1104-1111; (b) Elliot, W.J., et al., 1996. The effects 
of forest management on erosion and soil productivity. Symposium on 
Soil Quality and Erosion Interaction. July 7, 1996, Keystone, CO.
---------------------------------------------------------------------------
        The witness at the hearing repeatedly promoted increased 
            logging--i.e. , increased removal of carbon from our 
            forests--supposedly as a wildfire solution. This is a form 
            of climate change denial because it not only denies the 
            ability of our forests to continue acting as carbon sinks, 
            but also denies the role of logging in making climate 
            change worse. Notably, numerous studies find that logging 
            conducted under the guise of ``thinning'', ``fuels 
            reduction'' and fire management actually causes a large net 
            loss of forest carbon storage and a substantial net 
            increase in carbon emissions.\17\
---------------------------------------------------------------------------
    \17\ (a) Campbell, J.L., M.E. Harmon, and S.R. Mitchell. 2012. Can 
fuel-reduction treatments really increase forest carbon storage in the 
western U.S. by reducing future fire emissions? Frontiers in Ecology 
and Environment 10: 83-90; (b) Hudiburg, T.W., et al., 2013. 
Interactive effects of environmental change and management strategies 
on regional forest carbon emissions. Environmental Science and 
Technology 47: 13132-13140.

  6.  The Proposals for Woody Biomass Supported by the [Witness] and 
            [Representatives] Would Harm our Environment, Biodiversity 
---------------------------------------------------------------------------
            and the Climate

        Cutting and incinerating trees for energy production (biomass 
            logging) generates substantially more greenhouse gas 
            emissions than burning coal, for equal energy produced.\18\ 
            Biomass logging will exacerbate the climate crisis through 
            increased greenhouse gas emissions, which will in turn 
            exacerbate the potential for fires driven by extreme 
            weather events. In addition to releasing more carbon 
            dioxide (CO<INF>2</INF>) than coal, incinerating trees to 
            create energy also releases all of the same types of 
            pollutants as burning coal, including carbon monoxide (CO), 
            particulate matter (PM), nitrogen oxides (NO<INF>X</INF>), 
            sulfur dioxide (SO<INF>2</INF>), dioxins/furans, acid 
            gases, radioactive pollutants and toxic metals like 
            arsenic, chromium and mercury. A lose, lose for communities 
            and the planet.
---------------------------------------------------------------------------
    \18\ Sterman, J.D., L. Siegel, and J.N. Rooney-Varga. 2018. Does 
replacing coal with wood lower CO2 emissions? Dynamic lifecycle 
analysis of wood bioenergy. Envir. Research Letters 13: Article 015007.
---------------------------------------------------------------------------
        Even given this reality, H.R. 7978 dedicates $100,000,000 to 
            incentivize the cutting and incinerating of trees and other 
            native vegetation for energy production (biomass logging), 
            as well as the creation of new biomass energy facilities. 
            However, new biomass incinerators are not held to the same 
            air pollution control requirements as new coal power plants 
            are, making them not only worse for climate, but also worse 
            for communities. Across the country biomass energy 
            facilities are currently located in either communities of 
            color or lower-income white communities creating an 
            environmental justice issue. In fact, H.R. 7978 
            specifically offers incentives for biomass burning 
            facilities that are placed in low income areas, 
            guaranteeing a perpetuation of this environmental 
            injustice. By prioritizing grants for biomass energy 
            facilities that are in low income areas, H.R. 7978 would 
            continue with the trend of climate, racial, and 
            environmental injustices that is currently plaguing our 
            country.
        Given the above, it was truly disheartening to see that many of 
            the Subcommittee, including legislators who care about 
            climate change and racial and social justice issues, 
            promote biomass energy from forests as a climate and 
            wildfire mitigation policy.

  7.  Targeted Livestock Grazing Won't Preclude Large Wildfires

        As we've previously stated above, the fires that H.R. 7879 is 
            purportedly designed to ``halt''--are being driven by 
            extreme fire weather conditions including drought, low 
            humidity, high temperatures, and high winds and not by 
            vegetation. Thus focusing on removing native vegetation 
            will not mitigate the impacts of these fires on people and 
            will merely damage the environment and further exacerbate 
            climate change. Though the bulk of H.R. 7978 is aimed at 
            increasing the logging of our public lands, there is also a 
            provision for targeted livestock grazing as a claimed 
            solution for wildfire.
        First, livestock grazing, in an attempt to alter fire behavior, 
            has a slew of unavoidable ecological impacts. These 
            include: water pollution, soil compaction, negative 
            influence on soil carbon stores, loss of plant and animal 
            biodiversity, the social displacement of wildlife (like 
            elk), the loss of forage wildlife and insects, greenhouse 
            gas emissions, and exorbitant costs.\19\
---------------------------------------------------------------------------
    \19\ Fleischner, 1992; Wuerthner and Matteson, 2002; Wilcove, 1998; 
Freilich et al., 2003; Flather, C.H. L.A. Joyce and C.A. Bloomgarden, 
1994; Filazzola, A. et al., 2020.
---------------------------------------------------------------------------
        In addition, livestock grazing, just like logging, often 
            exacerbates fire behavior, specifically because it 
            facilitates the spread of cheatgrass, an annual exotic, 
            that is extremely flammable.\20\ Livestock grazing not only 
            spreads cheatgrass, but it also facilitates its 
            colonization via the trampling of biological soil crusts 
            (BSC) which, when intact, naturally inhibit the growth of 
            this flammable invasive.\21\ Maintaining healthy stands of 
            perennial grasses, not eliminating them via grazing, has 
            been shown to inhibit cheatgrass spread.\22\ Targeted 
            livestock grazing in the wildlands is simply not a solution 
            for wildfires or climate change.
---------------------------------------------------------------------------
    \20\ (a) Williamson, Matt. A. et al., 2019. Fire, livestock 
grazing, topography, and precipitation affect occurrence and prevalence 
of cheatgrass (Bromus tectorum) in the central Great Basin, USA Biol. 
Invasions https://doi.org/10.1007/s10530-019-02120-8(0123456789().,-
vols() 0123458697().,-volV); (b) Belsky, A.J., and J. L. Gelbard, 2000. 
Livestock Grazing and Weed Invasions in the Arid West, Oregon Natural 
Desert Association, Bend, Ore, USA, 2000.
    \21\ Root, Heather et al., 2019. Grazing disturbance promotes 
exotic annual grasses by degrading soil biocrust communities. 
Ecological Applications, 0(0), 2019, e02016.
    \22\ Strand, E. et al., 2017. Do perennial bunchgrasses 
competitively exclude Bromus tectorum in post-fire rehabilitation 
across spatial scales? Fire Science JFSP PROJECT ID: 15-2-01-22.

    We hope that you have found the above information helpful and we 
urge you to reject the false claims made about how increased logging 
and targeted grazing while rolling back environmental laws as proposed 
by H.R. 7978 will supposedly protect our communities, reduce fire 
occurrence, or do anything to eliminate the weather and climate driven 
fires we are experiencing today. We would be happy to answer questions 
or provide additional information, so please feel free to contact us if 
you would like to continue this dialogue.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            

 
 
 
Chad Hanson, Ph.D.,                  Jennifer Mamola,
Chief Scientist and Director,        D.C. Forest Protection Advocate
John Muir Project;                   John Muir Project.
 

                                 ______
                                 
Submitted Post by Hon. Doug LaMalfa, a Representative in Congress from 
                               California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[https://calcattlemen.org/2020/09/23/legacy/]
I cry for the mountains and the legacy lost
The Bear Fire
By Dave Daley, Butte County Rancher & CCA Immediate Past President
[September 23, 2020]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Rancher observing damage to land, cattle and legacy, post 
        fire.

    It is almost midnight. We have been pushing hard for 18-20 hours 
every day since the Bear Fire tore through our mountain cattle range on 
September 8th, and there is so much swirling in my head I can't sleep 
anyway. The fire destroyed our cattle range, our cattle, and even worse 
our family legacy. Someone asked my daughter if I had lost our family 
home. She told them ``No, that would be replaceable. This is not!'' I 
would gladly sleep in my truck for the rest of my life to have our 
mountains back.
    I am enveloped by overwhelming sadness and grief, and then anger. 
I'm angry at everyone, and no one. Grieving for things lost that will 
never be the same. I wake myself weeping almost soundlessly. And, it is 
hard to stop.
    I cry for the forest, the trees and streams, and the horrible 
deaths suffered by the wildlife and our cattle. The suffering was 
unimaginable. When you find groups of cows and their baby calves 
tumbled in a ravine trying to escape, burned almost beyond recognition, 
you try not to [retch]. You only pray death was swift. A fawn and small 
calf side by side as if hoping to protect one another. Worse, in 
searing memory, cows with their hooves, udder and even legs burned off 
who had to be euthanized. A doe laying in the ashes with three fawns, 
not all hers I bet. And you are glad they can stand and move, even with 
a limp, because you really cannot imagine any more death today. 
Euthanasia is not pleasant, but sometimes it's the only option. But you 
don't want more suffering. How many horrible choices have faced us in 
the past 3 days?
    We have taken cattle to the Plumas National Forest since before it 
was designated such. It is a steep and vast land of predominantly mixed 
conifers and a few stringer meadows on the western slope of the Sierra 
Nevada mountains straddling Butte and Plumas Counties. My Great, Great 
Grandfather started moving cattle to the high country sometime after he 
arrived in 1852 to the Oroville area looking for gold. The earliest 
family diary of driving cattle to our range in the mountains dates back 
to 1882. Poor Irish immigrants trying to scratch a living from the 
land.
    The range is between the South Fork and Middle Fork of the Feather 
River, the drainage that fills Lake Oroville. It is 80" rainfall 
country from October to May with deep snow at the high end, and then it 
goes completely dry. Three major streams/rivers and hundreds of creeks 
and springs punctuate the land. My friends from the arid west can't 
understand why it is hard to gather--``don't you just go to the 
water?'' Not that simple in this environment. It is difficult country, 
in some ways more suited to sheep because of the browse, but politics 
and predators killed the sheep industry in the country years ago. But 
the cows love the range and do well. Cool days and nights, no flies, 
higher elevations avoiding the hot summers in the valleys. A great 
place to summer cattle. They actually like to go as much as we do!
    For those of you who have never seen this land, this isn't riding a 
horse into a meadow or open ridge where you can see cattle. This is 
literally ``hunting'' through a vast forest of deep canyons, rivers and 
creeks, and the high ridges in between. It is not an easy place to 
gather or even find cattle in the best conditions.

          There are six generations who have loved that land, and my 
        new granddaughter, Juni, is the seventh. And I find myself 
        overcome with emotion as I think of the things she will never 
        see, but only hear in stories told to her by Grandad. We all 
        love the mountains. They are part of us and we are part of 
        them. All destroyed. In one day. I am angry.

    As a child in the early 1960s, days ``going to the mountains'' were 
the greatest ever for my family. It was our playground and our quiet 
spot. Sure, we worked, but we learned so much about the world, the 
trees, birds and flowers. And in my family sometimes that may have 
included learning the scientific name or at least the family of the 
plant. There were lessons on botany, forestry, geology, archaeology. We 
didn't even know we were learning but we imbibed it until it became a 
part of our souls.
    And then my kids. For them, the mountains were the best! Rolling 
into a little seat behind Grandma and Grandpa to ``go hunt for cows'' 
as we gathered in the Fall. Hot chocolate from Grandma as soon as we 
got there. On cold, dusty or wet days, it was sometimes discouraging, 
but they loved it and still do. It was their sanctuary where ``no 
matter what happens, this will always be here.'' And now it is gone. It 
is a death and we are still in shock and not sure how to move forward. 
What will my granddaughter know of the truth and grounding that comes 
from nature? Will we gather cows in the mountains while I sing cowboy 
tunes off key and she sips hot chocolate? I am overcome.
    When the news broke of the fire in our cattle range, my son Kyle, 
who ranches with me, and I were sure it could not be as bad as it 
sounded. We had close to 400 cows, most of them calving or close to 
calving in our mountain range, ready to gather and bring home in early 
October. They were the heart of the herd. Old cows, problems, bought 
cows and first calf heifers stayed in the valley. Only the good cows 
who knew the land were there. That first day, we had no access and were 
relying on spotty reporting posted to local news or social media. My 
daughter Kate, a veterinarian, who practices about 4 hours away, ``I'm 
on the way.'' My youngest son, Rob (named for his Grandad) a soldier 
stationed in Louisiana, ``I have a lot of leave and I'm on a plane 
tomorrow.'' All three have been unbelievable and we have all needed 
each other to navigate this heartbreak.
    At first, we couldn't get into the range and were frantic as it was 
completely locked down because of safety. We knew cattle were dying as 
we waited. I received a call from a Pennsylvania number and answered 
before thinking. A wonderfully nice man from the Forest Service was 
calling to tell me about the fire since I had a cattle allotment in the 
Bear Fire area. I had to help him find it on the map! Frustrating. And 
he knew less than me. Later I got a call from San Bernardino (500 miles 
south), another fire resource officer from the Forest Service. I asked 
about access. ``Well,'' he said, ``maybe next week and only if we 
provide an escort. We have to make it safe first.'' He, too, had no 
idea where the allotment was or the challenge that I faced. All the 
cattle would be dead if I waited a week. I politely told him I would 
figure out an alternative--through private timber land and common 
sense!
    I called our County Sheriff who has been a great friend of the 
cattle community. I had to wait one day, but he provided two sergeants 
to navigate the road-blocks until I was in the range. Was it dangerous? 
Yes. Were animals dying? Absolutely. Local solutions are always better. 
Thanks to Sheriff Honea, of Camp Fire and Lake Oroville Dam breech 
fame, and Sergeants Tavelli and Caulkins who got us access. All 
incredible people who get it. Local.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On our first day, Kyle and I make a fast trip up to reconnoiter. We 
are unprepared for the total destruction of everything we have always 
known. Nothing left and active flames on both sides burning trees and 
stumps. Shocking. Surreal. We make it to our Fall River corral somewhat 
hopeful that there would be green and water to mitigate the disaster. 
Everything is completely gone and we see dead cows as we start down the 
hill. Everywhere. This is our first step in what will be an impossible 
week. We go home hoping against hope that we have seen the worst. 
Little did we realize that it was just the beginning and it could get 
worse.
    It is 3:30 in the morning now and time to start this nightmare 
again. To find the courage to throw some things in the truck, run with 
the kids to check and feed the survivors, and hit repeat. I dread it 
but know we must. And I work to be optimistic because that is who I am. 
Not easy.
    As we make a plan and split up to run four-wheelers up and down 
logging roads hunting life and death, I think how lucky I am. So many 
people have offered to help. I am grateful but it is difficult to 
explain how challenging it is to gather in almost 90,000 acres of 
incredibly difficult terrain (and that's on a flat map!). Each canyon 
and ridge is dotted with logging spur roads that could be choked with 
down and burning trees. Much of it is unrecognizable, even to me. Only 
those with deep, local knowledge of these mountains can help. 
Fortunately, my family, the Carter boys (Devin and Doyle), Brian 
Jones--all friends of my kids--and now friends of mine, plus my best 
friend Sean Earley all stepped up. They know the mountains well and 
have helped us for years. They just showed up and said, ``We're here. 
We're going. What can we do?'' So, we strap chainsaws and some alfalfa 
on four-wheelers and set out hoping against hope to find something 
alive.

          We split up and my crew takes the Lava Top and Ross Creek 
        drainage, while the other half goes towards Twin Bridges and 
        Fall River. It is eerie, and as Rob said, ``There is no sound 
        in the Forest, just death.'' We are learning. When we 
        traditionally gathered cows, they were always towards the ridge 
        top in the morning and down by water in the afternoon. Now, we 
        find nothing high up, except the occasional dead cow that 
        wasn't fast enough. We just hunt for the deep holes where there 
        was a chance for water and life.

    You learn as you ride through the apocalyptic murk. Rob's head goes 
up and I catch the scent at the same time. The scent of death and 
charred flesh mingled with the acrid smoke that burns your eyes. You 
begin looking in the draws hoping it is not cattle. It always is. Eight 
cows and three baby calves in a pile at the bottom of a ravine, rushing 
in terror to escape. A sight you won't soon forget.
    But today, when we meet up, Kyle and Kate had great news. They 
found sixteen head at our Twin Bridges corral! The largest group to 
date. I had baited it with alfalfa last night and there were cattle 
standing in the little corral of temporary panels. Remarkable. Two of 
them are heifers that I gave Kyle and Jordan (my daughter in-law and 
Juni's mom) for their wedding. Kyle branded them with my Dad's original 
brand just to keep them straight. Someone in our crew said Dad gathered 
them for us so we wouldn't miss them. Maybe he did. My Dad was a cow 
whisperer who has been gone over 4 years after roaming the mountains 
for almost 90. Maybe he is still helping lead us and the cattle home. I 
turn away as I feel emotion begin to rise. Again. For some reason, I am 
more emotional when I find the live cattle than those that died. I 
don't know why? Maybe thinking what they went through and I wasn't 
there to help? And, more frightening, death has become more expected 
than life.
    I completely dread taking my Mom to see this tragedy. She will be 
90 in less than a month and still loves the mountains and gathering 
cows. She is tough but this could break anyone. She worked these 
mountains with my Dad from 1948 when she was 18, he was 21, and they 
had just married. She told me in later years that she had always loved 
the outdoors but really was ``sort of afraid of cows'' since she had 
not ever been around them. She never told Dad though and learned to be 
one of the best trackers and gatherers the mountains have ever seen, 
knowing every plant, tree and road.
    You can learn more from old people. They may not use PowerPoint or 
Zoom. They may not be elegant in politics, but they have life 
experience. We are quickly losing that vital perspective from the land 
before we have allowed them to teach us. Far more valuable than a 
visiting scholar or great consultant. Local knowledge and observation. 
I wish we would listen.
    I am again angry at everyone and no one. Why did this happen? I am 
absolutely tired of politicians and politics, from both the left and 
the right. Shut up. You use tragedies to fuel agendas and raise money 
to feed egos. I am sick of it. And it plays out on social media and 
cable news with distorted and half-truths. On both sides. Washington, 
D.C. is 3,000 miles away and is filled with lobbyists, consultants and 
regulators who wouldn't know a sugar pine from a fir. Sacramento is 100 
miles south and feels even more distant than D.C. And to the regulators 
who write the Code of Federal Regulations, the policies and procedures 
and then debate the placement of a comma, you mean well, I know. And I 
am sure you are good people. But you are useless when it comes to doing 
things to help the land. And the ``nonprofits'' (yea, right), lawyers 
and academics, this is all too often a game for you to successfully 
navigate your own institution. ``How do I get a grant to study 
something that if I looked closely, generations before already knew?'' 
Nothing happens on the ground to make change. I do understand that most 
folks truly care and start with the best intentions.
    For those of you on the right who want to blame the left and 
California, these are National Forest lands that are ``managed'' by the 
feds. They have failed miserably over the past 50 years. Smokey the 
Bear was the cruelest joke ever played on the western landscape, a 
decades long campaign to prevent forest fires has resulted in mega-
fires of a scope we've never seen. Thanks, Smokey.
    The U.S. Forest Service is constantly threatened with litigation 
from extremists who don't want anyone to ``use'' the Forest. It is to 
be ``preserved.'' Great job in helping to get us where we are. And I 
feel bad for Forest Service personnel. Most of them are great people 
who work there because they love the land like I do. But they are 
chained to desks to write reports and follow edicts handed down from 
those who don't know. One size fits all regulations are not a solution 
in diverse ecosystems. And, the Forest Service budget is consumed by 
fire suppression and litigation. What funds are left to actually work 
on the land?
    And, for those of you on the left who want to blame it all on 
climate change, the regulations at the state and Federal level have 
crippled--no, stopped--any progress towards changing the unmitigated 
disasters facing our landscapes. I wonder how many of you have walked 
the canyons or ridges or seen the wildlife and beauty at a secret 
stream?
    Politicians stage drive by photo-ops to raise money at the fringe. 
None of us really like you. We just are forced to deal with you. Of 
course, there are many exceptions and you know who you are. I hate to 
visit an office to discuss issues when the legislator is far more 
interested in talking than listening. It seems that nobody can be a 
centrist and make sense and win. There is plenty of blame to go around 
on both sides of the aisle.

          And just maybe it's both--horrible forest management and 
        climate change. Don't you think months of massive smoke 
        covering the West may impact the climate, especially added to 
        our other pollutants? Does it matter which came first? Why not 
        invest in solutions rather than using sound-bites to gin up the 
        base? And locally, we know the solutions. And those investments 
        should be locally conceived and locally driven.

    I grew up hearing the stories from my Dad and Grandad of the ``last 
man out'' lighting the forest floor to burn the low undergrowth. Their 
generations knew to reduce the ladder fuels that spread the fire to the 
canopy, to open it up for the wildlife. It was a pact between our 
friends the Native Americans who had managed it this way for 13,000 
years, the loggers, miners and ranchers. They knew ecology and botany 
and wildlife. They worked together because they loved and knew the 
land.
    It was the early 1960s and snow was already on the ground in 
December on our foothill ranch. I would have been about 4 and holding 
my Grandfather's hand as he lit some piles of brush on fire to open the 
landscape. It was the practice he had learned from generations before. 
And the CDF (now Cal-Fire) crew showed up, put out the fire, and 
lectured him for burning. My Grandad was the kindest, gentlest and 
funniest man I have ever known. And he was mad. It was the beginning of 
the end for our forest home. And it has proceeded at an unprecedented 
rate.
    I am angry. Try a control burn in the winter now and watch someone 
cite you because it is not an approved ``burn day,'' you had the wrong 
permit and approval and you might impact air quality. It is beyond 
moronic. How is the choking air quality that has blanketed the west 
this past month, when people can't go outside without a mask, a better 
alternative? Are you kidding me? Bureaucrats and well-intentioned 
regulators who don't know they don't know have tied our hands, and the 
blame is shared at the both the state and Federal levels.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lest you think I am a complete rube, I earned my PhD in Animal 
Science 35 years ago at Colorado State. I loved teaching and ranching--
so I did both. But I am a cattleman at heart. And, I have been involved 
in industry activities for many years, serving as Past President of the 
California Cattlemen's Association, current Chair of the California 
Cattle Council, Chair of the Forest Service committee for the Public 
Lands Council and Chair of Federal Lands for the National Cattlemen's 
Beef Association. I have walked the halls of Congress, met with 
legislators in both Sacramento and DC and I am willing to advocate for 
the cattle community to anyone who will listen. I have dined with 
legislators in D.C., Chicago and Sacramento at wonderful restaurants 
noted for fine dining. The company, food and conversation were 
enjoyable. And I have had bologna sandwiches and beer in the mountains 
with ranchers and loggers. Somehow, the air seemed cleaner and the food 
was better with the latter. Something about straight forward honesty 
and hard work is appealing.
    I invite any legislator or regulator, state or Federal, to come 
with me to this devastation. Leave your photographer behind, put on 
boots and let's go. I will buy the bologna. We have created tragedy 
after tragedy across the West, and we need solutions.
    Look at the mega-fires California has experienced in recent years. 
If you study them closely, almost all of them start on state or 
federally owned land. Fifty percent of California is owned by the feds 
or state, land that has unmanaged fuel loads because of the 
restrictions to do anything on the land. Right now, the only buffer to 
these disasters are private, well managed, grazed landscapes. They may 
still burn, but the fires are not as catastrophic and can be 
controlled. Butte County alone has recently had the Camp Fire which 
destroyed the town of Paradise, population of 20,000 where almost a 
hundred people died. And now the Bear Fire where Berry Creek, a small 
community of about 1000 residents had at least 14 deaths, an even 
higher percentage.
    Our segmented view of the landscape has led us to tragedy after 
tragedy. As a rancher on the Forest, I am required, in the name of 
ecosystem health, to monitor meadow utilization, browse of willows and 
streambank alteration. Fine. I comply. If I hit 41% meadow utilization 
I can get a letter of non-compliance since 40% is considered the 
maximum. The Bear Fire did not leave 60% of the meadow! I wonder if I 
will get a letter of non-compliance? Again, the forest for the trees.
    It is not the Forest Service range conservationist's fault that I 
have to monitor these three factors. It is the guidelines they were 
handed. But they are arbitrary and ineffective measures to ``protect'' 
the environment, and of no use against decades of unmitigated fuel 
growth. Can anybody look up and see the meadows and water disappearing? 
Is the health of the meadow crippled by unchecked understory growth 
that sucks the water out and allows invasion of conifers? It is easier 
to blame the cow. Look up. Watch nature. She will talk to you . . . .
    I think it is as simple as not seeing the forest for the trees. And 
in my academic life, it was the norm. I worked with wonderful faculty, 
staff and students who were committed to research and teaching. 
However, we rarely looked at the big picture because we were encouraged 
to publish in our disciplines without seeking out how our work 
connected with others or how our small piece was part of a larger 
solution. That ``siloed'' thinking plagues most bureaucracies and 
agencies. We only know what we know. And, in most disciplines in the 
academy, most faculty are now several generations removed from a direct 
connection with the land.

          Listen to the generations before. Mega-fires are a recent 
        product of lack of use of fire, less grazing and over-
        regulation. And if you look at recent history, almost every 
        mega-fire that I can recall has started on state and Federal 
        lands. Mismanagement. And those catastrophic fires contribute 
        to climate change. Yet the guidelines followed by the feds on 
        National Forest and the state on state parks lands are ``one 
        size fits all.'' It is beyond dumb. And no one's fault. And 
        everyone's fault. Listen to the Forest. Listen to the locals.

    The fire in Santa Rosa in 2018 was estimated to produce more 
CO<INF>2</INF> and pollutants in 1 week than all of the cars in 
California in 1 year. We have already had six of the largest twenty 
fires in California history in 2020. The Bear Fire has eclipsed 250,000 
acres and is still burning. To me this is very personal, but this is a 
much bigger problem than my family having our cattle killed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I get frustrated with experts and consultants who drive by and 
``know just what to do.'' For 35 years I have attended conferences, 
given presentations and listened. What I have learned is solutions are 
local and specific. What happens in one watershed in Plumas or Butte 
County may be entirely different in the Lassen National Forest just 
next door. But experts of all kinds are glad to tell you how to do it. 
``Let's prescribe graze, use virtual fences, change your timing, change 
your genetics.'' Prescribe graze the forest and canyons? Yea. Right. 
They don't know what they don't know but they will take the honorarium 
anyway and have a great dinner on your dime. Another game where the 
people who live here and the land rarely benefit.
    I have traveled and given presentations nationally and 
internationally for decades as the odd ``academic cowman.'' I learned 
quickly that it is insulting to make suggestions if you don't know the 
land, the people and the culture. I love these canned ``you should do 
this and this'' PowerPoint talks. It is frustrating. My approach has 
always been ``this is what I do and why--it may not fit here so don't 
force it.'' I loved those trips not because of what I taught but of 
what I learned from the locals.
    Cattle, like the wildlife, follow the season in this wildland we 
love. They start at low elevation in June and work east and higher 
until early October. As leaves begin to change, they start west and 
down. How and why would you fence this land? Again, an expert from afar 
who wrote a text or did it in a different ecosystem thought it was a 
great idea. It is exhausting.
    Yesterday was day four of the recovery effort. I now understand 
what first responders mean when they say, ``rescue to recovery.'' I 
hold out little hope for live cattle. We have to get to Hartman Bar 
ridge between the middle fork and south branch of the Feather River. It 
is the furthest north, most breathtaking and the hardest to access. One 
road in and one road out, choked with downed and sometimes burning 
trees. We see a burnt bear cub trying to climb a tree, 2 miles further 
a mature bear, burnt but staying in the water trying to ease the pain. 
We give them both a chance because they made it this far. We don't 
euthanize even though our brains say we should. Our hearts say let them 
try.
    We have about 6 miles of road to make passable to get stock 
trailers through, but we make short work of it. Sometimes you can 
travel \1/4\ mile and sometimes 100. But chainsaws and strong hands 
get us there.

          I have passed several streams today and tried to wade across 
        one looking for cattle. It strikes me as strange. All the 
        creeks have close to double the flow of last week. I see some 
        springs running that haven't been active for years. And it hits 
        me. We have released the water that the brush was sucking from 
        the land. The Native Americans were right again. Observe. Let 
        nature talk.

    We pulled up the grade to Hartman and Whiskey Hill, and there were 
cattle tracks in the burn! Lots of them. I couldn't believe it. The 
fire roared up out of the middle fork so quickly I expected nothing to 
be alive. I had myself prepared. But we found cattle and some in pretty 
good shape. It was slow going. Incredibly steep and rugged with lost, 
hungry cattle. In one pocket we picked up 14 head with nary a scratch. 
Two old cows (12+ years which is old for a cow) and a bunch of young 
stock. Those old ladies knew where to hide! Wisdom from days gone by.
    After a long day, we had 32 alive and loaded. Some may not make it 
but we had to bring them home to give them a chance. They made it this 
far. More jarring, though, was to walk down the drainage by the old 
Mountain House Ridge corral and find 26 dead, spread from top to 
bottom. That fetid smell of death permeated the walk I used to love.
    Even with the dead cattle on Hartman Ridge that we found, why did 
we find over half alive here and nowhere else? If anything, I assumed 
this steep ridge gave them no chance at all. And I realized that there 
had been a much smaller fire here about 5 years ago. The country was 
more open and the fire moved quickly. Less fuel and more things lived. 
Trees, wildlife, and cows.
    I observed the same phenomenon in the remnants of the town of 
Feather Falls--where only a school and cemetery remain. The school had 
over 80 students less than 50 years ago, until the lumber mill closed 
and the village died. The school was destroyed by fire. The cemetery, 
however, still stands with green stately pines respecting the graves of 
mostly Native American veterans with flags at each grave. The cemetery 
was maintained free of deadfall and litter by family members. All the 
trees lived.
    Day five begins.
    We move as fast as we can, opening roads with saws and running 
four-wheelers down every logging spur. We hope against hope for cow 
tracks but there are none. Hartman Ridge is about 10 miles long with 
the only narrow paved Forest Service road in the entire mountains. 
Nothing new but the cow tracks from those we found yesterday. Nothing 
at Socrates Spring, Harry Waite's, the Lower Reservoir, DeJonah, Sheep 
Tank Meadow, Stag Point, Steward Ravine--and a hundred more name places 
that are being lost. Nothing.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Up by Tamarack Flat, I run into five pick-ups belonging to timber 
reps from Sierra Pacific, the private land holder who we lease from and 
who has private property throughout our range. I am walking the logging 
road looking and listening, as I had run out of gas a mile or so ago. 
Too much country to cover! They were no doubt shocked to see me in that 
desolation striding down the road, covered in ash from head to foot. I 
know most of them. Foresters by trade who, like me, love the land. ``It 
is all gone,'' they say. Almost. I told them I could show them a few 
pockets where trees survived. But very few. We are sad and angry 
together.
    By the end of a grueling day, we have seven head loaded. Five of 
them are cattle we had seen before and were just able to get portable 
panels to and load, three of which are badly burned and will get a 
chance for feed and water before they will most likely die or need to 
be euthanized. We know of three more live cattle that we have seen and 
not loaded. That may be it. Over 100 brought home, so far, but I will 
be surprised if eighty live. Many of those who live will have lost 
their baby calves to fire. There are no words. 20% of the herd we drove 
to the mountains on June 1. Maybe.
    Our crew will be smaller today. Rob flies back to his duty station 
in the army. Kate is back working as a veterinarian. They leave with 
overwhelming sadness and ``we will help any way we can.'' Most of the 
rest of our crew have to get back to their jobs, but ``are a phone call 
away with a stock trailer'' if we find something to load beyond the two 
trailers we will haul ourselves. I doubt we will. Kyle and I will start 
the search, compulsively walking creeks and canyons that we have 
already searched, hoping something straggles in behind. You never know 
and you can't quit. That is not who we are.
    And now we go on. What will happen? This is devastating emotionally 
and financially. And I am not sure of the next steps. I do know this: 
We must change our land management practices if we expect the West to 
survive. It is best done locally, not from D.C. or Sacramento, but I 
have tilted at windmills before.
    We won't quit. We need to get tougher and stronger. We never have 
quit for 140 years and I won't be the first. Suffer the bureaucratic 
maze and try to make incremental change. And, as always, work with 
nature. I have to. Juni Daley, and the next generation, needs to see 
the mountains the same way we have seen them forever, to have hot 
chocolate on a cold fall morning and gather cows. It can't be just 
stories from her Grandad.

          We found an orphan heifer calf today, about 2 weeks old. Her 
        mother didn't make it. Kyle stumbled on her hiding in one of 
        the few living willow patches along a stream. He followed her 
        for over an hour straight up from the bottom of a canyon. We 
        caught her and she is now on a bottle getting milk replacer. 
        That rescue was good for my heart. My Granddaughter Juni's 
        first heifer I decide! They can grow up together.

    We saw life at Fall River today. Green grass trying to sprout at a 
spring. Life is resilient. So are we. Next year. And the next 100.
Dave Postscript
    It is day 12 and we still are at the same pace because we have no 
choice. We are finding one or two per day that have lived so it is 
difficult to stop, but that is dwindling so we have to shift our focus 
to those that lived. It is hard to do. We have put 1,200 miles on the 
four-wheelers on old logging roads and skid trails in the last few 
days. I quit counting the number of tires we have ruined and how much 
chainsaw work we are doing. Unfortunately, today we had to begin 
euthanizing some of the cattle that we brought home. But they were 
home, fed and watered.
    The fire is still not contained and takes runs depending on the 
wind. I am not sure what next year will bring.
                                 ______
                                 
Submitted Statement by Hon. Doug LaMalfa, a Representative in Congress 
    from California; on Behalf of Federal Forest Resource Coalition
The 2020 Fire Season Should be the Watershed Moment for Federal Forest 
        Management
    The wildfires that came in the late summer of the 2020 Fire Season 
have created unprecedented challenges for our public and private forest 
landowners. Yet these fires are just the latest in a series of 
catastrophic fire seasons over the last decade. The Wallow Fire in 
Arizona in 2011 scorched over \1/2\ million acres mostly on the Apache 
National Forest, burning stands of Ponderosa pine in a stand replacing 
fire because of overly dense conditions. The King Fire of 2014 was one 
of many serious and fast-moving fires that summer which burned across 
Federal forests and on to private lands. The summer of 2017 saw a 
season-long fire siege in Montana and Idaho that stretched until the 
fall rains arrived, while the Chetco Bar fire blew up late in the 
season and devastated parts of Oregon.
    The fire storms of early September 2020 have more than eclipsed 
these traumatic experiences. In Oregon alone, about 800,000 acres of 
forests--about half of which is Federal lands--has burned in the last 
several weeks. These fires consumed forests at all stages of 
development, although they largely began during a wind event that 
brought down powerlines, mostly on Federal lands. In California, about 
three percent of the land area of the state burned this year, and five 
of the ten largest fires in state history were burning at one time in 
September. Three Forests in particular, the Mendocino, the Plumas, and 
the Sierra, have been impacted. While the final fire perimeters will 
take some time to establish, it appears that most of the Mendocino has 
been burned in high intensity fire. The Sierra National Forest, which 
had experienced a large-scale forest mortality event in recent years, 
saw the majority of the acres impacted by that event destroyed in the 
Creek Fire, which is still burning and is expected to burn until 
Halloween. The North Complex on the Plumas is approaching 300,000 acres 
and containment isn't expected till mid-November.
    We're already aware of two fires--including the Creek Fire on the 
Sierra National Forest and the White River on the Mount Hood National 
Forest--that destroyed areas where the Forest Service had attempted to 
reduce hazardous fuel loads but were stymied because of red tape or 
litigation. The Crystal Clear Restoration Project on the Mount Hood, 
which sought to reduce fuels on about 11,000 acres, was the subject of 
nearly 4 years of analysis and litigation, which led to the Forest 
Service publishing over 1,900 pages of analysis on this relatively 
minor project. This analysis concluded that ``if a fire were to move 
through the area without reducing fuels, it would likely be more 
severe.'' A portion of the project area burned in intense fire 
conditions during the White River fire. The project had been sent back 
to the Forest Service for additional analysis by a misguided decision 
from the Ninth Circuit Court of Appeals.
    On the Sierra, the Musick Fuels Reduction project moved relatively 
quickly through the analysis process, but the Creek Fire began 2 years 
almost to the day from the initial scoping effort for the project. The 
entire project area was destroyed in this highly predictable fire.
    The story of this September's Oregon and California fires has been 
repeated across the National Forest System, as noted in Arizona, 
Colorado, Montana, and elsewhere. Millions of acres have burned, 
frequently in uncharacteristically hot, stand-replacing fires. Some of 
these events have been primarily wind driven, others have been big and 
hot enough to generate their own weather. We have no doubt that both a 
warming and drying climate and the generally overstocked conditions on 
our National Forests have contributed to both the extent and intensity 
of recent blazes. The conditions on California's National Forests are 
emblematic of this problem.
    According to Forest Inventory Data and research conducted by Dr. 
Malcolm North of the Forest Service's Pacific Southwest Research 
station, by 2015, California's National Forests were carrying an 
average of over 320 conifer trees per acre. Historically, these forests 
supported less than \1/5\ of that number, about 64 trees per acre. 
These less dense forests in California were historically able to 
survive multiple disturbances, including wind, fire, and insect 
outbreaks. As we've seen dramatically in the last several years, our 
current, overstocked forests cannot.
    This basic pattern repeats itself across of much of the National 
Forest System. Forests which typically had frequent fires are 
overstocked, full of suppressed trees that help create intense fires 
they cannot survive. Forest types adapted to higher intensity fires 
lack age class diversity, meaning that fires which would have burned in 
a mosaic of intensities instead scorch entire watersheds and destroy 
wildlife habitat. Together, they create a dangerous setting in which we 
ask our firefighters to risk their lives, and which threatens entire 
communities with obliteration.
    We appreciate the opportunity to submit this testimony, and provide 
comments in two major areas, first, the immediate response required to 
begin restoring these forests so they can once again sequester carbon 
and begin to reestablish wildlife habitat and future timber supplies, 
and second, taking steps to make it easier to manage acres on the 
National Forest that are not in restricted land uses such as Wilderness 
and inventoried roadless areas.
    Immediate Response: Focus on restoring access for forest 
management, prioritizing reforestation, converting NEPA ready projects 
to salvage: While we are still sorting through the results from this 
fire season, it's clear that there are several main tasks which will 
require immediate action and--it seems likely--a significant investment 
of additional resources: restoring access, prioritizing reforestation, 
and allowing NEPA ready projects to go forward without delay.
    Damage to timber along both state highways and Forest Service roads 
will severely restrict access to these forests if immediate action is 
not taken to remove hazard trees and restore damaged infrastructure. 
Failure to quickly remove hazard trees will only increase future fire 
danger by restricting access for firefighters and egress for 
homeowners, residents, and recreationists.
    Congress should immediately authorize the Forest Service and Bureau 
of Land Management to conduct roadside hazard tree removal out to 200 
on either side of roads impacted by wildfires in the last 2 years. 
Existing administrative authorities for such removal are limited, and 
if experience is any guide, in many areas, the Forest Service will opt 
to close roads indefinitely unless they receive relief from 
administrative review and adequate funding to complete this task.
    We also believe that a significant contributing factor to increased 
fire activity in the west is decreasing road access to our Federal 
lands. This factor is often overshadowed by both climate change and 
fuels accumulation when the topic of wildfire is discussed in public 
forums. However, we believe that the deteriorating road infrastructure 
on our National Forests has also significantly contributed to recent 
spikes in wildfires. This deterioration has been a result of both 
reduced funding for road maintenance and the Federal agency's 
subsequent direction to reduce their overall road networks to through 
road decommissioning. The outcome is a forested landscape that is 
increasingly inaccessible to fire suppression agencies, delaying direct 
attack on nascent fires. Reversing this trend is vital to effective 
initial attack, as well as providing safe evacuation routes for 
impacted communities.
    Second, the Forest Service should prioritize salvage and 
reforestation of as many acres as possible. In many places, salvage 
logging can help take some of the standing dead trees off the 
landscape. Using these trees for lumber will lock up carbon in long-
lasting wood products while creating better growing conditions for the 
next stand of trees, which will sequester more carbon. The Forest 
Service should be able to remove hazard trees and take aggressive steps 
towards reforestation on non-reserved (i.e.,--not Wilderness or 
Inventoried Roadless Areas) acres without further environmental review. 
The Forest Service should consider using aerial seeding techniques on 
high-cost, steep slope acres to keep reforestation costs down.
    Third, the 2020 fires damaged millions of board feet of timber 
under contract, and tens of thousands of acres which had recently been 
through NEPA review in preparation for fuels reduction work. While some 
of the volume under contract will have lost all remaining value, 
Congress should direct the Forest Service and BLM to rapidly survey 
burned areas, and allow the agencies to convert projects that were 
damaged to salvage sales without further environmental review if they 
determine that the project still meets the original purpose and need 
statement. These projects should be converted to salvage sales within 
60 days. All such sales should be allowed to proceed under HFRA's 
judicial review provisions.

    Going Forward: We Need to Manage Unreserved Forests Like Their 
Future_and Ours_Depends on it.

    Since the mid-1990's, Forest Management on National Forests west of 
the Mississippi has proceeded from one relatively simple premise: That 
the best way to conserve sensitive wildlife species is to not 
manipulate forests through management or timber harvests. This has been 
expressed through recovery plans and critical habitat designations for 
a wide variety of species, including the various Spotted Owls, Canada 
Lynx, Grizzly Bear, Wolves, and others.
    This `hands off' approach to management was adopted, in our view, 
without much regard for how much of our Federal estate is already off 
limits to much--if any--management. Fully \1/3\ of all National Forest 
acres in the Northwest Region (Oregon and Washington) are either 
Congressionally designated Wilderness Areas or Inventoried Roadless 
Areas. In California, the total in these two restrictive categories is 
47 percent. Nation-wide, some 94 million acres of National Forests is 
either Wilderness or Roadless, fully 48 percent of the entire National 
Forest System. This tally does not include the millions of acres set 
aside as National Parks, including over 1.7 million acres of mostly 
forested National Parks in California. Millions more acres are 
difficult to manage because of assumptions about harm to species due to 
disturbance from harvest. As we've seen, if we don't manage unreserved 
forests, we will wind up with disturbances from wildfires far more 
disruptive than a modest thinning project.
    Americans should be proud of the conservation legacy they have 
created by setting up the Federal land management agencies and 
establishing protected areas like Wildernesses. However, the simple 
fact is that when the Forest Service tries to manage unreserved Federal 
lands, activist groups have abused a series of well-meaning laws to 
delay or stop needed management. As these forests mature after a 
century of fire suppression and decades of passive management, the slow 
pace of management the Forest Service has been able to achieve is 
simply slower than the fires we are experiencing.
    The Congress has, over the last 17 years, provided the Forest 
Service with some tools which can help them put forest management 
projects on slightly faster tracks. The Healthy Forest Restoration Act 
was first passed in 2003, and has been amended several times, including 
in the 2014 and 2018 Farm Bills. The Forest Service has a few 
legislated Categorical Exclusions, Designation by Prescription 
authority, Good Neighbor Authority, and some other tools to expedite 
the NEPA process. This Committee deserves much of the credit for 
enacting these laws.
    While we've seen an uptick in management, and a slow increase in 
timber harvests in the last 12 years, we still see Forest Service staff 
shy away from managing what should be unreserved acres because of 
concerns that harvest will disrupt wildlife habitat. Instead of 
managing unreserved lands, we see small projects which leave many 
overstocked acres untouched, and even these go forward only after a 
laborious process that often involves administrative objection and 
litigation.
    We are aware of legislation, including H.R. 7978, that would 
authorize a few larger projects on some National Forests, while also 
allowing work on some fuel and fire breaks. We are supportive of the 
concepts in this bill and look forward to expanding them to make them 
more relevant to the scale of the challenges we are confronting.
    Passive management, reduced access, combined with climate change 
and the development of homes in the wildland urban interface, have led 
us to spot where wildfires have likely caused more emissions than 
either cars or electric power generation in both Oregon and California 
this year, according to some early estimates. An equally passive 
approach to restoring these forests--and managing the remainder outside 
of Wilderness areas--will not help the global carbon balance. It's time 
for Congress to weigh in here in favor of actively managing unreserved 
lands. Leaving the Forest Service to wrangle with environmental 
litigants and the vagaries of the court system is not an option.
    We look forward to working with this Committee to restore our 
National Forests so that future generations can look back and thank us 
for the legacy we are passing on to them.

          About the FFRC: FFRC is a national coalition of wood products 
        companies, local governments, conservation groups united by 
        concern for the National Forests. FFRC supports improving the 
        management of the Federal lands to support healthy forests and 
        vibrant rural communities.
                                 ______
                                 
Submitted Statement by Hon. Doug LaMalfa, a Representative in Congress 
  from California; on Behalf of Dee Sanders, General Manager, Trinity 
                          River Lumber Company
August to September
    It is Monday morning and I am driving north on Interstate 5 in 
northern California.
    Off to the west I can see the smoke rising from a few fires started 
from the recent lightning storm the day before. I am also aware that 
there are some other lightning caused fires started across the north 
end of California. Not unusual for late August and September in 
northern California.
    My mind quickly focuses on the hope that the U.S. Forest Service 
will quickly get on top of the fire starts and not try and manage the 
fire with the current risky extreme conditions. We have burned so many 
acres in the last several years by not being aggressive enough at the 
start.
    Unfortunately, very few of those acres have been logged and 
reforested after the devastation but only left to grow back as brush 
fields to fuel future fires.
    I think of the decline in Forest Management over the last 50 years 
since my career started in the National Forest of northern California. 
How did we get here? A little bit at a time. Passing laws with good 
intentions only to tie the hands of the professionals hired to manage 
the forest we are trying to protect. Unfortunately, again we have 
destroyed all the resources we were trying to protect, Fish, Wildlife, 
Timber, Recreation, Water and clean air. Oh! How I wish for some fall 
days that were not filled with smoke.
    Arriving back home I drive by our local airport to see several 
helicopters that have been brought in to provide support for fighting 
fire started in the Wilderness Area. Hopefully, the Forest Service is 
aggressive and not risk burning up a large acreage.
    It is now several weeks later, and the weather forecast is for 
strong north winds early in the week. The lightning fires are still 
burning, and my concern grows regarding the potential for the 
development of a catastrophic event.
    It has happened again, we now have several very large fires with 
the loss of life, homes, businesses, and resources. Some of the fires 
grew faster in size than any fires in history, burning over 100 acres a 
minute. The Wilderness fire (Red Fire) that was a few hundred acres to 
start with and had several helicopters available to fight is now over 
90,000 acres. The August complex is now over 800,000 acres doubling the 
largest fire in California history from 2 years ago, reaching from the 
middle of the Mendocino National Forest into the Shasta-Trinity 
National Forest on over to the Six Rivers National Forest. The North 
Fire is w[e]ll over 200,000 acres and destroyed the community of Berry 
Creek with the loss of life and homes. The community of Happy Camp was 
destroyed by the Slater fire.
    Here is a quote from a rancher with grazing permits on the Plumas 
National Forest, after the destruction of the Bear Fire (Part of the 
North Fire).

          ``I cry for the mountains and the legacy lost.
          It is almost midnight. We have been pushing hard for 18-20 
        hours every day since the Bear Fire tore through our mountain 
        cattle range on September 8th, and there is so much swirling in 
        my head I can't sleep anyway. The fire destroyed our cattle 
        range, our cattle, and even worse our family legacy. Someone 
        asked my daughter if I had lost our family home. She told them, 
        [`]No, that would be replaceable. This is not!['] I would 
        gladly sleep in my truck for the rest of my life to have our 
        mountains back.
          I am enveloped by overwhelming sadness and grief, [then] and 
        anger. [I'm] angry at everyone, and no one. Grieving for things 
        lost that will never be the same. I wake myself weeping almost 
        soundlessly and it is hard to stop.
          I cry for the forest[,] the trees and streams and the 
        horrible deaths suffered by the wildlife and our cattle. The 
        suffering was unimaginable. When you find groups of cows and 
        their baby calves tumbled in a ravine trying to escape, burned 
        almost beyond recognition, your try not to [retch]. You only 
        pray death was swift. A fawn and small calf side by side as if 
        hoping to protect one another. Worse, in searing memory, cows 
        with their hooves, udder and even legs burned off who had to be 
        euthanized. A doe laying in the ashes with three fawns, not all 
        hers I bet. And you are glad they can stand and move, even with 
        a limp, because you really cannot imagine any more death today. 
        Euthanasia is not pleasant, but sometimes it's the only option. 
        But you don't want more suffering. How many horrible choices 
        have faced us in the past 3 days?''

    The company I work for has lost all or portions of seven timber 
sales, that we have under contract on the Plumas, Mendocino, and Six 
Rivers National Forest, in the current fire siege. Operations were 
ongoing in three of those sales. Now the questions becomes, how fast 
can we get the Forest Service to move and make a decision on how we can 
go forward with operations on the timber sales destroyed?
    Will we be able to harvest and get the forest on the road to 
recovery or will we see hundreds of thousand acres left with no rehab 
and nothing replanted.
    Why isn't the Chief of the Forest Service in Congress everyday 
pounding on your desk, asking for help in giving the Forest Service 
some room to deal with the devastation.
    [Or] will we sit on our hands, writing environmental documents, 
while the timber goes to waste and nothing gets replanted.
    Our National Forest's future is in your hands, please help.
                                 ______
                                 
 Submitted Article by Hon. Dusty Johnson, a Representative in Congress 
                           from South Dakota
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[https://rapidcityjournal.com/news/local/blaze-burns-60-acres-more-
fires-feared-without-timely-precipitation/article_b495e733-07b1-5cd6-
8d09-a5e2265610bb.html]
Blaze burns 60 acres; more fires feared without timely precipitation
Seth Tupper (https://rapidcityjournal.com/users/profile/Seth Tupper)
Mar. 12, 2015, Updated Feb. 1, 2016
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Winston Cadotte, of the South Dakota Department of 
        Agriculture Black Hat Crew, works on the North Pole Fire 
        Wednesday morning west of Custer. The fire started on Tuesday 
        and burned about 60 acres.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          The North Pole Fire west of Custer burned just feet from 
        Barney Fleming's home but caused no damage thanks to 
        firefighters using a backburn technique.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          The North Pole Fire burned roughly 60 acres of ground Tuesday 
        west of Custer. Strong winds from the south drove the fire. but 
        most of the burning was contained to the grass and didn't get 
        into the tree canopy.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Eric Johnson cleans up a hot spot Wednesday morning west of 
        Custer while working at the North Pole Fire.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          John Stahl sprays out hot spots Wednesday morning at the [] 
        North Pole Fire west of Custer. The fire mostly burned grass 
        along the ground and spared many of the pine trees.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Firefighter Ben Maisel works on the North Pole Fire Wednesday 
        morning west of Custer.
          Chris Huber, Journal staff
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Chris Bennett left, and Eric Johnson work on hot spots 
        Wednesday morning at the North Pole Fire west of Custer.
          Chris Huber, Journal staff

          Custer D It was a scene that already seems familiar in this 
        warm, dry late winter:

    Eight soot-covered, hard-hatted, gear-laden firefighters rested on 
the ground alongside Linda Fleming's driveway at noon Wednesday, 
munching on sub sandwiches after taming a nearly 60 acre wildfire.
    ``They've done a wonderful job,'' Fleming said through smoke from 
the still-smoldering fire, ``and I don't think they get thanked 
enough.''
    Around 2 p.m. Tuesday, Fleming spotted smoke in the forested hills 
above the house she shares with her husband, Barney, about 7 miles west 
of Custer along S.D. Highway 16. She thought someone might be 
carelessly burning trash, so she called the local sheriff's office. 
Then she got a better vantage point and saw flames about 500 from her 
home and the couple's nearby rental cabins.
    Firefighters arrived and worked to contain the fire, which grew to 
59.3 acres on mostly Forest Service land. No structures were known to 
have sustained significant damage, but the fire got within a few yards 
of some dwellings.
    The blaze was named the North Pole Fire, because North Pole Road 
leads into the affected area. The cause was still under investigation.
    The mood at the scene was calm by Wednesday afternoon, but there 
was widespread anticipation of a busy and early fire season if the 
Black Hills area doesn't receive significant precipitation soon.
    Jared Hohn, fire management officer for the Forest Service's Hell 
Canyon Ranger District, said the lack of snowpack has exposed a lot of 
dormant grass and other dry vegetation, which can be fuel for fires.
    ``Next week, if we get a heavy rain, we could have an early green-
up, which would then alleviate a lot of the threat for large fire 
growth,'' Hohn said.
    Without that precipitation, the green-up will be delayed and the 
fire risk will remain heightened. On Wednesday, the official fire 
danger ratings throughout the Black Hills were ``very high'' to 
``extreme,'' the two highest ratings on the five-point scale.
    Last weekend, the Rapid City Fire Department battled two grass 
fires and went to a third that was out by the time firefighters 
arrived. On Friday night, Feb. 6, near Rockerville, a fire ignited by 
carelessly discarded ashes from a stove or fireplace wasn't fully 
controlled until the afternoon of Monday, Feb. 9.
    Even as crews were at the North Pole fire Wednesday afternoon, 
firefighters with the South Dakota Division of Wildland Fire 
Suppression and the Hayward, Hermosa, and Keystone volunteer fire 
departments jumped quickly on a fire threatening a home in the area of 
Turkey Ridge and Ghost Canyon roads.
    The fire, burning in grass and timber, grew to about 7\1/4\ acres 
before its forward advance was stopped around 5:15 p.m., about 90 
minutes after it was reported.
    As of Wednesday evening, the North Pole Fire was 60 percent 
contained. Officials planned to lift all road closures by 8 p.m. 
Wednesday, according to Jeni Lawver of the South Dakota Division of 
Wildland Fire Suppression.
    Mop-up operations will continue on Thursday. Smoke plumes will be 
visible for the next several days while crews continue to work in the 
area extinguishing burning stumps and ground litter in the fire's 
interior, Lawver said.
    The area scorched by the North Pole Fire previously was thinned by 
loggers who removed some of the fire's potential fuel. Most of the fuel 
was close to the ground, in the form of dry, dormant vegetation that 
grew thick during last summer's plentiful rain. The fire fed on that 
material, leaving behind a carpet of charred pine needles and grass 
that looked like thick, black tufts of horsehair.
    Forest Service firefighters and others from several area fire 
departments, along with state workers and Department of Corrections 
inmates, used hand tools and bulldozers to dig flame-stopping lines 
around the fire and also used hoses at the fire's edge. An estimated 80 
to 90 firefighters were on scene during the fire's peak.
    Because the fire stayed low to the ground where the fuel was, tree 
damage was minimal. The bottom 2 to 3 of some trees were charred, but 
many firefighters at the scene said they expect most of the trees to 
survive.
    Moderate winds fanned the fire only minimally, pushing it to the 
north-northeast. The cool night and morning conditions also were 
favorable to the firefighting effort.
    Scott Wheeler, the division supervisor for the fire and an 
assistant fire management officer with the Hell Canyon Ranger District, 
said fighting the blaze felt similar to controlling a prescribed burn.
    ``It just happened to not be planned,'' he said.
    Wednesday morning, Forest Service firefighters were on ``mop up'' 
duty, which included pulling hot embers away from potential fuel 
sources, spraying foamy water that soaked into hot spots, and using 
picks and shovels to expose hot areas to the cool morning air.
    Wheeler said some firefighters would remain on the scene for at 
least another day, and then would patrol the area regularly for several 
more days.
    There were no forced evacuations, and the Flemings stayed in their 
home Tuesday night as firefighters stood guard next to firetrucks in 
the driveway.
    Barney Fleming, a retired veterinarian formerly of New Orleans, 
said the fire was concerning but not nearly as alarming as a Louisiana 
hurricane.
    ``We stayed in our house last night and I slept like a baby,'' he 
said.

          Contact Seth Tupper at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="50233524387e242520203522102231203934333924293a3f25223e313c7e333f3d7e">[email&#160;protected]</a>
                                 ______
                                 
   Submitted Letter by James D. Ogsbury, Executive Director, Western 
                         Governors' Association
September 23, 2020

 
 
 
Hon. Abigail Davis Spanberger,       Hon. Doug LaMalfa,
Chair,                               Ranking Minority Member,
Subcommittee on Conservation and     Subcommittee on Conservation and
 Forestry,                            Forestry,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chair Spanberger and Ranking Member LaMalfa:

    In advance of the Subcommittee's September 24, 2020 hearing, The 
2020 Wildfire Year: Response and Recovery Efforts, attached please find 
two Western Governors' items related to wildfire, forest, and rangeland 
management in the West:

  <bullet> Western Governors' Association (WGA) Policy Resolution 2017-
        10, National Forest and Rangeland Management, and;

  <bullet> The June 2017 Special Report for the Western Governors' 
        National Forest and Rangeland Management Initiative.

    I request that you include these documents in the permanent record 
of the hearing, as they articulate Western Governors' policy positions 
and recommendations on these important issues.
    Thank you for your consideration of this request. Please contact me 
if you have any questions or require further information. In the 
meantime, with warm regards and best wishes, I am
            Respectfully,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
James D. Ogsbury,
Executive Director.
                              attachment 1
Western Governors' Association
Policy Resolution 2017-10 National Forest and Rangeland Management
A. Background
  1.  The American West encompasses a huge landmass representing 2.4 
            million square miles or over \2/3\ of the entire country. 
            Over 112 million people live in these states and they 
            reside in large, densely populated cities, smaller cities 
            and towns and in rural areas.

  2.  Perhaps more than any other region, terrain, forces of nature, 
            and land ownership patterns in the West underscore the 
            purpose and vital need for a more active Federal role in 
            forest management. Western states include more than 75 
            percent of our National Forest and Grassland system. These 
            public lands serve as critical economic drivers, and they 
            provide numerous conservation benefits, water supply, and 
            recreational opportunities for Western communities and the 
            nation.

  3.  States have a particular interest in improving the active 
            management of Federal forest lands. State governments have 
            trust authority over water, wildlife and forest resources, 
            along with primary authority and expertise to protect 
            community health and safety. Poorly managed forests can 
            have significant and broad impacts on the landscapes and 
            communities of the West, including negative impacts to air 
            quality and public health, degradation of rivers and 
            streams and associated water quality (including drinking 
            water), reduced forage for domestic livestock, impaired 
            habitats for wildlife and fish, and the loss of forest 
            products and associated jobs.

  4.  Relative to decades past and other forest landowners, forest 
            managers today operate under a constrained decision space 
            as they work to address contemporary issues such as climate 
            change, invasive pests and diseases, habitat diversity, 
            fuel build-ups and fire risk, and legacy impacts. Adding to 
            this challenge are concerns about the economic and social 
            vitality of rural communities that experience impacts from 
            reduced timber supply and compromised forest health. 
            Displaced workers, declines in school enrollment, aging 
            demographics, property loss, business closures and revenue 
            impacts due to wildfire, and high unemployment are not 
            uncommon to these communities.

  5.  States are managers as well, and many western states own 
            extensive public land holdings that require forest products 
            infrastructure to achieve community vitality and land 
            management goals, including ecological restoration 
            objectives and healthy and resilient forests.

  6.  The U.S. Forest Service business model has historically been 
            based on a combination of Federal appropriations that were 
            supplemented with revenue from resource sales and fees. 
            Until the early 1990s, the Forest Service was a net 
            contributor to the Federal Treasury. Over the past 20 
            years, timber sales have dramatically declined.

  7.  In addition, the last decade has seen several large, very 
            expensive wildfires, which have increased the U.S. Forest 
            Service wildfire suppression costs from 13 percent of the 
            agency's FY 1991 budget to nearly 50 percent over the last 
            several fiscal years. Consequently, under the current 
            agency budgeting framework, forest management, hazardous 
            fuels reduction, habitat improvement, and outdoor 
            recreation programs have been negatively impacted across 
            National Forests and Department of [the] Interior lands.

  8.  An April 2015 study by the U.S. Forest Service, the Collaborative 
            Forest Landscape Restoration Program 5 Year Report, FY 
            2010-2014, found that the past century of wildfire 
            suppression and legacy management practices have 
            contributed to forests being overstocked and primed for 
            larger and more intense blazes, and that changes in land 
            use and increasing social pressures make it difficult for 
            the agency to let fire play its natural role of clearing 
            the forest understory in certain forest types. Active 
            forest management has historically played a pivotal role in 
            the growth and mortality cycle of forests to manage fuel 
            loading, which in turn can reduce fire-fighting costs and 
            improve habitat resilience. Today, the U.S. Forest Service 
            estimates that roughly 90,625\2\ miles--an area larger than 
            Utah--is at high or very high risk of severe wildfire and 
            in need of treatment.

  9.  Insect infestation and disease have damaged many of the forests 
            throughout the West. Severe drought conditions that are 
            impacting western states, particularly California, have 
            only exacerbated insect infestations and tree mortality. 
            The impacts go well beyond fire risk, and timber and fiber 
            production are negatively impacted, threatening the 
            viability of the surviving forest product infrastructure. 
            The significant decline in forest health has also created 
            serious threats and challenges to watershed integrity, 
            wildlife and fisheries habitats, recreational uses, 
            businesses and tourism. All of these impacts present 
            substantial challenges for forest-dependent communities 
            across the West.

  10. The dire forest conditions, unmet management needs, and the 
            failure to provide lasting protections for some landscapes 
            have brought diverse stakeholders together to find 
            solutions. Community collaboration on forest health 
            projects is robust in numerous places across the West 
            forging broad agreements among diverse stakeholders on 
            projects that encompass fuels reduction, fiber production, 
            habitat restoration, long-term protection for critical 
            areas, and other community objectives. It is not uncommon 
            to find mill owners, hunters and anglers, loggers, small 
            business owners, conservationists, and local elected 
            leaders working together around the table.

  11. Collaborative planning and project implementation across National 
            Forests and state and private forest lands on a larger 
            scale allows for more diverse interests to address their 
            particular needs for a landscape or a watershed. Taking a 
            broad look at a landscape for planning purposes minimizes 
            the challenges associated with managing lands for the 
            benefit of a particular species or to address a specific 
            need. Well-planned projects that are strategically placed 
            across a landscape can result in a higher level of benefits 
            than those that are more randomly or opportunistically 
            placed. Processes associated with planning and implementing 
            a project have become so time consuming and expensive for 
            National Forests in particular that a disincentive often 
            exists for their managers to proceed with management 
            actions that are needed to attain desired ecological, 
            social, and economic objectives.

  12. Collaborative efforts have shown initial successes in reaching 
            consensus, but there is a shortage of formal mechanisms 
            that encourage their creation in areas with conflict or 
            reward their success within the context of public process. 
            Further, there is little to no formal incentive for the 
            management agencies and collaboratives to ensure 
            collaborative work happens in a timely and efficient manner 
            that achieves a pace and scale of management that matches 
            the ecological, social, or economic needs of public and 
            private forestlands and surrounding communities.

  13. Despite this good work the full benefits of these collaborative 
            efforts have not been realized on the land. Working 
            constructively with collaborators requires resources to be 
            productive and the Federal agencies often lack the 
            necessary staff and funding. In addition, the Federal 
            agencies have sometimes been reluctant to embrace 
            collaboration, because they either have unclear legal 
            authority to favor collaborative efforts or don't welcome 
            the input.

  14. Further, and even when collaborative forest health projects enjoy 
            broad support from diverse stakeholders and the agencies, 
            administrative objections and litigation remain a too 
            frequent outcome. One result is that community 
            collaborative efforts become fatigued, and future 
            opportunities are lost. Another outcome is that Forest 
            Service restoration projects often go through exhaustive, 
            time-consuming analysis, driving up costs and preventing 
            the agency from scaling up management to meet the scope of 
            the problem.

  15. Today the costs associated with planning and implementing a 
            management project on National Forest lands are 
            significantly more than those of the private sector. This 
            cost, along with the time associated with drafting, 
            analyzing, incorporating public involvement, and responding 
            to appeals and/or litigation at the project level, lead 
            many Federal managers to focus their limited staff, funds 
            and time on projects with the least likelihood to be 
            challenged. This approach does not adequately address the 
            larger socioeconomic and ecological needs of our National 
            Forests and dependent communities.

  16. The 2014 Farm Bill provided the Forest Service with several new 
            tools to accelerate forest restoration. A Governor could 
            nominate landscapes substantially affected or threatened by 
            insects and disease to the Secretary of Agriculture for 
            designation as Priority Areas for expedited NEPA and 
            administrative process and judicial review. 16 Western 
            Governors nominated areas for this designation, the vast 
            majority of which were approved by the Secretary of 
            Agriculture.

  17. In addition, the new farm bill authorities provided for a 
            categorical exclusion (CE) for insect and disease projects 
            on areas as large as 3,000 acres that are the product of a 
            collaborative effort. The new CE has the potential to 
            greatly magnify the role of collaboration and strengthen 
            the results of those efforts, and to reduce the time and 
            cost for forest health projects, resulting in on-the-ground 
            restoration work that is accomplished more quickly and 
            across a larger landscape. Not yet in wide use, the farm 
            bill also added expanded ``Good Neighbor'' authority that 
            enhances the ability of states to partner with the Forest 
            Service and implement projects on Federal land.

  18. The shortcomings of Federal forest management have also impacted 
            local governments directly. In 1908, when Congress created 
            the National Forest System, it also passed the National 
            Forest Revenue Act in 1908 directing the Forest Service to 
            share 25 percent of gross revenues with local governments. 
            Then in 1976, Congress passed ``Payments in Lieu of Taxes'' 
            (PILT) legislation providing Federal payments to local 
            governments regardless of gross revenues that result from 
            timber harvest and other forest management activities. 
            After revenues from the sale of timber dropped 
            substantially, Congress passed the Secure Rural Schools and 
            Self Determination Act (SRS) in 2000, allowing counties to 
            choose between a payment based on historical average and 
            the 25 percent revenue share. SRS has expired several 
            times, and PILT has been subject to funding uncertainty as 
            well. Western Governors support efforts to ensure counties 
            and states continue to receive payments under the Secure 
            Rural Schools program, and that these payments should be 
            based upon historic Federal land management receipts. These 
            payments are vital to providing state and county public 
            goods and services, such as roads, emergency response, and 
            wildlife and natural resources protection in communities 
            adjacent to Federal lands.

  19. There have been several efforts in Congress to reform Federal 
            forest management, and recent legislation reflects the 
            continued frustration of Congress as it attempts to find a 
            path forward to address this issue in a productive, 
            bipartisan manner.
B. Governors' Policy Statement
  1.  Western Governors support sound forest management policies that 
            maintain and promote ecologic, economic and social balance 
            and sustainability.

  2.  Today, the Forest Service's forest management program is 
            primarily a byproduct of restoration projects intended to 
            reduce wildfire risk and/or improve forest resilience, 
            water quality, watershed health, key wildlife habitat, and/
            or intrinsic value. Western Governors recognize and support 
            these forest values, but also believe it is reasonable to 
            expect that some portion of the Federal landscape will be 
            focused on long-term, ecologically-sound forest 
            management--where jobs, forest products, and revenues are 
            priorities and generated through sound stewardship.

  3.  Western Governors encourage the Forest Service to develop and 
            help fund new technologies and wood based markets for some 
            non-traditional products. USDA's Forest Products Laboratory 
            is a hub for research and innovation. We should continue to 
            encourage the application of their knowledge and experience 
            in a practical way in the western United States so that 
            some of the federally funded infrastructure that develops 
            from such efforts could first be demonstrated on private 
            lands. Also, since Federal forests are now more focused on 
            large landscape forest health projects, there is a good 
            opportunity to ensure we have a broader suite of outlets, 
            in addition to traditional sawmills and existing biomass 
            facilities.

  4.  We can achieve sustainable forest management across every acre of 
            our Federal and non-Federal forestlands while including an 
            equitable mix of uses to meet many ecological, social, and 
            economic needs.

  5.  Western Governors believe that our citizens are capable of 
            rolling up their sleeves and working together with the 
            Federal agencies to address difficult issues such as forest 
            management, and that not enough is done to incent and 
            reward the current collaborative work that is occurring 
            across the West.

  6.  It is important to retain citizens' rights to question 
            governmental decisions through administrative and legal 
            means. However, there are situations where the threat of 
            litigation is a key factor resulting in either delay of 
            agency activity and progress or the stifling of productive 
            collaborative work. The lack of funding and resources for 
            Federal agencies is also a significant factor. Western 
            Governors believe an effort needs to be made to better 
            understand the scope and scale of this problem. There may 
            be an opportunity to further streamline appeals and 
            litigation associated with National Forest decision making 
            in association with other changes designed to incent 
            collaboration and provide more certainty as to outcomes.

  7.  The 2014 Farm Bill authorities are significant expansions of 
            Forest Service authority and are powerful new tools to 
            boost forest management, promote collaboration, and limit 
            the impacts of administrative objections and litigation. 
            Western Governors encourage Federal agencies to fully 
            implement the tools provided in the 2014 Farm Bill.

  8.  Western Governors are on record as strong supporters of ending 
            the practice of fire borrowing, and Congress should pass 
            legislation to fund Federal wildfires off-budget as many 
            states already do, and ensure the Forest Service budget for 
            forest restoration, recreation, road maintenance, hazardous 
            fuels reduction, and wildlife/watershed protection is fully 
            restored.

  9.  Western Governors believe clear, coordinated and consistent 
            application of Federal vegetation management practices is 
            integral to maintaining the health of western forests, 
            preventing dangerous and damaging fires, and maintaining 
            grid reliability. The Governors support effective and 
            efficient cross-jurisdictional coordination that enables 
            utilities to undertake necessary vegetation management 
            actions on Federal transmission rights-of-way--and to do so 
            without fear of strict liability imposition for necessary 
            vegetation management actions taken adjacent to 
            transmission rights-of-way.

  10. Western Governors are well-suited to engage in a productive and 
            bipartisan dialogue on the broader topic of Federal forest 
            management reform, engaging westerners and examining on the 
            ground realities across western landscapes. Western states 
            are land owners and managers and well understand the 
            challenges associated with forest management under changing 
            social, economic and environmental conditions.

  11. A meaningful and successful discussion of forestry reform in the 
            West will require a transparent and inclusive process that 
            engages those diverse interests who have a direct stake in 
            forest management outcomes. The impacts of forest 
            management are felt most directly by those who live, work 
            and recreate in and adjacent to those forests, so the 
            discussion needs to begin there. This is perhaps where 
            Western Governors can provide the most productive 
            bipartisan contribution to this national discussion. Our 
            nation's forests belong to all Americans, and in the end 
            and through their elected representation all Americans will 
            determine the scope and success of any efforts to reform 
            forest management.

  12. There is significant dissatisfaction in the West among many 
            stakeholders with the current level of National Forest 
            management. There is a general sense that the current level 
            of forest management is not meeting anyone's needs, whether 
            it's putting logs on trucks, protecting water quality, 
            addressing fire risk, protecting key habitats and 
            landscapes, providing for recreation, or other important 
            community needs. Successful forest management reform will 
            achieve a balance among all of these important objectives, 
            and provide the opportunity for certainty such that diverse 
            interests will be encouraged to work together to achieve 
            shared outcomes.

  13. It is time to reconsider the business model of the U.S. Forest 
            Service. Western Governors believe it may be possible to 
            reform the Forest Service business model in a manner that 
            reduces project planning costs, sources funds from non-
            Federal partners and recognizes that the agency no longer 
            generates large revenues from commodity programs.

  14. Any discussion of forest management reform must include 
            consideration of the financial relationship between the 
            Federal and local governments, the existence of PILT, and 
            the limited tax base for counties with significant Federal 
            ownership.

  15. Western Governors support the recommendations identified over the 
            course of the WGA National Forest and Rangeland Management 
            Initiative, and incorporate the recommendations into this 
            resolution by reference.
C. Governors' Management Directive
  1.  The Governors direct the WGA staff, where appropriate, to work 
            with Congressional committees of jurisdiction and the 
            Executive Branch to achieve the objectives of this 
            resolution including funding, subject to the appropriation 
            process, based on a prioritization of needs.

  2.  Furthermore, the Governors direct WGA staff to develop, as 
            appropriate and timely, detailed annual work plans to 
            advance the policy positions and goals contained in this 
            resolution. Those work plans shall be presented to, and 
            approved by, Western Governors prior to implementation. WGA 
            staff shall keep the Governors informed, on a regular 
            basis, of their progress in implementing approved annual 
            work plans.

          Western Governors enact new policy resolutions and amend 
        existing resolutions on a bi-annual basis. Please consult 
        http://www.westgov.org/resolutions for the most current copy of 
        a resolution and a list of all current WGA policy resolutions.
                              attachment 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Special Report
Western Governors' National Forest and Rangeland Management Initiative
The Chairman's Initiative of Montana Governor Steve Bullock
June 2017
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dear Friends and Colleagues:

    Like many of you, I had the luxury of growing up in the West. As a 
kid, I enjoyed a wealth of outdoor activities: hiking in the forests 
outside Helena, fishing in some of Montana's best rivers and streams, 
camping in our National Forests and public lands and visiting 
Yellowstone and Glacier National parks, and standing in awe of the 
literal ``Big Sky'' that surrounds us on the open range.
    As an adult, I still enjoy those same activities, and retain a 
strong sense of wonder and appreciation for our western lands as I 
begin to share those experiences with my kids. Most of us living here 
feel the same way: we love the land, the people, the life we are able 
to live in these beautiful places. Although the western economy is 
increasingly diverse, many of us still make a living from the natural 
resources found on our public lands: as ranchers, loggers, mill 
workers, hunting and fishing guides, and in the tourism industry. The 
good news is that these lands are diverse and plentiful enough to 
support us, regardless of how we may depend upon them.
    Most of us, however, also realize that these special places are at 
risk. Our wildfire seasons are longer, and more expensive, and they 
present increasing risks to the public and firefighters. Our forests 
and rangelands face unprecedented threats from insects, disease and 
invasive species. As the health of these lands declines, we risk not 
only our quality of life, but fish and wildlife habitat, clean and 
abundant sources of water, and the diverse economic opportunities that 
are inextricably tied to them. One sector of our economy is at 
particular risk: our forest industry is struggling to secure a 
predictable supply of timber and compete in a global marketplace. Mill 
closures are eliminating markets and jobs that are critical to our 
rural communities and that provide the resources to help pay the costs 
of restoring these landscapes.
    As these same conditions converged in Montana, we responded by 
coming together to seek solutions. Through our Forests in Focus 
Initiative, state and Federal agencies and stakeholders representing 
very divergent interests have invested in collaborative projects that 
restore the health and resiliency of our forests and rangelands, and 
support the communities that depend upon them. Our results to date have 
been remarkable: we've invested over $2 million to accelerate 27 
Federal projects that will reduce wildfire risk, restore watersheds, 
support over 3,000 jobs, and eventually produce over 160 million board 
of timber. Equally important, we are building a foundation of greater 
cooperation that will help achieve even more in the future.
    Montana was the first state in the nation to implement a 
stewardship project on U.S. Forest Service lands, and among the first 
to sign a Good Neighbor Agreement and implement a project using that 
new authority. We are focused not only on outputs, but on outcomes as 
well: healthier forests, more resilient watersheds, and as I learned 
from a young man from Seeley Lake, helping Montana's hardworking timber 
families feel more secure about their future.
    Responsibly managing our western forests and rangelands is a vexing 
concern for anyone who loves the West. From private landowners to 
conservation advocates to the agricultural and forest industries that 
provide jobs, food, and homes for our people, we all want to see these 
landscapes sustainably managed. As Chair of the Western Governors' 
Association (WGA), I saw an opportunity to build upon Montana's 
successes and learn from our neighbors through the National Forest and 
Rangeland Management Initiative.
    The Initiative is a mechanism to bring states, Federal land 
managers, private landowners and other stakeholders together to discuss 
issues and opportunities in forest and rangeland management. Although 
achieving balance between competing interests in the West is difficult, 
we believe it is possible to provide economic opportunities for our 
citizens, while conserving and protecting the spectacular landscapes 
that inspire residents and visitors who travel across the world to 
experience them.
    Through this Initiative, we conducted four workshops, four 
webinars, and solicited comments to gather information on what is 
working, and how we need to improve. Hundreds of people have 
participated, and we've learned that throughout the West people are 
working together to build and achieve a shared vision for these 
landscapes and the communities that rely upon them. It has been an 
encouraging start to a process that I hope will continue to thrive in 
the years ahead.
    The recommendations in this report are not exhaustive--nor do they 
offer quick fixes. The problems we face took decades to develop, and 
the solutions will take patience, dedication, and persistence from all 
partners to implement. I hope this report will inspire further 
commitment among western Governors, Federal agencies, non-governmental 
organizations, Tribal and local governments, businesses and private 
landowners to continue working together, on a bipartisan and 
collaborative basis, to promote the health and resilience of our 
forests and rangelands.
    Although we approach these challenges from various locations on the 
political spectrum, as citizens of the West, we are more closely tied 
by our similarities than differences. Our landscapes, natural 
resources, and our western work ethic will bind us as we seek solutions 
to the challenges facing us. Thank you for joining me as we continue to 
advance this Initiative in its second year.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Steve Bullock,
Governor of Montana.

    Dear Friend of the West:

    Public lands management. As a phrase, that sounds dry and academic 
and bureaucratic. But what it connotes is rich and interesting and 
wildly important. Because when we talk about land management, we're 
talking about nearly every activity undertaken on western lands. We're 
talking about wildfire (firefighting, prevention and mitigation). We're 
talking about recreation (camping, hunting, fishing, hiking, biking, 
climbing, skiing and motorized exploration). We're talking about 
economic activity (grazing, timber and mining). And we're talking about 
nature and water quality and species diversity and conservation.
    In fact, we are talking about those very things that make the West 
abundant and special and truly extraordinary.
    Western lands are marked by different ownership patterns and 
management regimes. Adjacent lands in the same biome can look, produce 
and react very differently from one another depending on how they are 
being managed and by whom and for what purposes.
    Under the leadership of Montana Governor and WGA Chair Steve 
Bullock, WGA has been proud to launch the Western Governors' National 
Forest and Rangeland Management Initiative. During the course of this 
effort, by focusing on the steps we can be taking to increase the 
overall health of our forests and rangelands, we are also taking steps 
to increase their resilience to wildfire, and other threats like 
insects, disease and invasive species.
    The initiative is producing recommendations on best management 
practices and tools that can help Western Governors, the Federal 
Government and local communities to strengthen their forests and 
rangeland habitats, revitalize forest health, and help break the 
current vicious cycle of catastrophic western wildfires.
    Over the past year, Western Governors hosted workshops across the 
West. The Governors' bipartisanship and spirit of collegiality 
encouraged substantive and constructive conversations about forest and 
rangeland management. At the same time that we processed a wide range 
of divergent opinions, we were struck by a sincere and common desire 
among participants and contributors to improve the health, protect the 
beauty and ensure the abundance of our precious western lands for 
generations to come. As has been said many times, we do not inherit the 
[E]arth from our ancestors; we borrow it from our children.
    The Western Governors' Association looks forward to continuing the 
work initiated by Governor Bullock in the coming year, guided by the 
spirit of cooperation and collegiality continually modeled by Western 
Governors.
            Respectfully,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
James D. Ogsbury,
WGA Executive Director.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Executive Summary
    Upon assuming the role of Chair of the Western Governors' 
Association in July 2016, Montana Governor Steve Bullock proposed that 
WGA pursue the National Forest and Rangeland Management Initiative. The 
goals of the initiative are to:

  <bullet> Examine existing forest and rangeland management authorities 
        and programs to determine their strengths and weaknesses;

  <bullet> Perform a detailed investigation of the role of 
        collaboratives in landscape restoration;

  <bullet> Create a mechanism for states and land managers to share 
        best practices, case studies and policy options for forest and 
        rangeland management; and

  <bullet> Recommend improved forest and rangeland management 
        authorities and encourage more effective collaboration.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Montana Governor Steve Bullock launched the National Forest 
        and Rangeland Management Initiative to bring states, Federal 
        land managers, private landowners and other stakeholders 
        together to discuss issues and opportunities in forest and 
        rangeland management.

    The initiative has since assembled a wide range of experts and 
stakeholders from throughout the West to share insights on land 
management practices and identify improvements that will enable western 
states to develop healthy, resilient landscapes and communities.
    That effort was greatly aided by the participation of Western 
Governors, who invested time and effort to host workshops in their 
respective states: Montana Governor Steve Bullock; Idaho Governor C.L. 
``Butch'' Otter; South Dakota Governor Dennis Daugaard; and Oregon 
Governor Kate Brown.
    The Initiative's reach was extended by live-streaming regional 
workshop sessions and posting those meeting sessions to WGA's YouTube 
page, as well as by posting live updates on Twitter. WGA also hosted 
webinars that addressed discrete topics in forest and rangeland 
management.
    Based upon the input from state and Federal land managers, private 
landowners, local governments, businesses and non-governmental 
organizations, WGA sought to identify best practices and offer 
recommendations to put western states on a path toward healthier, more 
resilient ecosystems, while continuing to support diverse economic 
opportunities for western communities.
    This report outlines the launch year of the Initiative and includes 
both administrative and legislative recommendations that touch upon the 
following areas:

  <bullet> Reforming Federal wildfire budget practices to allow for 
        more investment in efforts to build resilience and reduce 
        catastrophic wildfire risk;

  <bullet> Partnering to advance forest and rangeland management 
        projects across ownership boundaries to achieve landscape-scale 
        goals and streamline processes;
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Western Governors C.L. ``Butch'' Otter of Idaho, left, Dennis 
        Daugaard of South Dakota and Kate Brown of Oregon hosted 
        Chairman's Initiative workshops in theirrespective states.

  <bullet> Providing state-led investment to support collaboration, 
        prioritize limited resources, and ensure coordinated and 
        effective Federal, state and local government engagement;

  <bullet> Augmenting capacity and streamlining environmental analysis 
        and implementation of Federal forests and rangeland restoration 
        projects;

  <bullet> Strengthening markets for forest products and diversified 
        rangeland goods and services that can support forest and 
        rangeland restoration objectives; and

  <bullet> Pursuing new statutory flexibility and authorities to 
        advance landscape-scale restoration projects, and support high-
        impact programs.

    The launch year of the National Forest and Rangeland Management 
Initiative is just the beginning of WGA's work on this initiative. 
Recognizing that good policy development and implementation takes time, 
WGA initiatives are designed to work across multiple years.
    WGA's focus now shifts from information-gathering to implementation 
of the launch year recommendations. Western Governors will encourage 
state and Federal agencies to apply these recommendations to their 
management activities, and advocate for the adoption by Congress of the 
legislative reforms identified by the initiative.
Background
How did we get here?
    The West's forests and rangelands are facing an unprecedented 
health crisis. The causes are manifold, including a history of past 
fire suppression, an increase in large-scale outbreaks of insects, a 
changing climate, disease, and invasive species, and an increase in the 
frequency, size and severity of wildfires. The symptoms are staggering. 
Today our fire seasons are, by some estimates, 78 days longer than they 
were just 2 decades ago. Six western states have had their largest or 
most destructive wildfire events in the last 6 years. During that time, 
32 million acres of National Forests have succumbed to a devastating 
bark beetle epidemic, and over 100 million dead trees have littered the 
forests of California's Sierra Nevada mountains in the aftermath of the 
state's severe drought and changing climate. Amid these trends, the 
benefits our forests and rangelands provide (from food and fiber to 
recreation, water supplies and beyond) are at risk.
    A tumultuous and polarizing era in Federal forest and rangeland 
policy--characterized by entrenched legal battles and punctuated by a 
great recession--has influenced the management of our forests and 
rangelands. This history--coupled with constrained budgets, high 
administrative costs, increasing fire suppression expenses, and other 
challenges--have left Federal forests and rangelands exposed to health 
problems.
    The capacity of local communities, states and Federal agencies to 
respond to these threats has been diminished by forces beyond their 
control. In 1995, 16 percent of the United States Forest Service's 
(USFS) budget was dedicated to fire suppression. By 2015, that number 
had soared to more than half of the USFS's budget. Over 2 decades, non-
fire staffing within the USFS has been reduced by 39 percent. Today, 
the rising costs of fire suppression, and the complicating need to stop 
work mid-season to address and pay for urgent wildfires, have reduced 
agency capacity to support forest and rangeland restoration--including 
the very measures that can reduce risks of uncharacteristic wildfire in 
the first place.
    Meanwhile, as communities have grappled with new costs from 
declining forest and rangeland health and increased wildfires, a global 
financial crisis exacerbated impacts to a key sector for restoration: 
the forest products industry. New home starts plummeted from 2005-2010, 
resulting in the decline of worker earnings by 22 percent, and the loss 
of 79,000 jobs in the wood products sector in the West. During 2009 and 
2010, West-wide harvest and lumber output were at their lowest levels 
since the late 1940s. The region has suffered the permanent loss of 
more than 30 large mills and scores of smaller mills, while countless 
others significantly curtailed operations. Today, maintaining and 
strengthening the capacity of the restoration economy across all 
sectors and addressing the capacity constraints of Federal agencies 
remains of paramount concern.
    In the face of these increasing pressures, Federal agencies, 
states, counties, conservation organizations, industry and a host of 
other partners have rallied to achieve considerable success in 
cooperative restoration activity. Since 2008, USFS has increased the 
acres treated to restore forest and watershed health, and increased 
timber volume sold by over 20 percent. Through the Collaborative Forest 
Landscape Restoration program alone partners have treated: more than 
1.45 million acres to reduce the risk of catastrophic fire; more than 
84,570 acres to achieve healthier forest and watershed conditions 
through timber sales; more than 1.33 million acres for improved 
wildlife habitat; and more than 73,600 acres to address concerns from 
noxious weeds and invasive plants. New and extended authorities, such 
as those included in the Agricultural Act of 2014 (P.L. 113-79, aka the 
2014 Farm Bill), have helped Federal agencies work more efficiently and 
extensively with partners, including governors and states, and further 
advanced restoration activities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  What do we mean by healthy and resilient ecosystems?
          Healthy and resilient forests and rangelands are those that 
        can regenerate naturally after disturbance and adapt to changes 
        in climate, invasive species and insects and disease, wildfire, 
        and precipitation. They are characterized by:

      <bullet> Dynamic growth and complexity.

      <bullet> Diverse habitat, able to sustain a wide range of 
            wildlife and fish.

      <bullet> Healthy soils.

      <bullet> Tolerable levels of invasive species, insects and 
            disease.

      <bullet> High quality and sustainable water supply.

      <bullet> Economic and ecological sustainability: maintaining 
            ecosystem function 
              while meeting needs for aesthetics, recreation, health, 
            and forest and range-
              land products.

    The evidence from across the West is clear: we can buck the trends 
and overcome an uneven history of Federal forest and rangeland policy 
when we work together. States, industry, local governments, and non-
governmental organizations (NGOs) are playing an increasingly critical 
role in bolstering management capacity, reinvesting in restoration 
partnerships and advancing innovative approaches that not only restore 
degraded ecosystems, but also protect communities and provide economic 
engines for rural America. Equally important have been the locally and 
regionally-driven efforts that have emerged from Federal agency 
partners. These parties have redoubled their commitment and leadership 
to foster effective collaboration, pursue efficiencies, and drive the 
flow of resources to achieve mutually agreed upon objectives to improve 
the health and resiliency of our western forests and rangelands.
    Whether through collaborative efforts to determine appropriate 
timber and grazing prescriptions, reintroduction of fire to control 
fuels and support wildlife habitat, projects to combat invasive 
species, or improvements to watershed functions, new and diverse 
partnerships are emerging across land ownerships to help improve the 
health and resiliency of western landscapes. Now more than ever, 
sustaining and building upon this progress in the face of unprecedented 
threats to our forests and rangelands requires our collective attention 
and action.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Workshops of the Chairman's Initiative gathered a wide array 
        of stakeholders at workshops in Montana, Idaho, South Dakota 
        and Oregon.
Why the Western Governors' Forest and Rangeland Management Initiative?
    State-led innovation across the West--coupled with engagement from 
Federal land managers, including NGOs and industry--has created fertile 
ground for learning, dialogue and advancing a bipartisan reform agenda. 
To address the challenges we face, Western Governors recognize a need 
to examine these excellent but separate endeavors through a single 
lens: to encourage collaboration among those with different 
perspectives, capacities and expertise in a regional discussion of 
needs for the restoration and sustainable management of western 
rangelands and forests. The Initiative has brought together experts 
from a variety of sectors--from researchers to ranchers--and across a 
broad range of policy interests--from timber industry representatives 
to conservationists--to share the best available science and practical 
experience in examining our current forest and rangeland management 
policies and practices.
    The Initiative also offers an opportunity to elevate successful and 
innovative ideas and better understand the impacts and effectiveness of 
a broad range of investments in collaboration and forest and rangeland 
restoration. As United States Supreme Court Justice Louis Brandeis 
said, a ``state may, if its citizens choose, serve as a laboratory; and 
try novel social and economic experiments without risk to the rest of 
the country.'' This has certainly been true with land management 
practices. Different states have employed a wide variety of strategies 
to address needs ranging from wildlife and fish habitat conservation, 
to water quality and watershed protection, to timber management, 
livestock grazing, invasive species, and extractive industries. The 
Initiative has enabled states to share their successes and, in some 
cases, their failures with each other and allow them to build on the 
insights of collective experience.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  What do we mean by restoration?
          Restoration is the process of creating and maintaining 
        healthy, resilient forests and rangelands capable of delivering 
        all the benefits that people get from them: clean air and 
        water, habitat for native fish and wildlife, forest products, 
        food sources, opportunities for outdoor recreation, and more. 
        Restoration can foster economic opportunities to revitalize 
        communities and benefit the environment at the same time.

    During the past year, the Initiative has brought together a host of 
different interests and all levels of government, and the cooperative 
dialogue has been highly encouraging. There is a strong sense that we 
must work together if we are to address the challenges facing western 
lands and communities. Working together requires we put aside parochial 
interests and find ways to work across land ownership boundaries. The 
urgency of the threats requires all parties--states, Tribes, 
landowners, Federal agencies, nonprofit partners and Congress--to 
cooperatively implement, expand and refine the restoration management 
tools that currently exist, and reinvest in the many benefits our 
rangelands and forests provide.
What are the Initiative's management principles and philosophy?
    Collaboration--Solutions born from bipartisan cooperation among 
diverse interests always yield the most durable returns. Collaboration 
is not easy: it requires participants to respect different viewpoints; 
consider ideas outside their normal comfort zones; and engage in the 
arduous work of incorporating a wide variety of views into a coherent 
and workable plan of action. Growing experience with collaboration 
offers an opportunity to assess best practices that improve the 
integrity and efficiency of decision-making and help achieve solutions 
that are both innovative and durable.
    Partnership--If collaboration is talking the talk, then partnership 
is walking the walk. Effective partnership involves a commitment to 
work together for mutual benefit and to invest the time, money, and 
effort needed to accomplish an objective. Partnership helps us 
prioritize limited resources and augment capacity when and where it is 
most needed. It also demonstrates that our commitments to common goals 
are substantive and establishes joint accountability to ensure that 
these goals are pursued and achieved.
    Urgency--The pace, scale and quality of restoration must increase 
amid the threats to western forests and rangelands. Since 2010, over 
102 million trees on 7.7 million acres of California's forests have 
succumbed to drought. In Colorado, it is estimated that 1 in every 14 
standing trees is dead (a total of 834 million trees whose deaths are 
attributed to insect infestations, disease, and the suppression of 
natural wildfire). Invasive cheatgrass infests over 100 million acres 
of rangeland in western states. Every state in the West faces 
challenges in conserving forests and rangelands. While Western 
Governors and our partners acknowledge laudable progress to address the 
management of our lands, it is imperative that we scale up our 
successes to a landscape level and increase the pace of restoration 
efforts. Working at landscape scales not only will help address urgent 
threats, it can help create predictability in the achievement of forest 
restoration, conservation and economic development objectives.
    Resilience--Resilient forests and rangelands and communities go 
hand in hand. Managing for resilience ensures our lands can continue to 
provide for sustainable economies and that we optimize economic, social 
and environmental goals including the production of clean air and 
water, wildlife and fish habitat; and carbon sequestration in forests 
and wood products. It can also help us better protect communities and 
firefighters from increased risks, and expand and maintain diverse 
economic opportunities, customs and culture in rural America linked to 
public lands. Through provision of water supplies, recreational 
opportunities and the fiber needed to sustainably build and rebuild our 
cities of the future, resilient forests and rangelands also provide a 
critical linkage to our urban communities. Western Governors recognize 
that the long-term health of the forest and rangeland industries and 
enhanced markets for diverse forest and rangeland products, goods and 
services remains critical to meeting restoration goals. For the 
landowners, businesses and partners that comprise an emerging 
restoration economy supply-chain, a predictable and sustainable program 
of work helps foster a business environment conducive to investment 
that develops and maintains critical infrastructure and capacity.
Recommendations
    The Western Governors' Forest and Rangeland Management Initiative 
is a multi-year effort to examine and improve Federal forest and 
rangeland management. WGA Chair Steve Bullock work during the launch 
year of the effort. Under his leadership, WGA has conducted an 
extensive examination of current land management practices, both at the 
Federal and state level, to evaluate what is working (and what is not) 
in the management of western rangelands and forests. A broad range of 
stakeholders contributed their best ideas to the discussion of how to 
improve land management across the West. These recommendations 
represent a synthesis of the ideas presented at the Initiative 
workshops, webinars, and other Initiative opportunities.
    The recommendations are divided into two sections. First, an 
administrative section presents those actions that can be implemented 
within the framework of current Federal statutory authorities. Some of 
these recommendations have already been implemented on a limited basis 
in states or in connection with specific projects. These 
recommendations are included in the hope that their use will be 
expanded in scale. Others have been identified by various stakeholders 
as worthy of consideration and implementation by states and Federal 
agencies.
    Second, a legislative section includes recommendations for 
consideration by Congress. These recommendations would create greater 
flexibility for Federal and state land managers to address pressing 
restoration and resilience needs. Western Governors encourage Congress 
to examine these bipartisan reforms as it considers legislation to 
improve statutory authorities.
    Finally, there is a section on implementation and next steps. This 
includes a short examination of issues that were discussed over the 
past year, but which require further consideration before concrete 
recommendations can be offered (e.g., issues surrounding litigation and 
the use of alternative dispute resolution) as the Initiative moves into 
its multiyear implementation phase.
Administrative Recommendations
    States, Federal agencies and other partners have made significant 
progress toward optimizing the use of existing statutory land 
management authorities. Scaling up these early successes is perhaps the 
most significant opportunity to improve efficiency, incentivize action 
and achieve sustained progress toward forest and rangeland restoration 
goals.
    Many of these administrative recommendations are intended to be 
quickly actionable by Federal and state land managers. It is possible 
that, in some cases, a proposed administrative reform may ultimately 
require state statutory authorization. None of these proposed reforms, 
however, should require new Federal statutory authority. They do 
require the commitment and resources of state and Federal managers for 
implementation. Western Governors encourage their state agencies and 
Federal partners to collaborate on how to most effectively implement 
these recommendations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Montana Governor Steve Bullock hosted the opening workshop of 
        the Initiative in Missoula. He urged attendees in a keynote to 
        ``take a hard look at collaboration. What makes it succeed? Why 
        does it fail? It's a discussion that will set the stage and 
        tone for more hard work to follow.''

    Priority 1: Invest in all-lands/cross-boundary management 
opportunities (all partners):

    A1A: Identify business practice barriers to cross-boundary 
projects. Develop training on state and Federal contracting procedures 
and administration for all partners to improve implementation of cross-
boundary projects. Utilize Service First authorities, which allow 
multiple agencies to partner to share resources, procurement procedures 
and other authorities, and streamline and consolidate agency processes 
with partners. Establish multi-agency pilot projects, which can suggest 
models for subsequent formal agreements.
    A1B: Increase participation of Tribal governments in cross-boundary 
management plans and projects.
    A1C: Expand opportunities to use tools developed in the 2014 Farm 
Bill, such as Good Neighbor Authority (GNA), Stewardship Contracting 
Authority (SCA) and Insect and Disease (I&D) designation authority, in 
forest and rangeland systems on both USFS and Bureau of Land Management 
(BLM) lands.
    A1D: Convene partners to explore the use of new technologies and 
data for collaboration, monitoring and decision-making, including the 
use of state data as outlined in WGA Policy Resolution, Species 
Conservation and the Endangered Species Act. Integrate adaptive 
management approaches, using monitoring data, assessment, and other 
feedback to assess the efficacy of management practices and inform land 
management adjustments.
    A1E: Provide Federal funding to develop detailed state rangeland 
action plans addressing invasive species, wildlife and fish habitat, 
and water quality and quantity as a complement to State Forest Plans. 
These rangeland plans should include resource analyses of soil health, 
water, plants, animals and productive capacities to inform management 
decision-making.
    A1F: Identify opportunities to improve flexibility and integration 
of grazing management and targeted grazing as tools to achieve 
restoration and land management goals, including wildlife habitat 
improvements, drought and wildfire mitigation and resilience, water 
quality and watershed health, soil health management, promotion of 
perennial plant health, and control of invasive species such as 
cheatgrass.
    A1G: Promote grazing allotment flexibility on Federal lands, within 
FWS and BLM permitting systems and across ownership boundaries, to 
respond to changing range conditions and environmental considerations.
    A1H: Expand the use of GNA agreements and other 2014 Farm Bill 
tools to achieve all-lands restoration objectives across Federal, 
state, local government and privately-owned lands. Include the use of 
GNA authority and program income to support additional stewardship 
objectives such as invasive species management and rangeland conifer 
encroachment. Where programmatic agreements are already in place, use 
GNA agreements to address priority restoration needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Rangelands support a wide range of multiple uses, from 
        livestock production and recreation to wildlife habitat and 
        water quality values, across Federal, state and private 
        ownerships.

    A1I: Target funding from USFS, BLM, Natural Resources Conservation 
Service (NRCS) and state sources to address cross-boundary management 
goals (and support monitoring and assessment frameworks) in priority 
areas. Projects using this targeted funding should be consistent with 
State Forest Action Plans, wildlife action plans, community-wildfire 
protection plans and projects in other priority areas determined by 
Federal, state, local and Tribal partners based on the best available 
science.
    A1J: Explore the expanded use of youth, veterans, inmate crews and 
conservation corps to provide cost-effective capacity to support forest 
and rangeland restoration work across various land ownerships.
  Workshop: Missoula, Montana (Sept. 20-21, 2016)
  Keynotes: Steve Bullock, Governor of Montana, and Thomas Tidwell, 
        Chief, U.S. Forest Service
  Summary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          U.S. Forest Service Chief Tom Tidwell expressed optimism 
        about the work of the Initiative in his remarks: ``I have high 
        expectations if we meet these difficult challenges together and 
        focus on the right challenges. The more we trust in that 
        system, the more we can get done.''

          Montana Governor Steve Bullock led off the workshop series 
        for the launch year of the Western Governors' Association's 
        (WGA) National Forest and Rangeland Management Initiative in 
        Missoula, Montana. The meeting started off with a look at the 
        challenges Montana faces in forest management, and focused on 
        the role of collaboratives in facilitating management on U.S. 
        Forest Service (USFS) lands.
          The Governor, in his keynote address, urged attendees: ``Take 
        a hard look at collaboration. What makes it succeed? Why does 
        it fail? How do the Federal land managers embrace it? It's a 
        discussion that will set the stage and tone for more hard work 
        to follow.''
          USFS Chief Tom Tidwell expressed optimism about the 
        collaborative work of the Initiative. ``I have high 
        expectations if we meet these difficult challenges together and 
        focus on the right challenges. The more we trust in that 
        system, the more we can get done.''
          WGA Executive Director Jim Ogsbury summed up the wide-ranging 
        impact of the initiative in his opening remarks: ``Public lands 
        management . . . sounds kind of dry and academic and 
        bureaucratic. But what it connotes is rich and interesting and 
        wildly important. Because when we talk land management, we're 
        talking about nearly every activity taken on western lands.''
          ``The work we do on these issues and the successes we've had 
        are because people with very different ideologies have come 
        together, project by project, and dollar by dollar,'' said 
        Governor Bullock, emphasizing the importance of collaboration. 
        ``Our natural resources are a foundation of our quality of 
        life, and how we manage them must transcend party politics.''

    Priority 2: Provide state leadership to bolster collaboration on 
U.S. Department of Agriculture (USDA) and U.S. Department of the 
Interior (DOI) planning and projects (Western Governors):

    A2A: Working with their state legislatures, Governors could 
encourage funding to support effective collaboratives, collaboration on 
Federal projects, and all-lands initiatives. Financial assistance from 
a variety of sources could be targeted to address key priorities and 
capacity constraints, and contingent on the use of metrics that measure 
performance and project deliverables. Possible opportunities include:

  <bullet> Provide small grants to support collaboration through hiring 
        facilitators, conducting needed planning, data collection and 
        analysis, and incentivizing collaborative efforts to retain 
        effective leadership and participation.

  <bullet> Deliver state funds to targeted Federal projects to augment 
        capacity, expedite project approvals and implementation, and 
        add key state project priorities (including socioeconomic 
        elements) to the Federal program of work.

  <bullet> Support cost-share grants to local governments and local and 
        non-governmental organizations (NGOs) to enable their 
        participation in Federal project planning and implementation 
        through collaborative processes.

    A2B: Support regular meetings convened by collaboratives and 
encourage the development of local principles and best management 
practices for collaboration.
    A2C: Invest in key state and Federal liaison positions with 
decision-making authority to provide better engagement and 
understanding between state forest, wildlife, and rangeland agencies 
and their Federal counterparts (as well as with partners in industry, 
NGOs and academia).
    A2D: Facilitate the participation of local governments in Federal 
decision-making by dedicating staff to develop and provide technical 
assistance and enhance communications across local, Tribal, state and 
Federal partners.
    A2E: Champion and encourage the efforts of state and local 
governments, municipalities, water utilities and corporate partners to 
collaborate on, and co-invest in, forest and rangeland restoration--
including the support of collaborative groups--across ownership 
boundaries in key water supply source watersheds.
  Webinar: Managing Electricity Reliability Risks on Forests and 
        Rangeland
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Vegetation management experts discussed best-practices for 
        maintaining electrical utility rights-of-way for the benefit of 
        multiple resources, including transmission, conservation, 
        grazing, timber, and wildfire mitigation. Moderated by Anne 
        Beard, Manager of Vegetation Management and T&D Asset 
        Management for Public Service Company of New Mexico, the 
        webinar included a robust discussion of vegetation management 
        challenges. Panelists recommended that transmission corridors 
        be viewed as areas of opportunity, and that planning decisions 
        include early engagement with relevant stakeholders. A sample 
        of panelists' comments:

      <bullet> ``We need to stop looking at utility rights-of-way as 
            sacrifice areas, and 
              begin to look at them as areas of opportunity that can be 
            managed for other 
              plant communities to supply habitat for pollinators, 
            small mammals, small 
              lizards, and songbirds, etc. This is because meadow and 
            prairie plant comm-
              unities are lacking and, in some cases, almost extinct in 
            some states.'' 
              Randy Miller, Director, Vegetation Management, 
            PacifiCorp.

      <bullet> ``There is a need for more early engagement with 
            utilities and Federal land 
              managers. Engaging early in the process helps to better 
            develop a coopera-
              tive plan to evaluate the current conditions, identify 
            high risk areas, ad-
              dress those risks, and develop a plan for maintenance of 
            the remainder of 
              the line. Integrated Vegetation Management and greater 
            education about 
              early and frequent communications with land managers is 
            needed.'' Reggie 
              Woodruff, Energy Program Manager, U.S. Forest Service.

      <bullet> ``The Right-of-Way Stewardship Council is really all 
            about trying to promote 
              environmental stewardship, and taking advantage of this 
            area of oppor-
              tunity, in terms of how these millions of acres across 
            the country can be 
              better managed to meet a broad array of societal 
            benefits, including env-
              ironmental benefits.'' Tom Sullivan, Audit Committee 
            Chair, Right-of-
              Way Stewardship Council.

    Priority 3: Promote efforts to support fire-adapted communities, 
reduce fuels and manage wildfire risks, and ensure a coordinated and 
effective wildfire response, coordinating where appropriate with 
parallel efforts such as the National Wildland Fire Cohesive Strategy 
(all partners):

    A3A: Prioritize restoration activities across all ownerships to 
create resilient landscapes in areas facing high wildfire risk, 
significant watershed health issues, wildlife and fish habitat 
degradation, or wildfire-damaged landscapes, including insect and 
disease priority areas designated through the 2014 Farm Bill and areas 
identified in state wildfire risk assessments, state forest action 
plans, and community wildfire protection plans.
    A3B: Improve interagency communication, fire response capability, 
and coordination, including the sharing of firefighting resources. 
Ensure these activities support fire prevention, full suppression 
strategies and management of wildfire for resource benefits. Continue 
to seek opportunities, including revisions to forest plans, to enhance 
safety and reduce costs in suppression decisions while protecting 
communities.
  Workshop: Boise, Idaho (Oct. 20-21, 2016)
  Keynotes: C.L. ``Butch'' Otter, Governor of Idaho, and Jim Lyons, 
        U.S. Department of the Interior
  Summary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Idaho Gov. C.L. ``Butch'' Otter emphasized finding projects 
        of value during his address at the Boise workshop: ``I want you 
        all to discuss all of your ideas for improving land management 
        and let's find those with the greatest value.''

          The second initiative workshop was hosted by Governor C.L. 
        ``Butch'' Otter in Boise, Idaho. The meeting opened with an 
        examination of the many forest and rangeland management issues 
        throughout the state. Idaho has been especially active in the 
        implementation of projects using Good Neighbor Authority, and 
        roundtable discussions examined the state's success in taking 
        advantage of this authority, which allows Federal agencies and 
        the state to enter into cooperative agreements to advance 
        management priorities.
          The Idaho workshop also examined the success of Rangeland 
        Fire Protection Associations (RFPAs), which engage private 
        landowners with Bureau of Land Management wildland fire 
        monitoring and suppression efforts. These collaborative efforts 
        were a centerpiece of Governor Otter's message to attendees. 
        Before 2012, ranchers were not allowed to assist Federal land 
        managers on wildfire suppression activities. The Governor, 
        legislature, and Federal and state fire agencies subsequently 
        created the RFPAs, which have now grown to eight districts with 
        nearly 300 volunteers overseeing more than 7 million acres.
          Governor Otter also emphasized finding projects of value. 
        ``People talk to me all the time about the cost of doing things 
        and I understand cost. But when someone comes to me and 
        explains the value of something, that really gets my interest. 
        I want you all to discuss all of your ideas for improving land 
        management and let's find those with the greatest value.''
          Jim Lyons, then-Deputy Assistant Secretary of Interior for 
        Land and Minerals Management at the Department of the Interior, 
        discussed collaboration's role in blunting the impact of 
        wildfires and invasive species, noting ``these are not public 
        land issues or private land issues; they are resource issues 
        that know no political or administrative boundaries.''

    A3C: Facilitate the expanded use prescribed fire:

  <bullet> Convene state and Federal air quality specialists to 
        identify reforms that reduce barriers to prescribed fire and 
        reduce overall health impacts from smoke.

  <bullet> Encourage interagency use of smoke management best practices 
        and explore ways to build capacity of licensed burn managers.

  <bullet> Examine liability protection for licensed burn managers who 
        execute approved prescribed burns, and address compensation for 
        private property owners negatively affected by escaped 
        prescribed burns.

  <bullet> Identify new tools for evaluating and managing prescribed 
        fire risk in cooperation with Federal, Tribal and local 
        governments.

  <bullet> Engage with state and local prescribed burn associations, 
        established for the responsible use and application of 
        prescribed fire for rangeland management.

    A3D: Incentivize local governments to take voluntary actions to 
support the creation and expansion of fire-adapted communities and 
resilience, including the promotion of education, fuels management 
projects and improved integration of community wildfire protection 
plans with land use decisions when compatible with local goals. Provide 
additional analyses to help communities evaluate the full costs of 
suppression associated with development in the wildland urban interface 
(WUI).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          The benefits of healthy forests and rangelands include the 
        protection of environmental values and the promotion of 
        sustainable economic opportunities.

    Priority 4: Pursue opportunities to further enhance Federal agency 
staff capacity and efficiency in the environmental analysis, review and 
implementation of projects (Federal partners):

    A4A: Further explore the use of strike teams, interagency 
Endangered Species Act (ESA) consultation support, and other modular 
capacity to accelerate restoration in priority areas, including the 
expanded use of existing statutory authorities.
    A4B: Modify employee relocation practices to optimize leadership 
development and longevity. Assure retention of critical capacity for 
restoration after leaders depart through transition planning, including 
promotion of local employees where appropriate.
    A4C: Leverage the use of state, Tribal, and local expertise and 
science in Federal environmental review, consultation and permitting 
requirements. Collaborate with environmental regulators to reduce 
legislative and regulatory barriers to restoration activities.
    A4D: Continue to implement National Environmental Policy Act (NEPA) 
streamlining efforts that promote best practices or procedural 
innovations, including the use of landscape-scale, programmatic, 
adaptive and iterative analyses.
    A4E: Support independent research and analysis from NGO, academic, 
and other partners to inform NEPA and ESA compliance review process 
improvements, including estimates of the time and cost involved for 
different project types. Develop metrics for successful outcomes, 
including cost and time performance indicators.
    A4F: Consider standardized approaches to environmental analysis to 
increase efficiency and reduce time to decision. Ensure agency NEPA 
implementation policy includes comprehensive training and 
accountability for field practitioners.
    A4G: Use information technology to improve the efficiency of NEPA 
and to provide greater transparency and reduce redundant data, analysis 
and business practices. Provide analytical tools for improved analysis 
of potential implications of no-action alternatives.
  Webinar: The Future of Wild Horse and Burro Management: Challenges 
        and Opportunities
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          The conversation focused on the economic and environmental 
        impacts of wild horse and burro overpopulation on western 
        rangelands. During the webinar, moderated by U.S. 
        Representative Chris Stewart, panelists encouraged Federal land 
        managers to take quick, proactive actions to bring herds within 
        Appropriate Management Levels (AML), including the use of new 
        technologies and management practices. A sample of panelists' 
        comments:

      <bullet> ``In Nevada, and across the West, wild horse management 
            is no longer an 
              emergency, it is a disaster. The program is at a breaking 
            point . . . We 
              must gather 100 percent of horses in an HMA (Herd 
            Management Area). 
              Those horses that are to be returned to the range, but be 
            treated with per-
              manent or near permanent fertility control. We cannot 
            continue to round 
              up horses and not curb reproduction. We will be removing 
            1,000 to 1,100 
              horses from this HMA again in a few years if we don't 
            slow reproduction.'' 
              J.J. Goicoechea, Eureka County Commission Chair, Eureka 
            County, 
              Nevada.

      <bullet> ``If we had proper management and the horse populations 
            were within 
              AML, you would have good range, healthy horses, healthy 
            wildlife, healthy 
              livestock, and healthy local economies for these rural 
            communities. This is, 
              and will be, the worst case of inhumane treatment of 
            animals and man-
              made ecological disasters in the history of the West.'' 
            Tammy Pearson, 
              Commissioner, Beaver County, Utah.

      <bullet> ``By 2030, we will have spent over $1 billion on the 
            wild horse problem. We 
              are reaching the point where something has to give: it is 
            becoming more 
              cost prohibitive. One of the problems is that the 
            economic impacts from wild 
              horses is not felt evenly across the country. Your 
            average citizen in an 
              urban setting, and even some other rural counties, 
            doesn't feel the impacts 
              of wild horses.'' Dr. Eric Thacker, Professor of Wildland 
            Resources, 
              Utah State University.

      <bullet> ``The need for proactive management on these western 
            rangelands cannot 
              be stated strongly enough. The fact that we typically 
            have five to, at best, 
              15" of annual precipitation makes it critical that we do 
            proactive manage-
              ment and not let rangelands get degraded, because once 
            they pass a thresh-
              old, they cannot be reclaimed.'' Callie Hendrickson, 
            Executive Director, 
              White River & Douglas Creek Conservation Districts in Rio 
            Blanco 
              County, Colorado

      <bullet> ``This is a call to action. Let's get the Congress 
            educated, and let's overcome 
              our fear of the politics of this and have a clear mandate 
            to the BLM (Bu-
              reau of Land Management) to follow the law. They've got 
            the tools they 
              need right now to do what needs to be done, but they are 
            intimidated by 
              the politics of the national activists.'' Kathleen 
            Clarke, Director of Utah 
              Public Lands Coordinating Office.

    Priority 5: Take coordinated state and Federal action to expand 
markets for forest products and diversified rangeland goods and 
services that can support forest and rangeland restoration objectives 
(all partners):

    A5A: Expand opportunities for existing USDA Rural Development, U.S. 
Economic Development Administration (EDA) and Small Business 
Administration (SBA) programs and financing to support wood product 
business development and infrastructure.
    A5B: Encourage collaboration between USFS Research and Development, 
State and Private Forestry, and National Forest System capacities that 
support existing and emerging wood products technologies, including the 
work of the National Forest Products Laboratory, with the goal of 
expanding markets to maximize restoration activity. Encourage 
appropriate research, development and deployment focused on 
commercially-ready technologies with high potential to contribute to 
current and emerging restoration objectives. Better align these 
capacities with the contributions of states and industry partners, and 
actively pursue public-private partnerships to advance market growth, 
with the goal of providing sustainable economic development 
opportunities for rural communities.
    A5C: Western Governors should identify initiatives to support 
markets that can achieve restoration goals and foster near-term 
opportunities for economic development in rural communities. 
Opportunities include:

  <bullet> Advancing the use of mass timber (such as cross-laminated 
        timber) in construction of taller buildings and community 
        facilities through research, demonstration projects, and 
        revisions to national, state and local building codes.

  <bullet> Expanding utilization of low-value woody biomass for 
        thermal, electric and liquid-fuel energy. Engage rural electric 
        cooperatives, public utilities, community facility managers and 
        other partners in the research, testing and deployment of new 
        and modified heat and electric generation projects and liquid-
        fuel facilities from hazardous fuels reduction, conifer removal 
        and other forest and rangeland restoration efforts.

  <bullet> Exploring opportunities to support new and diversified 
        rangeland products, markets and processing infrastructure, such 
        as mobile meat processing, renewable energy production (wind 
        and solar), local and regional food hubs, and recreation.

    A5D: The Federal Government should negotiate a fair and equitable 
U.S.-Canada Softwood Lumber Agreement as an element of maintaining and 
strengthening domestic markets for wood products.
Legislative Recommendations
    Legislative action must address chronic capacity constraints and 
develop and expand additional authorities that build on past progress. 
One of the most significant steps Congress can take to increase the 
scale and pace of restoration activities is to comprehensively address 
Federal agency budgeting. The decline of Federal staff and resources 
for land management, in large part due to the shifting of funds to pay 
for the increasing cost of wildfire suppression, must be resolved in 
order to meet the challenges facing Federal agencies. The 2014 Farm 
Bill made real progress in elevating an implementation role for states 
in Federal land management by providing new statutory tools, and 
permanently authorizing and expanding other authorities with the goal 
of accelerating forest and rangeland restoration. Further action and 
improvements are needed in the 2018 Farm Bill or other Federal 
legislation, with particular focus on actions to achieve landscape-
scale restoration objectives.

    Priority 1: Reform Federal fire funding management procedures:

    L1A: Provide a comprehensive fix for the two challenges posed by 
the present wildland fire budget approach: (1) the cost of fire 
suppression (10 year average) as a share of the agencies' budgets 
continues to increase, as budgets remain relatively flat; and (2) the 
need to transfer funds from non-fire to fire accounts mid-season when 
budgeted funds are insufficient.
    L1B: Address the associated impacts of wildfire funding on Federal 
natural resource management capacity, planning and project 
implementation. Ensure budget actions continue to support state 
wildfire and forestry capacity, including the USFS State and Private 
Forestry programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          The cost of fire suppression continues to increase, as 
        budgets remain relatively flat, which results in the need to 
        transfer funds from non-fire to fire accounts when budgeted 
        funds are insufficient.

    Priority 2: 2014 Farm Bill modifications:

    L2A: Permanently authorize the Insect and Disease designation 
provisions of section 602 of the 2014 Farm Bill and eliminate project 
constraints from section 603 for condition class or fire regimes 
outside of the WUI.
    L2B: Increase flexibility in the GNA program on road construction/
reconstruction and create flexibility in allocations of program income 
to support better prioritization of GNA projects across larger 
geographies.
    L2C: Authorize the use of stewardship and GNA funds for recreation 
improvements and forest and rangeland restoration planning and 
implementation activities.
    L2D: Consider extending the length of stewardship or timber 
contracts up to 20 years, or allowing for periodic review and extension 
of contacts to provide economic certainty to restoration industry 
partners and address related cancellation ceiling constraints. Allow 
for a portion (up to five percent) of retained receipts from 
stewardship contracting to be used for subsequent project planning and 
analysis.
  Workshop: Deadwood, South Dakota (Dec. 1-2, 2016)
  Keynote: Dennis Daugaard, Governor of South Dakota
  Summary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          ``We don't want to use this workshop to just clap each other 
        on the back,'' Gov. Dennis Daugaard said at the Deadwood 
        workshop. ``We want to use this to think about how to do things 
        better.''

          South Dakota was the scene of the third National Forest and 
        Rangeland Management Initiative workshop, hosted by Governor 
        Dennis Daugaard in Deadwood. The Governor encouraged practical 
        solutions to land management challenges. ``I'm so glad to see 
        so much expertise here. But we don't want to use this workshop 
        to just clap each other on the back. We want to use this to 
        think about how to do things better.''
          The Governor pointed out that the City of Deadwood earned its 
        name from a pine beetle infestation back in the 1800s, and 
        insect depredation is still a significant challenge. The worst 
        beetle outbreak in the state's history has taken place in 
        recent years, but collaborative efforts with the USFS have had 
        a successful effect in blunting the current invasion.
          The Black Hills has been one of the most actively managed 
        areas in the U.S., and provides excellent examples of how 
        timber operations, the use of prescribed fire, and livestock 
        grazing can contribute to the health and resilience of forest 
        and rangeland systems.
          ``Proper land management is critical,'' said Governor 
        Daugaard. ``It helps control fire danger and supports economic 
        growth and tourism. The Black Hills have been a great success 
        story for active management. Despite vibrant timbering, it is 
        still a beautiful forest, attractive to recreationalists. And 
        this has worked because of the great relationships developed 
        over time between the state and USFS.''

    L2E: Fully fund conservation title programs such as Environmental 
Quality Incentives Program (EQIP), Conservation Technical Assistance 
(CTA), Conservation Stewardship Program (CSP), Conservation Reserve 
Program (CRP), Agricultural Conservation Easement Program (ACEP), and 
the Regional Conservation Partnership Program (RCPP), that provide 
technical and financial assistance for forest and rangeland management 
in partnership with private landowners. Take steps to provide greater 
flexibility in the deployment of these programs to achieve restoration 
objectives.

    Priority 3: Update the Federal legislative framework to bolster and 
clarify the appropriate use of NEPA tools, support collaborative 
efforts and provide additional flexibility in the development and 
execution of restoration projects:

    L3A: Create a new pilot program to prioritize landscape-scale, 
streamlined environmental analysis for restoration projects envisioned 
over geographies greater than 100,000 acres (using either environmental 
assessments or environmental impact statements, depending on context 
and size of the project) in landscapes with demonstrated ecological and 
economic need and effective existing collaboration among diverse 
stakeholders. The analysis should be sufficient to allow for project-
scale implementation and adaptive management, and should include the 
following elements:

  <bullet> Site descriptions or land allocations that identify 
        locations within the landscape in which specific restoration or 
        maintenance treatments can be used appropriately;

  <bullet> Standards and guidelines consistent with the appropriate 
        forest plan and project-level design criteria for projects;

  <bullet> Identification of the cumulative impacts of the project; and

  <bullet> Provisions allowing for the implementation of project-level 
        actions barring the introduction of new information or 
        unforeseen circumstances.

    Congress should consider creating a limited and short-term 
categorical exclusion (CE) under NEPA available to expedite work in 
these pilot landscapes while environmental analyses are being 
developed, available for use at the agency's discretion provided the 
analyses achieve defined progress milestones.
  Webinar: Rangeland Management Strategies and Tools: Promoting 
        Resiliency and Addressing Invasive Species
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          A panel of rangeland ecologists and researchers discussed 
        emerging technologies that increase the resilience of western 
        rangeland plant communities to invasive weeds. Panelists 
        emphasized that, as new species appear and range use patterns 
        change, land managers must remain adaptable, experimental, and 
        innovative. The panel was moderated by Jeremy Maestas, 
        Sagebrush Ecosystem Specialist with the U.S. Department of 
        Agriculture's Natural Resources Conservation Service. A sample 
        of panelists' comments:

      <bullet> ``I think it's really important that we take to heart, 
            not just in words but 
              in actions, that it's not the year 1850 anymore. We have 
            a fundamentally 
              different disturbance ecology that's present within the 
            annual grass zone. 
              We are going to have to think outside the traditional box 
            and embrace that 
              new ecology if we are going to be able to maintain 
            resilient landscapes.'' 
              Chad Boyd, Rangeland Ecologist, Research Leader, Burns, 
            Ore., Ag-
              ricultural Research Service

      <bullet> ``Our strategic approach to weed and rangeland 
            management in Wyoming 
              is to try to do the right thing, at the right place, at 
            the right time. It's not 
              as easy as going out and killing some weeds; it's about 
            understanding what 
              the situation is, and knowing about how the species that 
            you're dealing 
              with fits into that situation. It's important to find 
            leverage points that are 
              driven by ecological understanding, and to find where we 
            can put a small 
              amount of effort and have a large amount of result.'' 
            Brian Mealor, Direc-
              tor, University of Wyoming's Sheridan Research and 
            Extension Cen-
              ter

      <bullet> ``If our choice is to spend a lot of money and fail 
            repeatedly with native 
              seeds or be successful with exotic seeds and establish an 
            exotic 
              monoculture, that's a tough choice in terms of 
            conservation values in the 
              long run. I don't think we're going to get all the 
            societal outcomes [we're] 
              looking for if we don't find some other solutions and new 
            routes to establish 
              native plant communities.'' Jay Kerby, Southeast Oregon 
            Project Man-
              ager, The Nature Conservancy

    L3B: Congress should direct Federal agencies to build consistency 
in environmental analysis and bring agency practice in conducting EAs 
more in line with the administrative policy intent of streamlined, 
summary documents. Agency guidance should clarify significance 
thresholds and Extraordinary Circumstances language for NEPA based on 
best practices and provide, where possible, consistent approaches to 
interpreting these NEPA requirements when agencies and the courts have 
had conflicting interpretations.
    L3C: Develop a new NEPA restoration CE that is based on decisions 
documented in a Decision Notice and Finding of No Significant Impact 
over the past 5 years where no significant impacts to the environment 
occurred. Project activities could include commercial and noncommercial 
timber harvest, hazardous fuels removal projects, prescribed burning, 
post-fire restoration and herbicide use. The CE should use the best 
available science, rely on collaboration, and have environmental 
safeguards for consistency with appropriate management plans and 
existing law and policy. In designing the CE, Congress should rely on 
agency analysis of past decisions.
    L3D: Allow Federal agencies to analyze only the action and no-
action alternatives when a project is collaboratively developed, unless 
a third alternative is proposed during the scoping and meets the 
purpose and need of the project.
    L3E: Reward successful implementation of collaborative projects 
through increased funding, retained-receipt authority, or other 
capacity to pursue subsequent projects.
    L3F: Resolve outstanding issues with potential requirements to 
reinitiate endangered species consultations following the adoption, 
amendment or revision of an appropriate management plan.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Nearly 400 attendees from across a wide spectrum took part in 
        the regional workshops held in Montana, Idaho, South Dakota and 
        Oregon.

    Priority 4: Strengthen and expand high impact programs:

    L4A: Codify and fund the USFS State and Private Landscape Scale 
Restoration Competitive Grant program to prioritize work consistent 
with state forestry goals and action plans.
    L4B: Allow for investment of a portion of hazardous fuels funding 
on state and private lands commensurate with program funding increases 
for National Forest System lands.
    L4C: Pass legislation to promote forest and rangeland product 
markets and technologies, and expand funding for the Community Wood 
Energy Program. Use program funds to create and incentivize state, 
Federal and Tribal partnerships in support of these objectives.
    L4D: Pass legislation, such as the 21st Century Conservation 
Service Corps Act, to make it easier for young people and veterans to 
complete quality, cost-effective maintenance and improvement projects 
on public and Tribal lands and waters across the country. These 
programs could address the backlogged maintenance needs of land and 
water management agencies; enhance outdoor recreation opportunities; 
improve the accessibility of public lands; and respond to wildfires and 
other natural disasters.
    L4E: Codify and direct funding for the Joint Chiefs Landscape 
Restoration Program to facilitate continued partnership and investment 
between USFS and NRCS to support restoration projects where Federal and 
private land ownership and management goals intersect.
Implementation and Next Steps
    As the Initiative enters its second year, Western Governors will be 
primarily focused on the implementation of these recommendations, 
within their own states, collaboratively through WGA and in legislation 
being considered by the U.S. Congress. Several matters were raised over 
the past year that deserve additional attention, but time constraints 
or subject complexity prevented a thorough consideration of these 
issues. WGA intends to continue the conversation on these matters and 
other emerging items with the goal of providing concrete 
recommendations in these areas as well.
Litigation/Alternative Dispute Resolution (ADR)
    Although litigation over Federal forest management decisions has 
declined considerably over the past 2 decades, lawsuits can still 
frustrate forest collaborative efforts and have a ripple effect on 
broader Federal practices and policy. The topic of litigation and its 
potential alternatives is both complex and controversial. There are no 
easy or simple answers, but it is necessary to explore whether better 
procedures and outcomes can be achieved.
    During the past year, Western Governors heard from workshop 
participants about issues associated with litigation. This feedback led 
to a WGA-sponsored webinar that explored the present and future role of 
forest litigation, potential alternatives to traditional adjudication 
in Federal courts, and other alternatives that might expedite review or 
allow for a certain set of projects to proceed while claims are 
considered. A broad spectrum of conservation and timber industry 
representatives, public officials, and other interested parties 
participated in the webinar.
    The webinar panel explored Alternative Dispute Resolution (ADR) as 
a means of resolving forest management disagreements. The most 
frequently cited alternative to litigation was arbitration. Engaging an 
arbitrator--instead of a Federal judge--to adjudicate claims is 
appealing to industry and conservation interests. As there are 
different systems of arbitration (and widespread dissatisfaction with 
the current system), a more thorough examination of arbitration as an 
alternative to litigation is warranted.
  Workshop: Bend, Oregon (Jan. 23-24, 2017)
  Keynotes: Kate Brown, Governor of Oregon, and Leslie Weldon, Deputy 
        Chief, U.S. Forest Service
  Summary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Governor Kate Brown noted during her opening remarks at the 
        Bend workshop that ``In Oregon, we continue to pursue 
        strategies to accelerate the pace, scale, and quality of 
        restoration of our Federal forests.''

          Governor Kate Brown hosted the fourth workshop of the 
        National Forest and Rangeland Management Initiative in Bend, 
        Oregon. The meeting highlighted collaboration's role in 
        creating economic opportunities, fostering robust rural 
        economies, and preserving natural resources.
          ``We know we accomplish more working together. We have 
        benefited tremendously from this collaboration in Oregon,'' 
        Governor Brown observed in her opening remarks.
          ``I am focused on creating jobs in our timber and rural 
        communities,'' she continued. ``In Oregon, we continue to 
        pursue strategies to accelerate the pace, scale, and quality of 
        restoration of our Federal forests.''
          Governor Brown noted, as an example, that in 2006, the timber 
        sale program on the Malheur National Forest was effectively 
        zero. Disagreements over forest management were grinding 
        restoration activities to a halt. The formation of the Blue 
        Mountain Forest Partners collaborative has resulted in the 
        reinstatement of active management. That has led to a 200 
        percent increase in home sales in the area, as well as school 
        enrollment increases and a decrease in unemployment.
          USFS Deputy Chief Leslie Weldon commended the work of the 
        initiative, noting that the workshops ``are really helping us 
        chart a strong path for shared stewardship with the states, 
        with Federal land managers, and Tribes, and communities.''
          Deputy Chief Weldon encouraged initiative participants to 
        ``not be limited by conventional thinking'' in looking for 
        innovative solutions to the threats facing forests and 
        rangelands in the West. ``Our challenges are great,'' Governor 
        Brown observed, ``but I am confident our resolve is greater.''

    Most current litigation on behalf of environmental organizations is 
concentrated in the Northern Rockies region. Some participants 
expressed concern that Congress could change the current system for 
everyone to address the actions of a few. Others emphasized the 
importance of retaining the ability to challenge government actions due 
to substantive or procedural violations of law, and expressed 
reservations that ADR could be implemented in a way that safeguards 
these principles. It was also suggested that a limited-scale ADR pilot 
program could provide valuable insights on the feasibility of different 
ADR approaches.
    Despite a variety of views on the merits and efficacy of ADR, many 
agree that plaintiffs should have an appropriate venue in which to air 
opposition to, or grievances over, forest and rangeland projects. At 
the same time, litigation intended to stall or halt collaboratively 
developed projects--without consideration of a project's merits, 
quality, or the collaborative process used in project design and 
decisionmaking--undermines the objectives of all parties and fosters 
disincentives for achieving restoration and management objectives.
    Western Governors see a need for further dialogue to determine 
recommendations that can help resolve chronic litigation challenges, 
while allowing for the appropriate adjudication of claims. Strategies 
should explore the full range of ADR tools, potential variations in the 
timing and scope of these tools in project development and decisions, 
and other strategies that can be deployed administratively or 
legislatively to significantly reduce litigation delays and risks 
beyond the use of ADR. Western Governors look forward to pursuing 
options and recommendations further in year 2 of the initiative in 
consultation with Federal agencies and interested stakeholders.
Pacific Islands Management Challenges
    The flora and fauna of the State of Hawaii and U.S. territories in 
the Pacific Ocean differ markedly from in the continental U.S. Many of 
the land management challenges faced by the Pacific Islands are 
instantly familiar to any continental state forester or Federal land 
manager. These include:

  <bullet> water quantity and quality;

  <bullet> invasive species;

  <bullet> insect and disease control;

  <bullet> changing climate;

  <bullet> wildfire and public safety; and

  <bullet> watershed function.

    WGA will examine the challenges faced by the Pacific Islands and 
develop a strategy for these areas that can be integrated into the 
broader WGA National Forest and Rangeland Management Initiative. WGA 
plans to convene a Pacific Islands workshop or webinar (or combination) 
to explore the land management challenges in the State of Hawaii and 
the Pacific territories, including island challenges identified in 
their forest action plans. WGA will also examine how individual islands 
collaborate with Federal agencies to accomplish restoration and seek 
information on the level of engagement of non-Federal entities in the 
execution of restoration activities.
    Finally, WGA will explore additional opportunities for partnerships 
to advance collective priorities and needed restoration actions in 
Hawaii and the U.S. territories.
Tribal Practices and Additional Collaboration Opportunities
    Tribal lands and Tribal traditional ecological knowledge (TEK) are 
an important component of forest and rangeland management in the West. 
In the U.S., more than 55 million acres of land are held in trust by 
the Federal Government for various Native American Tribes and 
individuals. The vast majority of these lands are located in western 
states and are owned and managed by the 567 federally recognized 
American Indian Tribes and Alaska Natives. The Federal Bureau of Indian 
Affairs (BIA) is responsible for the administration and management of 
the surface land and 57 million acres of subsurface minerals estates 
held in trust for Native American and Alaska Natives.
    Tribes possess nationhood status and retain inherent powers of 
self-government, and states have no authority over Tribal governments 
unless expressly authorized by Congress. The relationship between 
Tribes and states is that of one sovereign government to another. 
States and Tribes frequently collaborate and cooperate through compacts 
or other agreements on matters of mutual concern (such as environmental 
protection and law enforcement).
    The Tribal Forest Protection Act (P.L. 108-278) does allow the 
Secretaries of Agriculture and Interior to give special consideration 
to tribally-proposed SCA or other projects on Federal lands to protect 
the Indian trust resources from fire, disease, or other threats. It is 
clear, however, that there are additional opportunities for 
collaboration with Tribes. For example, the integration of Tribal lands 
into cross-boundary land management discussions has proven to be of 
great benefit in many instances. While some aspects of Tribal 
involvement were discussed at the initiative workshops, opportunities 
to include Tribes in the planning and execution of restoration 
activities should be examined further. In the coming year, WGA plans to 
convene a western Tribal forest and rangeland restoration workshop or 
webinar to explore increased collaboration opportunities to achieve 
mutual Tribal and state land management objectives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          U.S. Forest Service Deputy Chief Leslie Weldon commended the 
        work of the Initiative at the Bend workshop, noting that 
        participants ``are really helping us chart a strong path for 
        shared stewardship with the states, with Federal land managers, 
        and Tribes, and communities.''
  Webinar: Land Management Conflict: Current Litigation and the Future 
        of Alternative Dispute Resolution
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Citizen-suits, collaboration, and alternative dispute 
        resolution (ADR) was the focus of the conversation. Moderated 
        by David Dreier, President of Foresight LLC, a diverse panel 
        discussed how collaboratives can be structured to avoid 
        lawsuits, when ADR is appropriate, and how an equitable outcome 
        can be reached when litigation does occur. A sample of 
        panelists' comments:

      <bullet> ``If you were to ask anybody, `Has litigation been a 
            benefit to the whole 
              process?' I think an objective answer would be, `No.' 
            Today, we are re-liti-
              gating the same issues under fundamental laws that we 
            have litigated for 
              several decades. The courts are not a good place to 
            resolve what are the 
              fundamental questions here, and we have to seek 
            alternative venues.'' Jim 
              Riley, Principal, Riley and Associates.

      <bullet> ``20 years ago, or 30 years ago, litigation over forest 
            planning and sales was 
              really hammering out big questions about what was the 
            Forest Service's 
              duty to implement forest plans that manage for multiple 
            purposes. Many 
              of those big overarching questions have been worked out 
            through that envi-
              ronmental litigation. Trout Unlimited believes that a 
            sort of sale-by-sale 
              litigation strategy looks in the rearview mirror, as 
            opposed to a strategy 
              that really moves forward National Forest management in a 
            way that's 
              helpful for both wildlife species and rural 
            communities.'' Laura Ziemer, 
              Senior Counsel and Water Policy Advisor, Trout Unlimited.

      <bullet> ``The Forest Service is very open to any idea that 
            fosters a mechanism that 
              allows us to collaborate and engage with people more 
            effectively than the 
              set of tools we have right now. Any process that we can 
            use to help us focus 
              more on working closer with people, getting the project 
            right, getting wider 
              support for the actions we are going to do, as opposed to 
            the more process-
              oriented pieces that focus on preparing for what may 
            occur during litiga-
              tion, is very helpful to the agency.'' Chris French, 
            Director, Ecosystem 
              Management Coordination, U.S. Forest Service.

      <bullet> ``People want to be part of success. They want to be 
            part of solving problems 
              locally, of having their own local flair be part of how 
            local lands are man-
              aged. You want to incentivize working together and coming 
            up with projects 
              that are durable and can get implemented. That is really 
            where the future 
              of land management lies, but I don't think that it is a 
            silver bullet. You 
              can't force people to collaborate, so there has to be a 
            way for them to con-
              tinue to engage. These are public lands. If they feel 
            that laws have been 
              violated, substantive and procedural, they should have 
            their day in court.'' 
              Susan Jane Brown, Wildlands Program Director and Staff 
            Attorney, 
              Western Environmental Law Center.
Enhanced Tracking and Performance Metrics
    WGA plans to pursue emerging ideas to better track and measure 
impacts of forest and rangeland restoration in collaboration with 
Federal agencies, academic partners and Congress. Improved tracking and 
metrics are needed to chart progress, better understand the 
ramifications of inaction, and assist in prioritizing future work. 
Preliminary recommendations include:

  <bullet> Examine the creation of a Federal Forest and Rangeland 
        Planning and Project Dashboard to enable periodic and real-time 
        monitoring of Federal project planning and implementation, 
        including improved measures of restoration outcomes. As a part 
        of this, explore the opportunity for a pilot project to develop 
        a collaborative online geographic information system (GIS).

  <bullet> Research and establish common interagency metrics to better 
        assess the economic, social and ecological value of forest and 
        rangeland restoration activities, including avoided costs of 
        catastrophic wildfire, and economic impacts to other linked 
        sectors (such as the livestock, timber, water supply and 
        outdoor recreation industries). Develop recommendations on how 
        these metrics of the economic value of restoration can be 
        better incorporated into decision-making. Research and 
        establish common interagency metrics of large-scale community 
        wildfire resilience to track progress across multiple projects 
        and resilience strategies.

  <bullet> Integrate rangeland assessment metrics (soil, water, plants, 
        animals, productive capacity) to create a rangeland 
        sustainability report that addresses ecological, economic and 
        social impacts of restoration activities. Use these metrics to 
        identify and prioritize restoration activities on rangelands.
Case Studies
Montana
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          The Custer Gallatin National Forest, Montana.

    Montana has initiated a multi-faceted strategy called Forests in 
Focus to accelerate forest and rangeland restoration across all land 
ownerships and reinforce the positive benefits of state engagement in 
Federal land management. Through the strategy, the state has built 
capacity and advanced priority projects through a variety of 
strategies, such as:

  <bullet> Chessman Reservoir Stewardship Project: Designed to help 
        protect the Helena water supply, this 490 acre project on the 
        Helena-Lewis and Clark National Forest was administered by the 
        Montana Department of Natural Resources (DNRC). Completed in 
        late 2016, this project reduced hazardous fuels on 
        approximately 500 acres of dead and dying forests adjacent to 
        the reservoir. The project involved difficult hand thinning and 
        fuel removal along the length of the water conveyance flume. 
        About 4 million board feet of wood products were also generated 
        by the project, helping to underwrite the cost of the fuel 
        reduction treatments.

  <bullet> Investing in Coordination and Implementation of Federal 
        Forest Restoration: Montana created a Federal Forest Liaison 
        position in 2014. Doing so has proven instrumental in providing 
        clear communication and coordination to support state 
        investments in priority Federal projects, advance new tools 
        under the 2014 Farm Bill, and ensure state equities are 
        reflected in forest plan revisions.

    Montana has also invested over $2 million of state funds in 27 USFS 
forest restoration projects, which will help bring them online more 
quickly. All told, the investments are expected to treat approximately 
285,000 acres and produce 165 million board feet of timber. The 
efficacy of DNRC investment is being analyzed to form the basis for 
future investments of state funds in Federal forest projects.

  <bullet> Direct Investment in State, Tribal and Private Forest 
        Projects: Since 2014, Montana has invested $5.5 million in more 
        than 34 projects on state, Tribal, and private forest lands. 
        The majority of these projects have been implemented, 
        completing forest restoration and fuel reduction on 
        approximately 10,000 acres, and producing 22 million board feet 
        and 71,000 tons of pulp logs.

  <bullet> Assistance to Local Governments: Through the DNRC Local 
        Government Forest Advisor, Montana has helped bring county 
        commissioners and USFS leadership together to improve dialogue 
        and coordination on Federal forest planning and management. 
        Montana has provided financial assistance to counties to help 
        pay for travel, analysis, and facilitate their efforts to 
        engage with their Federal counterparts. In the fall of 2016, 
        DNRC helped plan and host the first annual ``County Forest 
        Summit,'' which facilitated dialogue between Federal and state 
        officials around forest management issues. DNRC is also 
        planning to provide financial and technical assistance to four 
        Montana counties as they intervene in court on priority USFS 
        projects that are under litigation.

    Good Neighbor Authority (GNA): GNA allows states to enter into 
cooperative agreements with certain Federal agencies and permits them 
to perform various land management activities on Federal lands. Montana 
signed a Master Good Neighbor Agreement in July 2016, and completed the 
pilot Jumping Creek Campground GNA project soon after. Analysis has 
started for the Pintlar-Prison GNA Project on the Beaverhead-Deerlodge 
National Forest and adjacent lands owned by the Montana Department of 
Corrections and private landowners. Two other GNA projects on the Lolo 
and Kootenai National Forests are in the planning stages as well. A 
master GNA Agreement with the Bureau of Land Management (BLM) has been 
finalized and is awaiting signature; several GNA projects are 
anticipated to be initiated between DNRC and the BLM in 2017.
    Collaboration: The DNRC Federal Forest Liaison and Local Government 
Forest Advisor have been active in several forest collaborative groups 
around the state, and helped form the Montana Forest Collaboration 
Network in late 2016.
Idaho
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Sawtooth Valley, Idaho.

    Idaho has been recognized as a state leader in the use of GNA and 
is using the authority to achieve a number of different restoration 
objectives.
    GNA Statewide Master Agreement: The state has already established a 
GNA Statewide Master Agreement between the Idaho Department of Lands 
(IDL) and Regions 1 and 4 of the USFS. It has also entered into a 5 
year agreement with three forest products industry cooperators, who 
have committed to providing up to $1 million over 5 years to cover 
partial startup costs for GNA projects. Additionally, IDL has entered 
into a 3 year contract with five environmental firms to support NEPA 
through the state's GNA agreements. This contract allows the 
environmental firms to supplement the individual forests' NEPA teams as 
needed, or complete the full analysis from start to finish on any 
National Forest that the state has a GNA agreement with.
    Supplemental Project Agreements: Supplemental Project Agreements 
(SPAs) have been developed and signed on the Nez Perce-Clearwater, 
Payette, and Idaho Panhandle National Forests. The SPAs authorize and 
describe how IDL will implement GNA forest restoration projects on 
those National Forests. Successes include:

  <bullet> The first GNA timber sale (Wapiti timber sale) on the Nez 
        Perce-Clearwater National Forests, which is expected to 
        generate approximately 4.5 million board feet and $1.2 million 
        in net program income for Idaho GNA.

  <bullet> Field work for the Lost Creek Boulder Creek and Brundage 
        Vegetation Management Projects. On Lost Creek Boulder Creek, 
        approximately 150 acres have been designated for harvest, and 
        on Brundage, 180 acres with 14 treatment units have been 
        identified for treatment.

  <bullet> Reconnaissance work on the 3,000 acre Hanna Flats project, a 
        thinning and fuel reduction project, has started near Priest 
        Lake on the Idaho Panhandle National Forest. The field 
        reconnaissance work provided the basis to begin the 
        collaborative conversation with the public for a proposed 
        action within the NEPA process.
South Dakota
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Black Hills Forest, South Dakota.

    South Dakota's effort to address Mountain Pine Beetle (MPB) 
infestation is an excellent example of successful cross-boundary 
management:
    Black Hills Forest Initiative: Governor Dennis Daugaard led a Black 
Hills Forest Initiative focused on state and private lands as a part of 
the overall MPB effort, and later expanded to Federal lands. The state 
legislature supplied almost $11 million over several years to complete 
work on priority landscapes across private, state and Federal lands. In 
addition, two Landscape Scale Restoration grants provided by USFS State 
and Private Forestry over 3 years added another $600,000 to the MPB 
suppression effort.
    Since 2011, this initiative has resulted in the survey of 278,149 
acres of state and private land and the completion of 4,807 acres in 
Black Hills National Forest timber sales, identifying 672,000 infested 
trees and the treatment of 557,000 trees.
    County Mountain Pine Beetle Initiative: Supported by state and 
county funds, the County Mountain Pine Beetle Initiative identified 
over 121,000 infested and dead trees in four key counties, and by the 
end of 2015 had treated more than 84,000 of those trees. The result of 
these concentrated efforts, coupled with 1.4 million infested trees 
harvested by the local forest products industry, has achieved a 
dramatic reduction in the amount of MPB-caused pine mortality in the 
Black Hills.
Oregon
    The Federal Forest Restoration Program has been instrumental in 
accelerating the pace, scale and quality of restoration projects in 
Oregon. About ten percent of program funds have been awarded as grants 
to local collaborative groups to procure facilitation services and 
technical assistance to reach agreements for landscape scale projects.

  <bullet> One example of success is the Blue Mountain Forest Partners, 
        which switched from a project-by-project approach to an issues-
        based approach to collaboration. This has allowed the group to 
        expand their agreements to keep up with the accelerated pace of 
        restoration. Since 2013, the Malheur National Forest has 
        tripled its timber output and expanded the boundary of the 
        Southern Blues CFLR project area by 300,000 acres. The state 
        has used its own funds to assist the USFS with data collection 
        to reduce NEPA timeframes. The state has also used firefighting 
        staff on the shoulder seasons to assist with pre-sale layout on 
        54 timber sales statewide to increase the pace of treatment 
        implementation. On the Willamette National Forest, the state is 
        estimated to have completed 55 percent of all pre-sale layout 
        in the fiscal year and helped the forest exceed its timber 
        target.

  <bullet> Another notable success is the Blue Mountains Cohesive 
        Strategy Pilot Project, which is located on 7.5 million acres 
        of mixed land ownership in northeastern Oregon, southeastern 
        Washington and western Idaho. Federal Records of Decision were 
        signed on 137,487 acres of collaborative projects within the 
        Blue Mountains region from 2012-2014, with planning work 
        proceeding on an additional 465,356 acres. In addition to 
        treatments on both Federal and private lands, the Oregon 
        Department of Forestry and Department of Fish and Wildlife 
        (ODFW) partnered to implement a timber sale on a property owned 
        and managed by ODFW.
Wyoming
    Wyoming Governor Matt Mead established a Task Force on Forests in 
2013. The group was charged with examining all forests in the state, 
regardless of jurisdiction, and providing recommendations to assess and 
address the challenges affecting forest conditions and management. The 
final report includes 12 major recommendations and 53 
subrecommendations for the Governor's consideration. The task force's 
efforts have served as a blueprint for improving forest management 
practices throughout the state.
New Mexico
    The Watershed Restoration Initiative, started by New Mexico 
Governor Susana Martinez in 2014, has enabled implementation of forest 
restoration projects designed to improve and protect water quality. 
Approximately $12.2 million in state funds and an additional $9.475 
million of matching Federal funds have been committed to carry out 
initiative work. The state and its partners have undertaken 50 separate 
projects covering 27,263 acres in 14 watersheds identified as high 
priority in the New Mexico Forest Action Plan.
    One notable success has been the Mescalero Apache Tribe Watershed 
Restoration Project. The project targeted three watersheds listed as 
high priority by New Mexico State Forestry, as part of a statewide 
assessment that looked at watershed areas that are considered at-risk. 
The project was completed ahead of schedule due, in large part, to the 
collaboration of the state and the Tribe. The restoration work reduced 
tree density throughout the watersheds, promoting forest resiliency, 
benefiting overall forest health and lowering the threat of 
uncharacteristic wildfire. This will not only improve the watersheds on 
Mescalero Tribal land, but extend protection to water resources and 
communities downstream within the Tularosa Basin.
Colorado
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Firefighters on the 2002 Hayman Fire, whose long-term impacts 
        dramatically affected water quality and supply for the Front 
        Range of Colorado.

    Soil health impacts from uncharacteristic catastrophic wildfires 
along Colorado's Front Range, including the 1996 Buffalo Creek and 2002 
Hayman wildfires, have led to severe erosion and sediment accumulation 
in reservoirs supplying drinking water for the greater Denver area.
    From Forests to Faucets is a partnership between the Colorado State 
Forest Service, USFS, the Natural Resources Conservation Service, and 
the Denver Water Department. The partnership began in 2010 with the 
goal of restoring forests affected by wildfire and mitigating wildfire 
risk in critical watersheds to reduce future water quality impacts. To 
date, more than 40,000 acres of National Forest System (NFS) lands have 
been treated for fire mitigation and restoration.
    In February 2017, the partnership was renewed until 2021 and $33 
million pledged to complete projects across NFS and private lands in 
support of watershed protection for Denver's water supply.
California
    Governor Jerry Brown established the Tree Mortality Task Force 
(TMTF) to address the effects of bark beetle infestation and prolonged 
drought. The TMTF includes state and Federal agencies, local 
governments, utilities and various stakeholders working cooperatively 
to coordinate emergency protective actions and monitor on-the-ground 
conditions.
    The state estimates that since 2010, more than 100 million trees 
have succumbed to the stress of beetle infestation or drought. Of 
California's 32 million acres of forestland, over 6 million acres have 
been classified as either Tier I or Tier II High Hazard Zones. The TMTF 
coordinates Federal, state and local governments to ensure that 
restoration activities are organized effectively, ensuring that these 
high-hazard areas receive priority treatment. It also serves as an 
important focal point of communication between different layers of 
government, nongovernmental organizations, Tribes, and private 
landowners, providing regular updates on tree mortality and the status 
of restoration activities.
On the Web
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A central objective of this initiative is to enable participants to 
engage in discussions designed to deliver insights on current land 
management practices and identify improvements that will put western 
states on a path to developing healthy, resilient landscapes and 
communities. To ensure the conversation reaches the widest possible 
audience, WGA launched an online resource that includes videos of all 
Workshops, our Webinar series, and a variety of other resources. We've 
also created the Initiative Appendix, a document that delivers expanded 
detail on the conversations at each workshop, as well as responses to 
participant questionnaires.
Workshops
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Nearly 400 attendees took part in the four regional Initiative 
Workshops. The workshops were ``live-streamed'' on the web and 
subsequently posted to YouTube. Workshops were hosted by Gov. Steve 
Bullock in Montana, Gov. C.L. ``Butch'' Otter in Idaho, Gov. Dennis 
Daugaard in South Dakota and Gov. Kate Brown in Oregon.
Webinars
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Initiative webinar series featured the leading thinkers on 
topics such as ``The Future of Wild Horse and Burro Management,'' 
``Rangeland Management Strategies and Tools,'' and ``Land Management 
Conflict,'' which explored litigation and Alternative Dispute 
Resolution.

    Find the Initiative online resource and join the conversation at: 
westgov.org
Acknowledgments
    WGA appreciates the time and effort that workshop panelists 
provided to the initiative. We would also like to thank the following 
for their assistance throughout the past year:

 
 
 
    Bob Harrington, Montana State        Keith Lannom, USFS Payette
 Forester                             Forest Supervisor
    Tim Baker, Member, Northwest         Charles Lyons, RFPA Member,
 Power and Conservation Council       Percy Ranch
                                         Jeremy Maestas, Natural
                                      Resources Conservation Service
    Christine Dawe, Director of          Joe Merrick, Owyhee County
 Renewable Resources Management,      Commissioner
 U.S. Forest Service                     Mikal Moore, National Wild
                                      Turkey Federation
    Kelsey Delaney, Policy               Peg Polichio, IDL GNA
 Director, Council of Western State   Contractor
 Foresters                               Cheryl Probert, USFS Nez Perce-
    Patrick Holmes, Natural           Clearwater Forest Supervisor
 Resources Advisor, Montana              Brenda Richards, Owyhee County
 Governor's Office                    Rancher
                                         John Robison, Idaho Forest
                                      Restoration Partnership
Panelists and Speakers                   Allen Rowley, USFS Rangeland
                                      Management Director
Missoula, Montana Workshop               Tom Schultz, Director, Idaho
                                      Department of Lands
September 20-21, 2016                    Julia Sullens, IDL
                                         Rick Tholen, Payette Forest
                                      Coalition
    Honorable Steve Bullock,             Troy Timmons, WGA
 Governor of Montana
    Tom Tidwell, Chief, U.S. Forest      Will Whelan, The Nature
 Service                              Conservancy
    James D. Ogsbury, WGA Executive
 Director
    Matt Arno, Local Government          Deadwood, South Dakota Workshop
 Forest Advisor, Montana DNRC            December 1-2, 2016
    Tim Baker, Montana Governor's
 Office
    Rebecca Barnard, National            Honorable Dennis Daugaard,
 Forestry Programs Manager,           Governor of South Dakota
 National Wild Turkey Federation         Troy Timmons, WGA
    Mo Bookwalter, DNRC-USFS             Craig Bobzien, USFS, Black
 Liaison                              Hills National Forest Supervisor--
    Caroline Byrd, Executive          Retired
 Director, Greater Yellowstone           Ryan Brunner, Commissioner of
 Coalition                            South Dakota School and Public
    Cecilia Clavet, Senior Policy     Lands
 Advisor, The Nature Conservancy         Chance Davis, Heart Tail Ranch,
                                      LLP
    Tony Colter, Plant Manager, Sun      Christine Dawe, USFS
 Mountain Lumber Company                 Kelsey Delaney, Council of
                                      Western State Foresters
    Christine Dawe, Acting Director      Jay Esperance, SDDA Wildland
 of Forest Management, USFS           Fire Director
    Kelsey Delaney, Council of           Mike Jaspers, Secretary, South
 Western State Foresters              Dakota Department of Agriculture
                                      (SDDA)
    Ryan Domsalla, West Fork             Eric Jennings, Hollow Valley
 District Ranger, Bitterroot          Ranch
 National Forest, USFS                   Karl Jensen, South Dakota
    Carol Ekarius, Executive          Association of Conservation
 Director, Coalition for the Upper    Districts
 South Platte                            Greg Josten, State Forester,
    Jonas Feinstein, State            South Dakota Department of
 Conservation Forester, Natural       Agriculture (SDDA)
 Resources Conservation Service          Lori ``Chip'' Kimball, BLM
    Tom France, Senior Director,         Steve Kozel, USFS, District
 Western Wildlife Conservation,       Ranger, Black Hills National
 National Wildlife Federation         Forest
    Tom Fry, Western Conservation        Jim Neiman, Neiman Enterprises
 Director, American Forest            Inc.
 Foundation                              Dave Ollila, Sheep Field
    Ron Gray, Wood Fuel Manager,      Specialist, South Dakota State
 Avista Utilities                     University Extension
    Buddy Green, Wyoming Deputy          Jeff Parrett, Wheeler Lumber,
 State Director, U.S. Bureau of       LLC
 Land Management                         Bob Paulson, The Nature
                                      Conservancy
    Joseph Hansen, Conservation          Hunter Roberts, South Dakota
 Forester, Jefferson Conservation     Governor's Office
 District                                Allen Rowley, USFS
    Bob Harrington, Montana State        Bill Smith, South Dakota
 Forester                             Department of Agriculture
    Wayne Hedman, Bitterroot             David Steffen, Mid Missouri
 Restoration Committee                River Prescribed Burn Association
    Jennifer Hensiek, Missoula           Dan Svingen, USFS
 District Ranger, Lolo National
 Forest, USFS
    Bill Imbergamo, Executive            Dave Thom, Custer Conservation
 Director, Federal Forest Resource    District & Coordinator of the MPB
 Coalition                            Working Group
    Denny Iverson, Blackfoot             Nancy Trautman, Pennington
 Challenge                            County Commissioner
    Dyrk Krueger, Enhanced Forest        Mark Van Every, USFS, Black
 Management, Inc.                     Hills National Forest Supervisor
    Rich Lane, Willis Enterprises
    Tera Little, Farm Bill ID Team       Mike Wood, High Ridge
 Leader, USFS                         Leadership
    Tim Love, Montana Forest             Ben Wudtke, Black Hills Forest
 Collaboratives' Network              Resource Association
    Sarah Lundstrum, National Parks      Mary Zimmerman, Black Hills
 Conservation Association             National Forest Advisory Board
    Leanne Marten, Regional
 Forester, USFS Northern Region
    Mary Mitsos, National Forest
 Foundation
    Cassandra Moseley, Director,         Bend, Oregon Workshop
 Institute for a Sustainable             January 23-24, 2017
 Environment, University of Oregon
    Mark Peck, Lincoln County
 Commissioner, MT
    Mike Petersen, Lands Council         Honorable Kate Brown, Governor
                                      of Oregon
    Ralph Rau, Regional Fire and         Leslie Weldon, Deputy Chief,
 Aviation Director, USFS--Region 1    U.S. Forest Service
                                         James D. Ogsbury, WGA Executive
                                      Director
    Chuck Roady, General Manager,        Ron Alvarado, State
 F.H. Stoltze Land and Lumber         Conservationist, NRCS
                                         Bill Aney, Former Eastside
                                      Restoration Coordinator, USFS
    Gordy Sanders, Resource              Steve Beverlin, Malheur
 Manager, Pyramid Mountain Lumber     National Forest Supervisor, U.S.
                                      Forest Service
    Dave Schulz, Madison County          Pete Caligiuri, The Nature
 Commissioner, MT                     Conservancy
    John Tubbs, Director, Montana        Nils Christofferson, Wallowa
 DNRC                                 Resources
    Russ Vaagen, Vice President,         Peter Daugherty, Oregon State
 Vaagen Bros Lumber Co.               Forester
    Chas Vincent, Kootenai Forest        Chad Davis, Partnership and
 Stakeholders Coalition               Planning Program Director, Oregon
                                      Department of Forestry
Boise, Idaho Workshop                    Steve Grasty, Judge (Retired),
                                      Harney County, Oregon
October 20-21, 2016                      Karen Hardigg, Rural Voices for
                                      Conservation Coalition
                                         Paul Henson, Oregon State
    Honorable C.L. ``Butch'' Otter,   Director, U.S. Fish and Wildlife
 Governor of Idaho                    Service
    Jim Lyons, U.S. Department of        Paul Hessburg, U.S. Forest
 the Interior                         Service
    James D. Ogsbury, WGA Executive      Tom Insko, Eastern Oregon
 Director                             University
    Steve Acarregui, BLM Fire and        Travis Joseph, American Forest
 Aviation Directorate                 Resource Council
    David Anderson, Natural              Jason Miner, Governor Kate
 Resource Results                     Brown's Natural Resource Policy
    Zoanne Anderson, Maggie Creek     Manager
 Area Manager, IDL
    Dennis Becker, University of         Cassandra Moseley, University
 Idaho                                of Oregon
    Bob Boeh, Idaho Forest Group         John O'Keeffe, Oregon
                                      Cattlemen's Association
    Mike Courtney, Twin Falls            Jim Pena, Regional Forester,
 District Manager, U.S. Bureau of     U.S. Forest Service
 Land Management                         Sally Russell, Mayor Pro Tem of
                                      Bend, Oregon
    Gordon Cruickshank, Valley           Mark Stern, The Nature
 County Commissioner                  Conservancy
    Christine Dawe, USFS Acting          Sean Stevens, Oregon Wild
 Director of Forest Management           John Stromberg, Mayor of
                                      Ashland, Oregon
    Kelsey Delaney, Council of           Troy Timmons, WGA
 Western State Foresters
    Don Ebert, Clearwater County         Mark Webb, Blue Mountains
 Commissioner                         Forest Partners
    Mary Farnsworth, USFS Acting
 Deputy Regional Forester
    Craig Foss, IDL
    David Groeschl, Idaho
 Department of Lands (IDL)
    Toni Hardesty, The Nature
 Conservancy
    Darcy Helmick, RFPA Member
    Alex Irby, Clearwater Basin
 Collaborative
    Liz Johnson-Gebhardt, Priest
 Community Forest Connection
    Don Kemner, Idaho Department of
 Fish and Game
    Shawn Keough, Associated
 Logging Contractors--Idaho
    Gina Knudson, USFS Salmon-
 Challis National Forest
    Terry Kramer, Twin Falls County
 Commissioner
 

WGA Thanks Our . . .
Initiative Sponsors
Workshop Sponsor
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Idaho Forest Group
Workshop Supporters
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
National Wild Turkey Foundation      Neiman Enterprises, Inc.
 

Initiative Affiliates
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
American Sheep Industry  Theodore Roosevelt       Public Lands Council
 Association              Conservation
                          Partnership
 

                                                  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                  

 
 
 
                  National Cattlemen's Beef Association
 

Initiative Funding Also Provided By
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
United States Department of          United States Department of
 Agriculture, Forest Service          Agriculture, Natural Resources
                                      Conservation Service
 

                                 ______
                                 
                          Submitted Questions
Response from John Phipps, Deputy Chief for State and Private Forestry, 
        U.S. Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. Deputy Chief Phipps, 2020 has been an unprecedented 
fire year. Over 7 million acres have burned nationwide, a figure that 
exceeds the 10 year-to-date average by a million acres. In addition to 
this, the COVID-19 health crisis presents new challenges to the 
wildland fire system. Can you take a moment to discuss the unique 
factors at play this wildfire year? Does the Forest Service have the 
necessary resources--including agency personnel, physical assets, and 
personal protective equipment to meet current challenges?
    Answer. This fire year was challenging due to many factors, not the 
least of which was modifying our response efforts to incorporate 
employee and community protections against COVID-19. In addition to 
challenges in preparing for a fire year during a global pandemic, 
toward the end of the fire season, we had extreme fire activity 
occurring simultaneously across multiple geographic areas in the Rocky 
Mountains and the West Coast.
    In a typical fire year, fire activity transitions from the 
southwestern part of the country, to the western states and then into 
southern California, allowing for resources to move around the country, 
surging to the areas of greatest need. In latter part of the 2020 fire 
year, we saw a simultaneous and persistent need for resources 
throughout the western United States, stretching resources to their 
limit for several weeks. The wildland fire system was able to respond 
effectively despite these significant challenges. The agency 
anticipates similar challenges in the future and will be evaluating and 
implementing many lessons learned to better position ourselves for 
future fire years. The supplemental funding received from the 
Coronavirus Aid, Relief, and Economic Security Act provided the agency 
with much needed resources to ensure that adequate personal protective 
equipment was available to all agency wildland fire responders.
    This year, despite these challenging circumstances, the agency was 
able to deliver an effective interagency wildland fire response, at 
certain times deploying over 32,000 firefighters, the largest 
mobilization since record keeping began. The agency is focused on 
providing a strategy to modernize our preparedness and response efforts 
and adopting best practices learned from this year's deployments. We 
are moving to a virtual posture whenever possible to provide support 
across many areas simultaneously rather than utilizing large fire camps 
for firefighter support. These changes were a vast improvement over 
historical practices and will continue.

    Question 2. Deputy Chief Phipps, in a budget hearing earlier this 
year, Chief Christiansen testified to the need of shifting the wildland 
firefighting workforce towards full-time to account for the changes we 
are experiencing across landscapes, including longer and more intense 
fire seasons as a result of climate change. Please take some time to 
discuss the need for a full-time firefighting workforce--both in terms 
of reducing fire risk and improving forest health overall?
    Answer. A full-time firefighting workforce would allow the agency 
to more effectively address the entirety of the wildland fire cycle, 
and the agency continues to work towards a more effective balance of 
full-time and seasonal firefighters. Year-round wildland fire resources 
could increase--the agency's capacity to treat hazardous fuels and 
large landscapes prior to the most active months of the fire year and 
still provide a robust response capability during months of peak 
activity. Additionally, a year-round work force reduces the 
administrative burden of on-boarding thousands of temporary and 
seasonal firefighters each year.

    Question 3. Across much of the United States, fire seasons have 
lengthened by as many as 20 days per decade over the last forty years. 
As climate change continues to intensify fire seasons, what steps is 
the Forest Service taking to proactively manage fire risk?
    Answer. It is true that annual fire seasons are weeks longer than 
they were a few decades ago as forest management activities have seen a 
decrease since the 1990's. Agencies often now refer to the ``fire 
year'' instead of the ``fire season.'' The Forest Service is an active 
partner in the National Cohesive Wildfire Management Strategy (Cohesive 
Strategy). The Cohesive Strategy has three goals, and the Forest 
Service is making meaningful progress on all three.

  1.  Resilient Landscapes--The agency is involved in many initiatives 
            to foster resilient landscapes across all land ownerships 
            (e.g., Collaborative Forest Landscape Restoration, Shared 
            Stewardship, and Quantitative Wildfire Risk Assessments). 
            Agency researchers are leading the world on diverse topics 
            such as small-diameter wood utilization needed to cost-
            effectively thin forests for improved health; developing 
            models to better predict fire behavior under future weather 
            conditions; and pioneering physics-based approaches to 
            modeling wildfire and smoke to forecast airhazards to 
            communities.

  2.  Fire Adapted Communities--the most tragic wildfire consequences 
            often occur in communities and in the wildland-urban 
            interface. The agency is a supportive partner in many 
            projects to help communities become more fire resilient and 
            learn to live with fire. These projects include: Community 
            Mitigation Assistance Teams, https://www.fs.usda.gov/
            managing-land/fire/cmat; Community Planning Assistance for 
            Wildfire, https://cpaw.headwaterseconomics.org/; Federal 
            Excess Personal Property program, https://www.fs.usda.gov/
            managing-land/fire/fepp; Fire Adapted Communities Learning 
            Network, https://fireadaptednetwork.org/; Firewise USA, 
            https://www.nfpa.org/Public-Education/Fire-causes-and-
            risks/Wildfire/Firewise-USA; Ready, Set, Go!, https://
            www.readyforwildfire.org/prepare-for-wildfire/ready-set-go/
            ; EPA's Smoke-Ready Toolbox, https://www.epa.gov/smoke-
            ready-toolbox-wildfires; and the Wildland Fire Assessment 
            Program, https://www.nvfc.org/programs/wildland-fire-
            assessment-program/. The agency also provides tools and 
            data for communities such as the Wildfire Risk to 
            Communities website, https://wildfirerisk.org/. The 
            dividends paid by these programs will be even more 
            important to meet the climate demands of the future.

  3.  Safe and Effective Wildfire Response--The Forest Service is 
            taking steps and working with partners to ensure that our 
            response to wildfires will be safe and effective. For 
            example:

      <bullet> The Forest Service is adjusting staffing levels to have 
            additional year-round 
              personnel available for response throughout the year.

      <bullet> All fire response agencies are fine-tuning guidance 
            about when and where 
              to deploy human resources to reduce risks to firefighters 
            and invest in ac-
              tions with the greatest likelihood of success.

      <bullet> Communication equipment and protocols are being updated.

    Question 4. Can you speak to the role of technology in wildland 
fire management? Are you aware of any innovative uses of technology in 
the field or currently being tested today? Where do you see technology 
being most useful in the future?
    Answer. Technology is a critical component in all aspects of 
wildland fire management. Technology and associated data are critical 
in decision support processes, risk management evaluations, and the 
monitoring and evaluation of both aircraft use and ground crews. 
Technology is the backbone of fire modeling and associated weather 
inputs that allow fire managers to understand current and predicted 
fire behaviors. These outputs, fused with resource availability and 
use, allow fire managers to view a landscape at a tactical and 
strategic level to ensure effective and efficient use of fire resources 
is occurring. The use of technology during this most recent fire year 
allowed incident management organizations to operate more safely 
despite the COVID-19 pandemic by providing a cloud-based collaboration 
suite of tools that could be managed in remote locations, significantly 
reducing the need for continuous face-to-face interactions.
    Innovation is occurring at all levels and business areas of fire 
management. Unmanned aerial systems and High Altitude Long Endurance 
resources are currently being tested to enhance unmanned aerial systems 
use and improve situational awareness. The installation and use of 
ground-based camera systems has mostly phased out the need for staffing 
lookout towers, as well as providing better coverage of the landscape 
for wildland fire detection and monitoring. The testing and integration 
of fire resource tracking systems is currently being evaluated across 
the fire community with several different tracking devices and back-end 
systems to view and analyze the data.
    Technology will continue to enhance situational awareness in 
wildland fire and landscape impacts caused by fire. Technology will 
allow firefighters to analyze situations using current and historical 
data processed with artificial intelligence giving probabilities of 
success based on a given tactic.

    Question 5. How has the COVID-19 crisis impacted the number of 
firefighters and other support personnel? How does the number of 
personnel deployed to respond to wildfire this year compare to past 
seasons? Do you have an adequate number of firefighters?
    Answer. COVID-19 did decrease personnel on incident management 
teams due to individuals at high risk choosing not to participate this 
year. However, the interagency firefighting community was able to 
deploy over 32,000 firefighters at certain times during the 2020 fire 
year despite this challenge. This was the largest deployment of 
resources since record keeping began.

    Question 6. What measures and training protocols is the Forest 
Service implementing to mitigate COVID-19 virus exposure to wildland 
firefighters and the communities they serve? How is the Forest Service 
working to ensure COVID-19 related precautions are being implemented 
across all the geographic regions?
    Answer. The National Wildfire Coordination Group Fire Management 
Board has developed a hazard assessment toolkit to provide information 
and templates for the wildland fire community to assess current 
infection control, testing, and workplace procedures relating to COVID-
19 in the wildland fire environment. https://www.nwcg.gov/partners/fmb/
hazard-assessment-prevention-toolkit.
    Firefighters have received information on appropriate mask use, 
what to do when they are symptomatic and how to follow CDC guidelines 
and work with their local health officials. Agencies are emphasizing 
greater use of traditional and social media, as well as internet-based 
technologies to provide consistent communication with the public on 
wildfire issues where social distancing and ``Stay at Home'' orders 
limit in-person communication. When large fires require firefighters to 
travel from outside the local area, crews are being mobilized and 
supported in a manner that ensures social distancing and protection for 
local communities from the spread of COVID-19. Agencies are working 
with community leaders and local law enforcement, ensuring that 
community needs are being met and wildfire threats and capacity are 
clearly understood when planning firefighting strategy and evacuations. 
Large fire camps are not the norm. Most firefighting efforts are being 
accomplished in small groups and dispersed into isolated camps to 
provide firefighters and the public better social distancing and safety 
from the spread of COVID-19. Wildland fire agencies have adapted 
support functions to be accomplished virtually to maintain social 
distancing. We continue to work with interagency partners to determine 
when and how to bring in resources from outside the local area when a 
fire escapes initial attack.
    Mitigation measures also include crews maintaining a module-of-one 
philosophy at fire camps to keep crews isolated from one another; masks 
are required while on a fire or at the home unit when around anyone not 
on their module; physical distancing of at least 6 is required unless 
physically not possible, i.e., vehicles; vehicles are to maximize air 
flow/exchange with windows partially open and no use of recirculation 
of interior air; non-fire personnel are to wear masks and maximize 
physical distance from fire personnel when interaction is needed; and 
crews are expected to be self-sufficient, including a three-day supply 
of food and water for every crew member when they arrive on their fire 
assignment. Many crews procured coolers as well as another vehicle to 
carry food and water to limit their interaction with community members 
while traveling and ensure minimal support would be required on their 
assignments. Crews also designated individuals that dispensed fuel and 
went into convenience stores to get supplies to limit both exposure to 
community members and the crew. The Forest Service has a representative 
on the Medical Public Health Advisory Team that developed and 
disseminated guidance to fire personnel across the nation to follow.

    Question 7. The Forest Service recently unveiled a new website 
designed to help community leaders assess the wildfire risk in their 
community, region, and state. Have you received any feedback from 
community leaders on the website? Have you found it to be helpful 
during this fire season?
    Answer. Yes. Since the Wildfire Risk to Communities website was 
launched in April 2020, 22,000 people have visited with 73,000 page-
views. The bulk of these visits have been from western states, but we 
have had visits from every state. The website offers geospatial data 
downloads to create custom analysis. The geospatial data has been 
downloaded over 1,000 times. The California data alone has been 
downloaded 150 times.
    The project development team conducted a series of live webinars 
(e.g., National Association of State Foresters and American Planning 
Association), gave interviews for articles, and received comments from 
the website. The feedback has been extremely positive. Most are 
thankful for the new data and resources. There have been compliments 
about the organization and design of the website.
    Some comments have suggested improvements for future versions. Many 
commenters would like the data periodically updated and maintained. The 
Forest Service is collaborating with the University of Colorado to 
conduct a social survey of users to gain additional insight this winter 
and spring.
    Much of the wildland fire emphasis during the summer of 2020 was on 
suppression of active wildfires. The Wildfire Risk to Communities 
website focuses on identification and reduction of future risks. Also, 
due to fire activity in 2020, awareness of the website and its 
resources has grown slowly.
    In mid-September, the project team reached out to and provided 
geospatial data about housing unit density (from our website) to the 
WiFire Project (University of California San Diego). WiFire 
incorporated the data that same day to help round out their provision 
of real-time data for monitoring, modeling, research, and operational 
uses. The data helped advise operations for the rest of the 2020 
wildfire season.
    Additionally, the team has presented webinars this fall that 
included a retrospective look at some of the 2020 wildfires. We 
demonstrated to the webinar viewers that some areas of severe wildfires 
were only ranked in the mid-range for wildfire risk. This underscores 
the somewhat random nature of wildfire. We emphasized that wildfire 
risk awareness and mitigation actions to reduce wildfire risk should 
not be limited to the top-tier communities. Catastrophes can and do 
occur in communities with moderate risk. There is no way to predict 
which specific communities will be next.

    Question 8. The National Multiagency Coordinating Group released 
geographic-specific plans to help guide wildland fire response during 
the COVID pandemic. As I understand it, the plans are working 
documents. They will be updated as new information becomes available. 
Drawing on these working plans, can you discuss how COVID-19 has 
impacted particular aspects of the wildland fire system. What lesson 
have been learned so far?
    Answer. The geographic area plans served their purpose by gathering 
and compiling key information nationally early in the pandemic. Each 
geographic area took a tailored approach to utilizing these plans and 
modifying as information became available. Measures developed to reduce 
concentrations of personnel and exposure to COVID-19 were successfully 
implemented.
    The wildland fire system embraced the concept of remote response, 
particularly in large fire management. We successfully used a remote 
Situation Unit and expanded into other incident management team 
functions such as the planning section, public information, and 
finance. Collaborative calls were held from the beginning of the 
western fire season with Incident Commanders, as well as other 
functional area representatives, in order to compare notes and best 
practices in dealing with mitigations for the pandemic. We learned that 
many functions can effectively work remotely and have plans to continue 
to fine tune these practices this winter in order to implement some 
into the future.
Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. The situation out West is highlighting the effects that 
a changing climate bring to bear on wildfire. Your testimony noted that 
this is an ``unprecedented year.'' California just had its warmest 
August on record. Even in Maine, we are experiencing an extended 
drought and the worst fire season in over a decade. As we face even 
higher temperatures, warmer winters, and decreased snowpack further 
worsening wildfires, what proactive steps is the Forest Service taking 
to respond to the challenge of climate change?
    Answer. The Forest Service has undertaken work in several areas to 
respond to the climate demands of the future and developed the 
Sustainability Scorecard to track the agency's progress toward 
sustainable management outcomes and to improve its ability to respond 
quickly to new challenges. The Scorecard provides evidence of the 
agency's progress toward addressing future risks, and helps us 
integrate change into our programs, plans, and projects.
    The Forest Service supports decision making grounded in best 
available science by developing datasets, tools, and methods to 
forecast the impacts of a changing climate on national forests and 
grasslands. For example, Forest Service Research and Development 
provides baseline data and research on climate driven interactions with 
wildfire, insect and disease outbreaks, and invasive species. This 
research is used to develop and enhance practices to improve climate 
resilience, including implementing fuel reduction treatments in forests 
throughout the West and South.
    The Forest Service is also addressing changing climate through our 
operations, decreasing emissions of greenhouse gases by 23% through 
FY19 compared to FY08, including emissions directly generated and from 
purchased electricity. Several Forest Service regions offer a 
microgrant program to encourage innovative methods of reducing the 
agency's environmental footprint.
    Consideration of climate is required under the 2012 Planning Rule, 
and the agency incorporates this into Land Management Plans as they are 
revised. To support this work, the Forest Service conducts regional and 
forest-level climate vulnerability assessments using the best available 
science on a variety of managed resources (e.g., trees, wildlife, 
recreation). The agency is updating its complete assessment of carbon 
stocks for every Region and Unit in the National Forest System, as well 
as developing a national comprehensive approach for including these 
assessments in land management planning and NEPA disclosures.
    The Forest Service is also addressing a changing climate by 
providing support and data for the World Economic Forum's One Trillion 
Trees initiative that President Trump announced the United Stated would 
join in January. The President followed this announcement by signing an 
Executive Order to establish the One Trillion Trees Interagency 
Council, which will be co-chaired by USDA. The initiative aims to 
increase carbon sequestration by managing, conserving, and regenerating 
our Nation's forests.
    The Forest Service is also supporting carbon uptake on private 
lands; for example, developing a silvics guide and economic models to 
support farmer uptake of agroforestry. In addition, the agency supports 
development of economical biofuels as well as wood innovations that can 
store carbon outside of forests; for example, furthering the use of 
wood in tall building construction.

    Question 2. The Forest Service's contribution to USDA's Climate 
Hubs has been essentially cut in half from 2016 levels. In response to 
a previous question for the record on this matter, the Forest Service 
wrote: ``The funding drop is reflective of prioritization of urgent 
forest restoration program and project work. However, the agency 
continues to support many important initiatives through our multiple 
Research and Development programs.''
    Can you provide more information about how these USFS Research and 
Development programs are working to address climate change?
    Answer. Forest Service Research and Development programs are 
working to address the climate demands of the future in several ways. 
First, the agency produces protocols, data, and map products of 
baseline carbon and greenhouse gas inventory estimates recognized and 
used by many as authoritative for all forests and ownerships in the 
United States. This research includes producing the official U.S. 
National Greenhouse Gas Inventory estimates for land use change and 
forestry, including carbon in harvested wood products. This research 
supports carbon accounting and markets which finance activities to 
reduce atmospheric CO<INF>2</INF>.
    Second, Forest Service Research and Development has recently 
developed a Library of Silvicultural Prescriptions and a Scenario 
Investment Planning Tool to identify climate resilient practices that 
support rural economies. We are developing science-based menus of 
adaptation approaches for forest managers and have played a key role in 
developing climate vulnerability assessments and adaptation plans. Our 
scientists are working with National Forests and partners to ensure 
restoration and afforestation projects use climate-resilient species 
that will succeed over time.
    Third, working directly with states, Research and Development is 
identifying potential land-based carbon sequestration strategies and 
opportunities for implementation to enhance climate mitigation. We are 
providing states and the National Forest System with information on 
carbon storage and flux to better understand carbon implications of 
policy, management, and planning activities. Our Forest Products Lab is 
developing and testing products to enhance long-term carbon 
sequestration in wood products and replace energy-intensive materials.
    In addition, Research and Development continues to work with 
stakeholders and the National Forest System to understand actual and 
potential social and economic impacts of a changing climate. Our 
scientists also study mechanisms to enhance and incentivize uptake of 
climate-smart practices.
    Finally, Research and Development monitors baseline impacts of a 
changing climate on forests and rangelands and studies interactions 
with wildfire, insect and disease outbreaks, and invasive species. This 
research is used to develop and enhance practices to improve climate 
resilience, including implementing fuel reduction treatments in forests 
throughout the West and South in order to reduce fuel loads which are 
largely responsible for increased fire severity.

    Question 2a. While I understand the Forest Service working with 
limited resources, it seems problematic to shortchange the Climate Hubs 
given the impact of climate change on every aspect of the Forest 
Service's work. How can we work with you to make sure longer-term 
climate solutions and resilience efforts aren't left behind?
    Answer. Critical work to improve climate resilience is ongoing in 
the Forest Service, and the Climate Hubs are an important part of this 
body of work. Long-term climate solutions and resilience efforts in 
forests and rangelands are bolstered by cross-agency efforts. The Five-
Year Review of the Climate Hubs indicated the demand for Climate Hub 
programs and products and services exceeds current capacity. We are 
evaluating the needs and our resources to ensure we are efficiently 
delivering our programs to maximize impact. We would be happy to work 
with you to address our capabilities in carrying out climate resilience 
efforts.

    Question 3. One obstacle to wildfire risk reduction is the lack of 
markets for small diameter wood, which means it is generally not cost-
effective to remove it. Mass timber like cross-laminated timber has the 
potential to drive demand for this material, reduce wildfire hazards, 
and even reduce the carbon footprint of new construction. The 2018 Farm 
Bill included some support for these types of innovative materials, but 
there is more that could be done.
    Would you agree that there is a need for a government-wide effort 
to develop markets for small diameter wood? How can we create a viable, 
at-scale market for this material?
    Answer. There is a need for increased market opportunities for 
small diameter wood across the United States to support healthy forests 
and reduced wildfire risk. Small dimension timber of both widely used 
species and underutilized species lacks markets. In the West, millions 
of acres of forests need intense management to thin our forests, 
improve forest health and reduce wildland fire risk. Northern states 
and areas along the Appalachian Range with hardwood forests have seen 
reduced markets due to off-shoring of the furniture manufacturing 
industry and the significant decline of printing and publishing paper.
    The Forest Service Wood Innovations Program expands and creates 
markets for wood products and renewable wood energy that support long-
term, sustainable management of the National Forest System and other 
forest lands. Markets for small diameter wood with substantial growth 
potential include, but are not limited to, mass timber, cellulosic 
nanomaterials in concrete and renewable wood energy. Continuing to 
invest in the Wood Innovations Program supports growing markets such as 
these through grant programs and infrastructure investment.

    Question 4. Along those lines, are there other areas where Congress 
can support Forest Service efforts that both reduce the immediate risk 
of wildfire and contribute to emissions reduction or carbon 
sequestration to reduce climate risks in the long run?
    Answer. As part of its FY 2021 budget request, the USDA submitted 
to Congress a package of legislative reforms to improve forest 
management and reduce wildfire risk. The proposals are intended to 
support healthy forests and rangelands and aid in efforts to protect 
homes, watersheds and critical infrastructure from catastrophic 
wildfires. The USDA would like to work with the committee to identify 
solutions that match the threat of the wildfire problem and scale of 
forest management needed.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Director Phipps, the Forest Service employs multiple 
types of aircraft to suppress fire on Federal lands. Can you tell us 
how single engine aircraft tankers and scoopers are utilized in the 
field as part of the agency's fire suppression efforts? Can you 
describe the mission profile of single engine aircraft tankers and 
scoopers? What drop objectives are met by these aircraft?
    Answer. Single engine airtankers are contracted by the Department 
of the Interior but are often ordered by incident commanders for use on 
Forest Service-protected lands. Single engine airtankers are utilized 
very similarly to large airtankers but only hold 800 gallons of 
retardant compared to 3,000 gallons or more for a large airtanker. 
There are many more single engine airtankers than large airtankers so 
they can be dispersed widely in the field. They often operate in 
flights of two aircraft to increase their retardant drop capability.
    The Forest Service contracts multi-engine water scoopers and uses 
them throughout the United States. Water scoopers can scoop and carry 
1,600 gallons of water from lakes and larger rivers and operate much 
like large helicopters. They complete rapid turnarounds to and from a 
water source to the fire, dropping tens of thousands of gallons of 
water in a few hours.
    Both single engine airtankers and water scoopers fly at lower 
altitudes throughout most of their flights. Single engine airtankers 
can operate from mobile retardant plants and are often based much 
closer to the fire than large airtankers which require support from 
larger airfields.
    Single engine airtanker retardant drops are used as part of an 
indirect attack to slow fire growth, allowing ground resources to 
contain the fire. Water scooper water drops are used in direct attack 
of the flaming front of a wildfire, slowing or stopping fire growth. 
This also allows ground resources to contain the fire.

    Question 2. Successful restoration of the sagebrush ecosystem after 
fire is critical for ranching communities and wildlife that depend on 
vegetative structure. In order to maximize an ecosystem's forage and 
wildlife value, it is also critical that restoration efforts take place 
in the same year as the fire. Without restoration efforts, the long-
term economic impacts of reduced forage, loss of infrastructure 
(fencing), and cost of future weed control are immense, and communities 
and some wildlife may not be able to recover. Deputy Chief Phipps, how 
is the Forest Service currently coordinating with NRCS to treat public 
and private lands after wildfire?
    Answer. Post-fire response and restoration is a shared challenge 
for public and private lands. The Forest Service Burned Area Emergency 
Response program works closely with the National Resource Conservation 
Service and local landowners and agencies to determine post-fire 
response actions necessary for the protection of human life and safety, 
infrastructure, and critical cultural and natural resources, including 
native plant communities. While Burned Area Emergency Response funding 
can only be used to accomplish mitigation actions on National Forest 
Systems lands, working with other local, state and Federal agencies 
like the National Resource Conservation Service provides additional 
mechanisms to work with an all-lands approach to post-fire actions. In 
order to coordinate across land ownerships, post-fire datasets are 
shared between the agencies to develop and implement actions. Key 
programs for private lands actions include the National Resource 
Conservation Service Emergency Watershed Protection program and the 
Environmental Quality Incentives Programs.
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
    Question 1. This has been an exceptionally difficult wildfire year, 
with the public health emergency adding another layer of complication 
to historic levels of fire. How is the Forest Service working with 
state and local health workers to coordinate and gain access to COVID-
19 testing, and how does the Forest Service make that information 
available internally? What is the process when a crew is moved to a 
different region or state?
    Answer. The availability of state/local health department workers 
and COVID-19 testing varied from town/state to town/state. Many health 
departments had no capacity to do contact tracing and had no capacity 
to deal with fire personnel on a fire, including testing. Other areas 
had more robust capacity and were able to work with fire personnel on 
testing and assist as needed and available. Standard procedure was that 
the local health department was contacted by the Incident Management 
Team Medical Unit Leader once a team arrived on a fire to better 
understand local resource capacity. Some Regions began to create COVID-
19 Coordinators to assist with this communication as well.
    Some states required COVID-19 testing when the crews returned to 
their home unit from a fire out of area/state. Alaska was the only 
state requiring a test before coming into the state.

    Question 2. How does the Forest Service leverage other USDA 
resources to help communities recover after wildfires? Does the Under 
Secretary coordinate with other Under Secretaries across USDA to 
organize wildfire recovery response?
    Answer. The Forest Service has leveraged other USDA resources to 
help communities recover after wildfires. We are helping our field 
units and personnel access resources available from USDA Rural 
Development financial assistance programs and connecting communities 
with the USDA Natural Resources Conservation Service in order to carry 
out post-fire treatments to protect natural resources and water 
infrastructure.

    Question 3. How does the agency ensure that its wildland 
firefighters and everyone they work with in fire camps--including their 
state and local partners--have adequate PPE for COVID-19? I understand 
that there is both a national and a regional component to this.
    Answer. The National Interagency Support Cache system, comprised 
primarily of the Forest Service and the Department of the Interior's 
Bureau of Land Management warehouses, provides equipment and supplies 
to Federal, state and local agencies in support of wildfire suppression 
activities. Pandemic support items (to include PPE) are supplied to 
fire camps from these warehouses.
    We have robust supply chains in place that support our national 
cache system, including our partnerships with the Defense Logistics 
Agency and other distributors of wildland firefighting equipment, PPE 
and other pandemic-specific items. We leveraged these existing supply 
chains early in 2020 so supplies continue to be available when needed 
to support our fire response from these warehouses.
Questions Submitted by Hon. Salud O. Carbajal, a Representative in 
        Congress from California
    Question 1. What additional resources does the USDA need in order 
to utilize their existing authorities to actively manage our forests, 
rangelands, and other Federal lands to improve conditions and reduce 
wildfire risk?
    Answer. As part of its FY 2021 budget request, the USDA submitted 
to Congress a package of legislative reforms to improve forest 
management and reduce wildfire risk. The proposals are intended to 
support healthy forests and rangelands and aid in efforts to protect 
homes, watersheds and critical infrastructure from catastrophic 
wildfires. The USDA would like to work with the committee to identify 
solutions that match the threat of the wildfire problem and the scope 
and scale of forest management needed.

    Question 2. How does the national wildfire potential outlook appear 
as we head into the fall months? When do you expect we will start to 
see a decrease in wildfire activity?
    Answer. La Nina and current fuel conditions remain the principle 
drivers of significant fire potential into spring. Drought conditions 
are expected to continue for much of California, the Great Basin, and 
the Southwest into the winter with drying expected to increase across 
portions of the Southern Plains and Southeast. Offshore wind events 
will continue to be a concern across southern California in December 
given the dry fuels and lack of forecast precipitation through early 
December.
    Over the winter, the expected warming and drying trend across the 
southern tier of the United States due to La Nina and other large-scale 
climate forces will likely result in above normal significant fire 
potential for portions of the Southern Plains. Drought intensification 
and expansion from the Southern Plains into southern California is 
likely. Strong wind and low relative humidity events could occasionally 
increase fire activity in portions of the Great Basin and Southwest 
this fall into winter as well. Outside of the Southern Plains, 
significant fire potential will likely remain near normal for the rest 
of the United States.

    Question 3. What measures and training protocols is the Forest 
Service implementing to mitigate COVID-19 virus exposure to wildland 
firefighters and the communities they serve? How is the Forest Service 
working to ensure COVID-19 related precautions are being implemented 
across all the geographic regions? Can you please explain how the 
Forest Service has worked with other Federal Agencies and the White 
House Coronavirus Task Force to develop and implement strategies to 
prevent the spread of COVID-19 and ensure the safety of both 
firefighters and civilians effected during fire season?
    Answer. Mitigations for COVID-19 exposure include: the module-of-
one crew concept used at fire camps to keep crews isolated from one 
another; masks are required when around anyone not in your module on 
the fire or when at the home unit; physical distancing of at least 6 
required unless physically not possible, i.e., vehicles; vehicles are 
to maximize air flow/exchange with windows partially open, no use of 
recirculation of interior air; non-fire personnel are to wear masks and 
maximize physical distance from fire personnel when interaction is 
needed. A crew, when mobilized to a fire, is expected to be self-
sufficient including food and water for three days once on the fire. 
This limited their interaction with community members while traveling. 
The crews also had designated individuals that dispensed fuel and went 
into convenience stores to get snacks/drinks to limit both exposure to 
community members and the crew.
    The Forest Service has a representative on the National Wildfire 
Coordinating Group, Medical and Public Health Advisory Team, an 
interagency group compiled of physicians and public health officers 
from the Department of [the] Interior, Forest Service, and the National 
Institute for Occupational Safety and Health/Centers for Disease 
Control. This group has created guidance for fire personnel across the 
nation to follow, which includes the above.

    Question 4. The CARES Act provided $7 million to the Forest Service 
to prevent, prepare, and respond to coronavirus--including to purchase 
Personal Protect Equipment (PPE) and baseline health testing. How much 
of these funds have already been spent, and what were they used for? Do 
you anticipate there will be a need for more funding?
    Answer. At the end of Fiscal Year 2020, $5 million of the CARES Act 
funds were spent. National purchases of PPE like masks, hand sanitizer, 
and digital thermometers were distributed throughout the wildland fire 
organization and made available at every fire camp. The need for 
additional funding will be dependent on the COVID-19 situation 
nationally in the early spring months when significant fire activity 
usually begins each year.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
